<html>
<title> - ASSESSING PUBLIC HEALTH AND THE DELIVERY OF CARE IN THE WAKE OF KATRINA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



ASSESSING PUBLIC HEALTH AND THE DELIVERY OF CARE IN THE WAKE OF KATRINA

=======================================================================

                             JOINT HEARING

                               before the

                         SUBCOMMITTEE ON HEALTH

                                and the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 2005

                               __________

                           Serial No. 109-50

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
24-248PDF                WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

RALPH M. HALL, Texas                 JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida             Ranking Member
  Vice Chairman                      HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia             BART GORDON, Tennessee
BARBARA CUBIN, Wyoming               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
HEATHER WILSON, New Mexico           BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona             ELIOT L. ENGEL, New York
CHARLES W. ``CHIP'' PICKERING,       ALBERT R. WYNN, Maryland
Mississippi, Vice Chairman           GENE GREEN, Texas
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania        JIM DAVIS, Florida
MARY BONO, California                JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  HILDA L. SOLIS, California
LEE TERRY, Nebraska                  CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey            JAY INSLEE, Washington
MIKE ROGERS, Michigan                TAMMY BALDWIN, Wisconsin
C.L. ``BUTCH'' OTTER, Idaho          MIKE ROSS, Arkansas
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                      Bud Albright, Staff Director

        David Cavicke, Deputy Staff Director and General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                         Subcommittee on Health

                     NATHAN DEAL, Georgia, Chairman

RALPH M. HALL, Texas                 SHERROD BROWN, Ohio
MICHAEL BILIRAKIS, Florida             Ranking Member
FRED UPTON, Michigan                 HENRY A. WAXMAN, California
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
CHARLIE NORWOOD, Georgia             FRANK PALLONE, Jr., New Jersey
BARBARA CUBIN, Wyoming               BART GORDON, Tennessee
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOHN B. SHADEGG, Arizona             ANNA G. ESHOO, California
CHARLES W. ``CHIP'' PICKERING,       GENE GREEN, Texas
Mississippi                          TED STRICKLAND, Ohio
STEVE BUYER, Indiana                 DIANA DeGETTE, Colorado
JOSEPH R. PITTS, Pennsylvania        LOIS CAPPS, California
MARY BONO, California                TOM ALLEN, Maine
MIKE FERGUSON, New Jersey            JIM DAVIS, Florida
MIKE ROGERS, Michigan                TAMMY BALDWIN, Wisconsin
SUE MYRICK, North Carolina           JOHN D. DINGELL, Michigan,
MICHAEL C. BURGESS, Texas              (Ex Officio)
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)

                                     

                                     

                                     

                                     

                                     

                                     

                                     

                                     

                                     

                                     

              Subcommittee on Oversight and Investigations

                    ED WHITFIELD, Kentucky, Chairman

CLIFF STEARNS, Florida               BART STUPAK, Michigan
CHARLES W. ``CHIP'' PICKERING,         Ranking Member
Mississippi                          DIANA DeGETTE, Colorado
CHARLES F. BASS, New Hampshire       JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  JAY INSLEE, Washington
MIKE FERGUSON, New Jersey            TAMMY BALDWIN, Wisconsin
MICHAEL C. BURGESS, Texas            HENRY A. WAXMAN, California
MARSHA BLACKBURN, Tennessee          JOHN D. DINGELL, Michigan,
JOE BARTON, Texas,                     (Ex Officio)
  (Ex Officio)

                                 (iii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Blakeney, Barbara, President, American Nurses Association....    86
    Cappiello, Joe, Vice President, Accreditation Field 
      Operations, Joint Commission on Accreditation of Healthcare 
      Organizations..............................................    74
    Dufour, Bob, Vice President, Pharmacy Services, Wal-Mart, 
      Inc. on Behalf of National Association of Chain Drug Stores    79
    Gerberding, Julie, Centers for Disease Control, Department of 
      Health and Human Services..................................    25
    Hoven, Ardis, Member, Board of Trustees, American Medical 
      Association................................................    70
    Kirsch, Thomas, American Red Cross...........................    59
    Peters, Mark, President and CEO, East Jefferson Memorial 
      Hospital, on Behalf of American Hospital Association.......    64
    Simmons, Bernard, Chair, National Association of Community 
      Health Centers, Inc........................................    72

                                  (v)

  

 
ASSESSING PUBLIC HEALTH AND THE DELIVERY OF CARE IN THE WAKE OF KATRINA

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2005

              House of Representatives,    
              Committee on Energy and Commerce,    
                        Subcommittee on Health, and the    
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m., in 
room 2123, Rayburn House Office Building, Hon. Nathan Deal 
(chairman of the Subcommittee on Health) and Hon. Ed Whitfield 
(chairman of the Subcommittee on Oversight and Investigations) 
presiding.
    Members present, Subcommittee on Health: Representatives 
Deal, Hall, Bilirakis, Upton, Gillmor, Shimkus, Shadegg, Pitts, 
Ferguson, Burgess, Barton (ex officio), Brown, Waxman, Gordon, 
Rush, Eshoo, Strickland, DeGette, Capps, Allen, and Dingell (ex 
officio).
    Members present, Subcommittee on Oversight and 
Investigations: Representatives Whitfield, Stearns, Ferguson, 
Burgess, Blackburn, Barton (ex officio), Stupak, DeGette, 
Schakowsky, Inslee, Baldwin, Waxman, and Dingell (ex officio).
    Staff present: Bud Albright, staff director; Chuck Clapton, 
chief health counsel; Brandon Clark, policy coordinator; 
Melissa Bartlett, majority health counsel; David Rosenfeld, 
majority health counsel; Nandan Kenkeremath, majority health 
counsel; Mark Paoletta, chief oversight and investigations 
counsel; Andrew Snowdon, oversight and investigations counsel; 
Chad Grant, health legislative clerk; Jonathan Pettibon, 
oversight and investigations clerk; Michael Abraham, oversight 
and investigations clerk; Edith Holleman, minority professional 
staff; Voncille Hines, minority research assistant; Jessica 
McNiece, minority research assistant; John Ford, minority 
professional staff; Chris Knauer, minority professional staff; 
Amy Hall, minority professional staff; Bridgett Taylor, 
minority professional staff; Purvee Kempf, minority 
professional staff; and Chris Treanor, minority intern.
    Mr. Deal. Good morning. The subcommittees will come to 
order.
    As everyone is now aware, Hurricane Katrina devastated the 
lives of countless thousands of people living along America's 
Gulf Coast and decimated much of the public health structure in 
the areas that were hit by the hurricane.
    The purpose of today's hearing is to focus on the current 
situation on the ground in terms of public health and the 
health delivery infrastructure, and to focus on how we can 
improve our preparation and response to similar natural 
disasters in the future.
    A broad list of public and private sector organizations are 
working together in efforts to improve the lives of people 
affected by Hurricane Katrina, and I am proud to say that many 
of these groups are represented here today on our panels.
    We have two panels of witnesses appearing before us, and I 
believe they certainly can help shed light on the current 
situation in the affected areas and on the direction we need to 
take in the future to lessen the impact of similar natural 
disasters.
    We look forward to hearing the testimony of both panels, 
and on behalf of the American people, we applaud you and the 
efforts that you have made in light of the Katrina disaster.
    I would also like to thank my good friend from Kentucky, 
Mr. Whitfield, and his staff on the Oversight and 
Investigations Subcommittee, for joining me and my staff in 
preparing and conducting today's hearing; and we will 
alternate. Since this is a joint meeting of both subcommittees, 
I'll be presiding over the first panel and then I will turn the 
gavel over to Mr. Whitfield at that time for his presiding over 
the second panel.
    We, of course, are all aware that Hurricane Katrina is not 
maybe the last on our list of hurricanes to be concerned about 
today. We originally, of course, had scheduled to have Stewart 
Simonson, the Assistant Secretary of the Office of Public 
Health Emergency Preparedness, with us, but in light of the 
fact that as of about 6:50 last night the National Weather 
Service announced that Hurricane Rita was the third most 
intense hurricane on record and was apparently headed for the 
Texas and Louisiana coast, and had been categorized as a 
Category 5 hurricane. And warnings had been issued, and I 
think--my understanding is, approximately 1.3 million people in 
the States of Louisiana and Texas have been ordered to 
evacuate.
    Certainly in light of that and in light of his capacity in 
that regard, he has asked that he be allowed to attend to that 
emergency rather than a hearing here before these 
subcommittees; and certainly we have consented to that. We want 
him to be where he needs to be to do his job, and that is the 
reason for his absence.
    But we are pleased to have Dr. Gerberding, who is the 
remaining panel member for the first panel.
    [The prepared statement of Hon. Nathan Deal follows:]
   Prepared Statement of Hon. Nathan Deal, Chairman, Subcommittee on 
                                 Health
    The Committee will come to order, and the Chair recognizes himself 
for an opening statement.
    At 6:50 p.m. last night, the National Weather Service announced 
that Hurricane Rita became the third most intense hurricane on record. 
As a storm-weary Gulf Coast braced for another hit, Rita grew in 
strength with frightening speed, becoming a 165-mph, Category 5 
nightmare in a matter of mere hours. A hurricane warning has been 
issued from Port Mansfield, Texas, to Cameron, Louisiana, prompting 
more than 1.3 million people in the states of Texas and Louisiana to be 
ordered to evacuate by authorities who have learned painful lessons in 
the wake of Hurricane Katrina.
    Hurricane Katrina devastated the lives of countless thousands of 
people living along America's Gulf Coast and decimated most of the 
public-health infrastructure in the areas hit by the hurricane. The 
purpose of today's hearing is to focus on the current situation on the 
ground in terms of public health and health delivery infrastructure and 
to focus on how we can improve our preparation and response to similar 
natural disasters in the future.
    A broad list of public and private sector organizations are working 
together on efforts to improve the lives of the people affected by 
Hurricane Katrina, and I am proud to say that many of these groups are 
represented here today. We have two expert panels of witnesses 
appearing before us this morning that I believe will help shed some 
light on current situation in the affected areas and on the direction 
we need to take in the future to lessen the impact of similar natural 
disasters. We look forward to hearing your testimony, and on behalf of 
the American people, we applaud you for your efforts.
    I would also like to thank my good friend from Kentucky, Mr. 
Whitfield, and his staff on the Oversight and Investigations 
Subcommittee for joining me in preparing and conducting today's 
hearing, and I now recognize him for five minutes for the purpose of 
making an opening statement.

    Mr. Deal. At this time I will turn to my colleague from 
Ohio, the ranking member of the Health Subcommittee, Mr. Brown, 
for his opening statement.
    Mr. Brown. Thank you, Mr. Chairman.
    Welcome, Dr. Gerberding, back to our subcommittee.
    Hurricane Katrina has left Americans with more questions 
than answers. We want to know how to respond, we want to know 
what happened, we want to know what could have been done 
better, we want to know how to prevent such catastrophic 
effects in the future.
    The public health arena is no exception. We see the images 
emerging from the Gulf Coast, we hear the stories and watch the 
death toll grow, we wonder what we could have done to save 
people trapped by illness or by infirmity.
    As policymakers, we must temper our grief with the firm 
resolve to understand what happened and correct our mistakes. 
That will no doubt prove a challenge. It is not enough to be 
ready for another Katrina. Preparedness for one type of 
disaster does not translate into preparedness for another; we 
learned that the hard way. It is not enough to look at short-
term needs; we must look at long-term investment.
    This Nation has not only witnessed the traumatic effects of 
Katrina, we've witnessed--if only for a few days, we've 
witnessed the insidious effects of poverty. We're paying a 
steep price for neglecting basic government functions, for 
ignoring the hardships around us.
    Public safety is not an option; it's an imperative. When 
tax cuts trump public safety, when tax cuts trump public 
safety, government is shirking its most basic responsibility. 
That is short-sighted.That's reckless. We need to invest in CDC 
and FEMA and HRSA and other agencies that promote public health 
and safety. This Congress learned that the hard way.
    Impoverished communities in a wealthy nation are not an 
inconvenient reality; they are a failure of government. We need 
to invest in the services that help Americans bounce back after 
a crisis and build better lives, services like Medicaid, like 
food stamps, like public education. It would be easy to ignore 
that piece of the Katrina puzzle; it would also be unethical.
    I hope this hearing answers a number of questions about the 
response to Katrina and what needs to be done before the next 
disaster strikes. And the resources that we've allocated in the 
past, for example to HHS for bioterrorism preparedness, proved 
useful in responding to Hurricane Katrina. What did Katrina 
teach us about preparedness for other disasters, not just from 
floods of another hurricane, but from a pandemic flu outbreak, 
from a bioterror nuclear attack.
    What is a realistic timeframe for crafting an effective 
disaster response, one flexible enough to accommodate a range 
of possible disasters in our Nation's geographic, demographic, 
and socioeconomic diversity?
    As we consider these questions, it is important to remember 
the other public health issue left unconsidered. We can't 
ignore Medicaid and claim--not to mention cut Medicaid--and 
claim to be stewards of the public health. Public health rests 
in prevention, it rests in detection, it rests in treatment. 
Medicaid means treatment for Katrina victims and for millions 
of others in need.
    What are we going to do to ensure access to Medicaid for 
Katrina's victims when their home States were already in crisis 
prior to Katrina, and their host States were overwhelmed prior 
to Katrina? The Bush administration has graciously agreed to 
ensure that Mississippi and Alabama and Louisiana pick up the 
tab if one of their residents seeks health care in a host 
State. Coupled with the President's desire to cut Medicaid $10 
billion and continue to pursue more tax cuts, that's not 
hurricane relief, it's a collection service.
    In a democratic society, every member is equally important. 
The government's role is to promote society as a whole by 
protecting and empowering every member. Katrina forced us to 
acknowledge that government is not doing its job.
    I am pleased the Energy and Commerce Committee is taking a 
step to move in the right direction.
    Thank you, Mr. Chairman.
    Mr. Deal. I now recognize the chairman of the Oversight and 
Investigations Subcommittee, Mr. Whitfield from Kentucky, for 
his opening statement.
    Mr. Whitfield. Mr. Chairman, thank you very much. And I 
want to thank you and your staff for proceeding with this 
hearing with Oversight and Investigations. We welcome the 
opportunity to work with you on this critical issue.
    The extent of Katrina's devastation has been truly 
unimaginable, and the impact of the storm, we know, will be 
felt for years to come.
    Just as Katrina's winds and floodwaters tore apart homes 
and lives, they also exposed numerous vulnerabilities that must 
be identified and remedied so that the next disaster does not 
have such tragic consequences.
    The Oversight and Investigation Subcommittee has a long 
history of tackling important public health issues. We've had 
oversight work on such issues as bioterror preparedness, the 
safety of the U.S. Blood supply in the wake of 9/11, readiness 
questions posed by the SARS outbreak, and the availability and 
safety of vaccines, among others.
    Unfortunately, the devastation wrought by Katrina has 
spawned an array of public health and health care issues that 
are unprecedented in their scope and magnitude. Our Federal 
public health authorities face an enormous task and complex 
task not only with this vital step to deliver care and supplies 
to those in need, but the equally important task of rebuilding 
infrastructure and ensuring the future habitability of New 
Orleans and the devastated Gulf Coast communities.
    Many aspects of this undertaking will require congressional 
oversight, and we intend to embark upon an ambitious schedule 
of hearings, examining key public health and emergency 
management issues involved in the Katrina response and 
rebuilding effort. For example, we will seek to learn about the 
evacuation of health care facilities, as well as the public 
health and cleanup problems presented by environmental 
contaminants.
    We will also be focusing on how departments and agencies 
within the committee's jurisdiction plan to spend and monitor 
their respective portions of the billions of dollars going to 
the Gulf Coast region, in order to ensure the money be spent as 
efficiently and effectively as possible.
    Today's hearing will focus on the critical issue of 
Katrina's catastrophic impact upon the health care 
infrastructure of the Gulf Coast. Hospitals, clinics and 
community health centers throughout the region have been 
severely damaged or destroyed. Moreover, contaminated flood 
waters, toxic mold, an incalculable amount of debris are just a 
few of the public health problems that confront the devastated 
region both today and for the foreseeable future.
    Our witnesses today will speak to these issues and to the 
state of affairs on the ground as well as what we might expect 
in the months and years ahead. At the outset, I want to thank 
Dr. Gerberding for taking the time to be here in the midst of 
what must be an exhausting schedule, and we look forward to 
your testimony and those of all the witnesses.
    And I yield back the balance of my time.
    [The prepared statement of Hon. Ed Whitfield follows:]
  Prepared Statement of Hon. Ed Whitfield, Chairman, Subcommittee on 
                       Oversight & Investigations
    Thank you, Mr. Chairman. The Oversight and Investigations 
Subcommittee certainly welcomes the opportunity to work with you on 
this critical issue. I would like to express my deepest sympathies for 
all of the individuals in the Gulf Coast region affected by Hurricane 
Katrina--a disaster of epic proportions. The extent of Katrina's 
devastation is truly unimaginable, and the impact of this storm will be 
felt for years to come.
    Just as Katrina's winds and flood waters tore apart homes and 
lives, they also exposed numerous vulnerabilities that must be 
identified and remedied so that the next disaster--and there will be a 
next disaster--does not have such tragic consequences. Katrina should 
serve as a wake-up call to all agencies and departments at all levels 
of government, and I have no intention of allowing this call to go 
unanswered.
    The Oversight & Investigations Subcommittee has a long history of 
tackling important public health issues. In recent years, it has been 
at the forefront of efforts to ensure the nation's public health 
infrastructure can manage emerging threats--with oversight work on such 
issues as bio-terror preparedness; the safety of the U.S. blood supply 
in the wake of 9/11; readiness questions posed by the SARS outbreak; 
and the availability and safety of vaccines, among others.
    Unfortunately, the devastation wrought by Katrina has spawned an 
array of public health and healthcare issues that are unprecedented in 
their scope and magnitude. Our federal public health authorities face 
an enormous and complex task, not only with the vital steps to deliver 
care and supplies to those in need, but the equally important task of 
rebuilding infrastructure and ensuring the future habitability of New 
Orleans and the devastated Gulf Coast communities.
    Many aspects of this undertaking will require Congressional 
oversight. It is our obligation to make certain that people are getting 
the care and help necessary to put their lives back together. 
Accordingly, over the course of the next several weeks and months, this 
Subcommittee intends to embark upon an ambitious schedule of hearings--
examining key public health and emergency management issues involved in 
the Katrina response and rebuilding effort.
    For example, we'll seek to learn more about the evacuation of 
healthcare facilities, as well as the public health and clean up 
problems presented by environmental contaminants. We will also focus on 
how departments and agencies within the Committee's jurisdiction plan 
to spend and monitor their respective portions of the billions of 
dollars going to the Gulf Coast region, in order to ensure the money is 
spent as efficiently and effectively as possible.
    Today's hearing will focus on the critical issue of Katrina's 
catastrophic impact upon the healthcare infrastructure of the Gulf 
Coast. Hundreds of thousands of people have been displaced, a great 
many of whom have been separated from their medicines, healthcare 
providers, and medical records. Hospitals, clinics, and community 
health centers throughout the region have been severely damaged or 
destroyed. Moreover, contaminated flood waters, toxic mold, and 
incalculable amounts of debris are just a few of the public health 
problems that confront this devastated region both today and for the 
foreseeable future. Our witnesses today will speak to these issues and 
to the state of affairs on the ground, as well as what we might expect 
in the months and years ahead.
    At the outset, I would like to thank Dr. Gerberding for taking the 
time to be here in the midst of what must be an exhausting schedule. 
While we certainly do not want to do anything that might interfere with 
the relief effort, it is essential that we hear from those who are most 
knowledgeable about the situation on the Gulf Coast and in New Orleans 
in a timely manner.
    With that, let me welcome all the witnesses. I look forward to an 
informative hearing and yield back the remainder of my time.

    Mr. Deal. I thank the gentleman.
    I now recognize the ranking member of the Oversight and 
Investigations Subcommittee, Mr. Stupak, for his opening 
statement.
    Mr. Stupak. Well, I thank both of the chairmen for holding 
this hearing on health care and Hurricane Katrina. I also want 
to thank all the witnesses for testifying today, many of them 
on very short notice.
    This is a critical issue, both in terms of what went wrong 
in preparing for and responding to the hurricane, and how the 
health care infrastructure of the affected areas of the Gulf 
Coast is going to be rebuilt and who is going to pay for it.
    I am, however, very disappointed that the Department of 
Health and Human Services yesterday, at the last minute, pulled 
Stewart Simonson from testifying in front of us today. Mr. 
Simonson is a lawyer, who is head of the Office of Public 
Health Emergency Preparedness within HHS. His office, on paper 
at least, is responsible for putting in place a health care 
system that would work during a major disaster.
    Mr. Simonson could be called the Michael Brown of HHS 
because, like Mr. Brown, he has scant experience in public 
health and emergency preparedness. He was legal counsel for 
Governor Tommy Thompson in Wisconsin, and then worked for 
Amtrak before receiving an appointment to serve in HHS as 
counsel to the Secretary, and then to his current role.
    He is best known to the public for two recent faux pas: his 
attempt this summer to stop publication of the paper on the 
insecurity of the milk supply, and his statements to Senator 
Grassley about the effectiveness of an untested Anthrax 
vaccine. Senator Grassley later forced a public retraction of 
that statement. His lack of experience showed in his office's 
actions during Hurricane Katrina.
    For example, I would like to have asked Mr. Simonson if he 
was the HHS official that held up for several days a FEMA 
contract with Kenyon International Emergency Services to 
recover bodies in New Orleans because he wanted a chaplain to 
retrieve each one of them. As a result, body retrieval was 
further delayed. And I would have liked to ask him why HHS was 
unable to mobilize 40 250-bed emergency medical shelters, 
called the ``Federal medical contingency stations,'' that were 
promised to the Gulf Coast.
    On August 30, after Katrina hit land and the levees were 
breaking, Mr. Simonson told health care leaders, and I quote, 
``We do not have all the assets and supplies which are needed 
to stage up these facilities; and so we are, at this very 
moment, in the market purchasing necessary supplies, 
medication, consumables, cots, IV poles, all the things like 
that to go into health care,'' end of quote. What have we been 
doing with all this preparedness money and training if HHS had 
to purchase supplies after the hurricane hit?
    Mr. Chairman, let me conclude by saying that there are many 
other issues involving Katrina that the Oversight and 
Investigations Subcommittee needs to look at. Mr. Dingell and I 
sent you a letter listing a number of them, but none is more 
important to our Nation than the energy supply for the coming 
winter.
    Yesterday, CNN cited experts that said any further refinery 
damage resulting from Hurricane Rita could result in $5-to-$6-
a-gallon gasoline.
    Mr. Chairman, the U.S. Energy Information Administration's 
dire predictions of an increase of up to 77 percent in natural 
gas prices, as well as a 33 percent increase in home heating 
oil, and an additional 43 percent for propane costs in the 
Midwest has many of my constituents wondering how they will be 
able to afford to keep their homes heated this winter. Many of 
them are already living paycheck to paycheck or Social Security 
check to Social Security check.
    These constituents have already been forced to decide 
between buying food, buying medicine or gasoline for their car. 
Many are breaking their medications in half and not receiving 
the proper medical treatment. Now, with skyrocketing home 
heating costs, their finances will be spread even thinner, and 
I fear many will be pushed over the brink. All of this will 
occur while big oil companies continue to post one record 
profit on top of another.
    The impending increases in heating costs will surely force 
many in my district to turn their heat down to dangerously low 
temperatures, which will, in turn, result in increased 
illnesses among the elderly and poor. This will then place 
additional burdens on the Medicaid and Medicare systems, which 
are already overburdened.
    Cooler fall weather is already settling into my northern 
Michigan district. In some places, we will receive well over 
200 inches of snow this winter. I had a constituent call my 
office earlier this week after he was told that he could not 
receive assistance with his electric bill because the money in 
the Low Income Home Energy Assistance Program--LIHEAP, as we 
know it--had been reprogrammed to the Gulf area due to 
Hurricane Katrina. In fact, $27.25 million was sent to 
Louisiana, Mississippi, Alabama and Florida.
    Mr. Chairman, my district is not unique; every district 
faces significant energy price increases. I hope that we will 
truly begin to investigate some of these more pressing areas 
and hold necessary hearings. These hearings cannot merely be 
briefings where witnesses come with little notice and prepare 
testimony about what they are going to say very late into the 
night the day before the hearings. Our hearings must be based 
on real investigation with in-depth field work and interviews.
    I have directed the Oversight and Investigations Democratic 
staff to start talking to oil and pipeline companies and 
refineries, so that we can understand and prepare for what may 
be ahead. I would hope that your staff would join me in this 
effort.
    I am hoping that this general briefing that we're having 
here today on health care will signify a starting point and not 
an end to an active, aggressive effort by the Oversight and 
Investigations Subcommittee. We owe it to our constituents and 
the American people.
    I yield back the balance of my time.
    Mr. Deal. The gentleman's time has expired.
    It is regrettable that we've already deviated from the 
purpose of this hearing today and are getting into politics. As 
I said in my opening statement, Mr. Simonson is doing his job. 
I think it would be regrettable if we had someone who was here 
testifying before this subcommittee today in the wake of the 
third largest hurricane about to hit our coast, instead of 
doing his job of preparedness; and that is what Mr. Simonson 
should be doing. He shouldn't be here; he should be doing his 
job, which is what he's doing.
    If the gentleman wishes to submit the questions he said he 
wanted to ask, certainly with the permission of this 
subcommittee chairman, he may do so in writing. And I am sure 
Mr. Simonson and his department will respond accordingly. But I 
would keep in mind for all of us that the purpose here is a 
legitimate inquiry as to where we are on the ground and what we 
can do to avoid these incidents in the future.
    We will now begin with opening statements from other 
members of the two subcommittees. I would remind everyone that 
if you choose to waive your opening statement, you get 3 
additional minutes with regard to questions of the witnesses on 
the panels themselves.
    I believe Mr. Bilirakis would be our next person for an 
opening statement.
    Mr. Bilirakis. Thank you very much, Mr. Chairman. I am also 
pleased you are holding this hearing.
    Certainly, it will take some time before we fully realize 
Hurricane Katrina's true human and economic impact. We must 
not, however, delay assessing the health of those impacted by 
this storm and ensuring that its victims get the care they need 
in as timely and appropriate manner as possible. The residents 
affected by this tragedy, those who remain in damaged areas, as 
well as those who have been relocated elsewhere, including my 
State of Florida, must be informed of the possible health risks 
they face and given increased access to corresponding health 
and medical services.
    I believe it's imperative that we learn from our response 
to Hurricane Katrina, so we can both help its victims and 
improve our disaster preparedness in the future, especially 
since another massive hurricane is bearing down on Texas's Gulf 
Coast. It seems that we are always reacting to something that 
happens, rather than being ahead of the curve, and I would hope 
that maybe we will learn our lessons one of these days.
    I also want to highlight, Mr. Chairman, legislation that 
I've talked with you about, that I introduced to better 
coordinate health, human services and other relief efforts 
which I believe would be helpful in the aftermath of disasters 
such as Hurricane Katrina. Congresswoman Eshoo and I introduced 
this legislation which we're calling the Calling for 211 Act, 
which would establish a Federal grant program to help States 
implement 211 telephone service for their residents. This 
service has proven to save time, money and improve the delivery 
and coordination of help and other services vital to 
communities around the country.
    I believe enactment of that bill, H.R. 896, will also 
expand the essential role that 211 service can play in crisis 
preparedness as a response to it.
    I would hope that given the fact that the bill has 
bipartisan support from members of this committee, we would 
consider including the Calling for 211 Act as an essential 
element to any Hurricane Katrina or Hurricane Rita, or whatever 
the case might be, relief package that this committee may 
consider in the coming weeks.
    Thank you, Mr. Chairman. And I again commend you for 
calling this very timely and critically important hearing.
    Mr. Deal. I thank the gentleman.
    We are pleased to have the ranking member of the full 
committee, Mr. Dingell, with us, who is recognized at this time 
for his opening statement.
    Mr. Dingell. Mr. Chairman, thank you, and thank you for 
scheduling this hearing.
    All of us have been shocked by the destruction, human 
suffering and loss of life brought by Hurricane Katrina. The 
full toll in terms of physical and mental illness and premature 
death attributable to those events is yet to be known, but it's 
clear it's considerable.
    What brings us here today is the virtual universal 
acknowledgement that some of the death and destruction wrought 
by Hurricane Katrina was avoidable. Some of her victims could 
have been spared if adequate local, State and Federal 
preparedness and response programs had been in place and 
executed in a timely and competent fashion. We have now seen 
that the human costs of inadequate funding and incompetent 
management are severe.
    Today, we lack final information, but in these hearings and 
in future hearings this committee should be examining what 
happened and what the Federal Government and others can do 
better next time.
    That brings us to the fact that today we must assess the 
current and future health care needs of the people in areas 
affected by the storm and its aftermath. None of us wants to 
compound the problem with ineffective or inadequate measures to 
rebuild the public health infrastructure or by skimping on the 
true costs of delivering health care to a displaced and needy 
population.
    I note that it is at times like these when we have a chance 
to see how efficient the Medicaid program can be and how 
critical it is to the people's health. Every hour of every day 
there is someone having trouble getting access to medication, 
to a doctor or health care because they lost their job, their 
income, their identification, their assets and more. Providing 
100 percent Federal Medicaid reimbursement for people in States 
devastated by Katrina will result in immediate relief delivered 
in an efficient fashion. These people need to know today that 
they will have access to basic health care, not tomorrow or 
next week, while the Federal Government tries to work out a new 
and more complex system.
    I welcome this hearing as a good start in the process of 
examining what went wrong. We need to look at what needs to be 
done now and how we can do better in the future.
    I look forward to the testimony of our witnesses, and I 
commend you for holding this hearing, Mr. Chairman.
    Mr. Deal. I thank the gentleman.
    I recognize Mr. Shimkus for his opening statement.
    Mr. Shimkus. I will pass, Mr. Chairman.
    Mr. Deal. I thank the gentleman.
    I recognize Mr. Upton for an opening statement.
    Mr. Upton. I will pass.
    Mr. Deal. I thank the gentleman.
    I recognize Mr. Ferguson for an opening statement.
    Mr. Ferguson. Thank you, Mr. Chairman. Thank you for 
holding this hearing. I thank both of the chairmen for holding 
this hearing, and Dr. Gerberding and others for being with us 
to provide testimony and share their thoughts and expertise.
    Another monster hurricane is bearing down on the Gulf Coast 
as we speak, and it is necessary, of course, that we review and 
revise our response procedures to better serve the areas of 
devastation after a disaster, both those wrought by nature or 
at the hands of a terrorist or some other disaster.
    In Baton Rouge, several days after the hurricane struck, I 
was able to see firsthand some of the response, particularly 
the medical response to Hurricane Katrina and the medical care 
that was being administered to many of the evacuees from New 
Orleans and around that area. In the River Center, the biggest 
shelter in Baton Rouge, I saw health care professionals and 
volunteers and Red Cross personnel and so many others working 
to help their fellow Americans who were in need.
    I even saw one of our own colleagues, Dr. Phil Gingrey, who 
was there volunteering as well, who was administering care and 
helping to coordinate response efforts with organizations like 
the Red Cross and others. It was amazing to see the response of 
health care professionals from all around the country who were 
making sacrifices to provide health care to those who were in 
such need.
    It is crucial, though--and that's the point of this hearing 
today--it's crucial that as we look forward to any kind of an 
emergency like this in the future, that we learn lessons from 
what has happened over the last several weeks. Obviously, we 
have another hurricane bearing down on the Gulf Coast right 
now. There is always the possibility of another terrorist 
attack, and certainly, representing northern New Jersey, it is 
something that is constantly on our minds.
    There are issues like pandemic flu, which we need to always 
be thinking about and concerned about; it's something that you 
and I have talked about in the past.
    There are always situations that we need to be preparing 
for, and I am pleased today that we will have an opportunity to 
hear from Dr. Gerberding and our other witnesses to hear about 
what lessons we are learning from the past several weeks and 
what actions we're taking to better prepare for emergency 
situations in the future.
    I thank both the chairmen for putting this hearing 
together, and I again thank our witnesses.
    I yield back.
    Mr. Deal. I thank the gentleman.
    I recognize the gentlelady from California, Ms. Eshoo, for 
an opening statement.
    Ms. Eshoo. Good morning, Mr. Chairman. Thank you for having 
this hearing. And to the witnesses that are here today, thank 
you for coming.
    There are so many things that I want to say. I am, more 
than anything else, extraordinarily frustrated.
    I know, Mr. Chairman, that you've worked hard to put this 
together. Our first distinguished witness, Dr. Gerberding--most 
frankly, her department is not the problem at all, at least not 
in my view. The Secretary of HHS should be here. If we are 
going to examine what fell apart in terms of health care and 
the entire system for our fellow citizens, in my view that 
should--HHS should be here to answer those questions.
    But be that as it may, they are not, and so we have got to 
direct our questions, I think, toward that department, and also 
to see what happened--to ask good questions about what happened 
on the ground of people that are representing the organizations 
and the institutions that were there.
    I can't help but think that, No. 1, volunteerism is just as 
much a part of America as our flag is. When I watch the news 
and see where doctors that went in to volunteer on an emergency 
basis were turned back by the military and others, we have to 
find a way to integrate them into our emergency response 
system.
    There was a program last night on CNN where doctors 
actually had come in and all of these human beings that were so 
fragile and being shipped to the airport, they wanted to help, 
and there wasn't any way for them to enter the system. So I 
hope that we can address ourselves to things like that because 
they are important.
    And I think that no matter what we do in the future, there 
is always going to be a need for the medical professionals to 
be able to come into the system. And they are not always going 
to be the ones that--you know, that we think of in a very set 
way, when there isn't a catastrophe. Remember that there are 
professional volunteers that need to be integrated.
    I want to call attention to--and my friend and colleague, 
Mr. Bilirakis did--to the 211 system. We're inviting people to 
be a part of that. I think that it's an important step.
    We are all frustrated. We want to launch something that is 
good. Only 40 percent of the Nation has access to this; we 
should make it 100 percent.
    Now this is going to be a little tough, but yesterday the 
Republican Study Committee came out with a summary, an 
explanation of offsets to the spending for--I think for what is 
projected the Congress needs to do on the heels of Katrina. One 
of the most disturbing items in this is to reduce funding for 
the CDC, and it's $25 billion over 10 years.
    So what I would like to ask Dr. Gerberding to do is to tell 
us what $25 billion, in terms of cuts, is going to do to the 
CDC. I mean, if these things--I hope these things are brought 
to the floor of the House, because the American people should 
see, you know, what some of these choices or suggestions are.
    I think $25 billion, if we really value the CDC, is--we 
think communities have been gutted? Watch CDC being gutted. But 
I want Dr. Gerberding to comment on that.
    So, Mr. Chairman, what I hope will come out of this are 
some very practical things that the Congress can do. And I hope 
that you will consider bringing in the representatives from 
HHS, because again, you know, we value highly what Dr. 
Gerberding does and the CDC. They're not the problem; we've got 
problems elsewhere, and I think that they need to answer for it 
and help us come up with some of the ideas to address them.
    So thank you for having the hearing, and I look forward to 
the witnesses. And I hope in the future--I understand that Dr. 
Simonson--is that his name, or Simons--couldn't be here today. 
But invite him back.
    He is doing what he is doing and has to do, I can 
appreciate that, but he is a valuable person for us to hear 
from, so I hope you will invite him back. Thank you.
    Mr. Deal. Thank you, gentlelady.
    We recognize now the chairman of the full committee, Mr. 
Barton, for his opening statement.
    Chairman Barton. Thank you, both chairmen, for holding this 
hearing.
    Today, we're here to talk about some of the health impacts 
of Hurricane Katrina, and it's a very important hearing; and I 
am going to ask unanimous consent to put my statement into the 
record on that.
    We are now dealing--gearing up to deal with another major 
hurricane. It's almost biblical, like the seven plagues; and if 
we knew who the Lord wanted us to let go, we would let them go 
so we wouldn't have these hurricanes hitting our country. But 
Hurricane Rita is headed into Texas, and the aftermath, what is 
going to hit the southern part of my district if it hits in the 
Galveston area; as we try to learn lessons from Hurricane 
Katrina, hopefully, we can apply some of those very quickly to 
Hurricane Rita.
    And on the health consequences, there are lessons to be 
learned.
    So I want to thank both my subcommittee chairmen for 
holding this hearing and ask unanimous consent that my full 
statement be put in the record.
    [The prepared statement of Hon. Joe Barton follows:]
 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce
    Thank you, Chairmen Deal and Whitfield for holding today's hearing 
on health care issues raised by Hurricane Katrina. When Katrina smashed 
into the Gulf Coast, it uprooted hundreds of thousands of people and 
destroyed much of the health care infrastructure across an entire 
region.
    People were up to their necks in water, but had none they could 
drink. Sometimes the water and the air around them were poisonous. And 
among the precious property that Katrina washed away were thousands of 
critically important personal medical records.
    Right now in the Gulf of Mexico, another monster storm threatens to 
inflict more of the same destruction, danger and misery on new victims 
in Texas.
    The challenges are daunting, but America is responding. Our people 
opened their homes and their hearts to help those who lost everything 
to Katrina. The outpouring of government, corporate and individual 
assistance runs into the billions of dollars, and it has barely begun. 
The greatest challenge we now face is how to get the most help to those 
who need it most. We cannot permit red tape to slow the flow of aid, 
and we'd better be sure that none of it is wasted or stolen. Today we 
will hear first-hand accounts of what is being done to provide care and 
meet the medical needs of those in the devastated region. We will learn 
about the efforts of private doctors, hospitals and pharmacists who are 
volunteering their time to assist the victims of Katrina. We will also 
hear about the efforts of public health officials from the Department 
of Health and Human Services, who are working to assess health risks, 
coordinate care and rebuild the health infrastructure in the areas 
worst hit by the hurricane.
    We should all applaud these efforts, and in particular, the 
leadership shown by HHS Secretary Mike Leavitt. I hope this hearing 
will highlight these efforts and also help us identify what more needs 
to be done.
    Regrettably, we won't have much time to learn the lessons of 
Katrina before Hurricane Rita hits the Texas coastline. As I told the 
governors of Louisiana and Mississippi last week, the Energy and 
Commerce Committee stands ready to do everything in its power to help.
    This morning, I say to my home state's governor, Rick Perry, 
whatever you need that is within our jurisdiction to provide, count on 
it. I also want to ask that everyone who hears these words take a 
moment today and say a prayer for the people who are in the path of 
Hurricane Rita. Thank you.

    Mr. Deal. I thank the gentleman.
    I now recognize the gentlelady from California, Ms. Capps, 
for an opening statement.
    Mrs. Capps. Thank you, Mr. Chairman. I want to thank all of 
our witnesses for being here today, and especially welcome to 
the second panel, the President of the American Nurses 
Association, Barbara Blakeney.
    These committees need to devote considerable time to 
reviewing what happened when Hurricane Katrina hit the Gulf 
Coast. This is the first, but should certainly not be the last 
hearing on this topic.
    The response of the Federal Government was uneven at best. 
The Coast Guard was, and is, admirable, the CDC also has done 
well. But the response, as we all know, of FEMA was pathetic, 
and it cost lives; and there is no one here to speak for them. 
As we analyze what went wrong, we do so to be able to change 
what we are doing now for the future.
    Many of the failures that surrounded Katrina came because 
of inadequate funding and misplaced priorities. The majority 
insists that we need to continue on with the budget 
reconciliation process as if nothing has happened; this would 
be, if it happens, irresponsible, incompetent and immoral.
    Hurricane Katrina has shown us the true face of poverty. It 
has shown us exactly what we're talking about when cutting 
safety net programs like Medicaid is proposed. We can talk all 
we want about protecting the victims of Katrina from these 
cuts, but what about the people just like them living in 
poverty in other States? And what if the victims of Katrina are 
forced to remain on Medicaid for years to come? The simple 
truth is that we must learn from this disaster and abandon the 
heartless notion that $10 billion can be chopped from Medicaid.
    I am also stunned by the complaints surfacing now by many 
about paying for the emergency relief that Congress has 
dispersed and is committed to dispersing. For 5 years the 
majority has stacked tax cut upon tax cut to create the biggest 
deficit in the history of our Nation. Nearly $200 billion has 
been spent on the war in Iraq which, while claiming the lives 
of 1,900 brave Americans, shows few signs of improving 
America's national security.
    Through it all, many of us have urged restraint in order to 
keep our fiscal house in order and to prepare for times like 
these. We have been ignored by the majority, but now that real 
people need real help, many of whom have had little to start 
with and now have less than nothing, we have Members of 
Congress's leadership demanding that we cut other safety net 
funding to pay for it. Apparently, deficits are acceptable when 
we are paying off the wealthy, but unacceptable when we are 
helping the neediest in society.
    As has been mentioned, one of their proposals is to cut $25 
billion from CDC. We need to address that in our hearing this 
morning. CDC is a major player in this recovery effort, and we 
still have the threat of avian flu, pandemic, AIDS, 
tuberculosis and, of course, the threat of bioterrorism. 
Cutting CDC by $25 billion is as absurd as asking the poorest 
of the poor to pay more for the limited health care that they 
get.
    The majority needs to rethink it is priorities.
    I yield back the balance of my time.
    Mr. Deal. I recognize Ms. Blackburn for an opening 
statement--Dr. Burgess for an opening statement.
    Mr. Burgess. Thank you, Mr. Chairman. And I want to thank 
both of my subcommittee chairmen for holding this hearing 
today.
    The witnesses, I also appreciate you being here. I know 
there are plenty of other important places you could be, and I 
commend you for your courage in having worked in the--many of 
you, in the disaster area, and for your perseverance of almost 
historic proportions.
    I think all of us can agree that this has been a disaster 
that has put a challenge on the American people and on this 
Congress. And it's already been presented to us as a 
substantial public health challenge in the disaster area. In 
areas like my State of Texas, it has absorbed a significant 
number of people who have been displaced by the first hurricane 
and are now directly in the path of the second hurricane. 
Hospitals are working short staff, doctors have been displaced, 
infectious disease outbreaks are a risk, and the funding 
structure for patient care has been thrown into chaos.
    Today, I hope this committee is able to learn the current 
safety and health status of the areas impacted by Hurricane 
Katrina and those due to be impacted by Hurricane Rita. I would 
specifically like to hear how the Federal Government has 
interacted with providers, the providers that remain behind and 
continue to serve their community. I would also like to 
determine what it would take, in terms of manpower and money, 
to get the public health system of this area back to a pre-
Katrina and a pre-Rita level.
    The lives of so many Americans will never be the same 
because of this disaster, and the residents of the Gulf Coast 
can look to rebuild their homes, schools, businesses and 
families, but our public health system needs to be ready to 
meet their needs in the future.
    I am pleased that we have members here from the Joint 
Commission on the Accreditation of Hospitals. I would very much 
like to hear from you.
    We had a terrible Tropical Storm Allison in Houston 4 years 
ago. We lost our generators in Herman Hospital, one of the 
first casualties of that storm, when the hospital basement 
flooded. I would like to know if you have incorporated in your 
hospital inspections the fact that the generators need to be 
located on a floor that will not flood, particularly for a 
hospital that's located below sea level.
    I would like to hear from the people involved with the 
evacuation of those hospitals. Evacuation, medical evacuation, 
is one of the things this country does extremely well.
    I have been fortunate enough to visit the country of Iraq 
several times, I have been to Bilad Air Base right in the 
center of Iraq; I've seen the air and medical contingency 
staging facility load our wounded soldiers onto air transports, 
stabilize them in the field, load them onto transports, send 
them to Germany, and then on to Walter Reed Hospital here in 
Washington, 27,000 patient transfers from a war zone, with one 
injured transfer death.
    We know how to do this. What happened to us in New Orleans 
when we couldn't get those patients off the roof of a parking 
garage in New Orleans?
    Evacuation works, that's the one lesson we did learn from 
the last hurricane; and from what I see on the television this 
morning, it appears that the people of Galveston and Houston 
are taking that to heart. But those who are poor, those who are 
frail, those who are medically compromised must receive the 
attention they deserve to get out of harm's way.
    The short-term reciprocity of medical and nursing 
licensure, why can't this happen? Why are providers not allowed 
into the zones after they've been hit and hit hard? Why are 
there not doctors allowed in for respite care for those doctors 
who are literally working on their last fumes?
    Mr. Chairman, again I commend you for holding this hearing. 
There are a multitude of questions that are going to have to be 
asked, and I hope answered this morning. And I also hope that 
this is only the first in a series of such hearings that we 
will hold.
    Traditionally, the Committee on Energy and Commerce has had 
the obligation to--the constitutional obligation for oversight 
and investigations into things that happen in this country, 
within our shores; and I hope our committee and our two 
subcommittees take this very seriously.
    I yield back.
    Mr. Deal. I thank the gentleman.
    I recognize Ms. Baldwin now for her opening statement.
    Ms. Baldwin. Thank you, Mr. Chairman.
    I join my colleagues in expressing shock at what we all saw 
in the Hurricane Katrina aftermath; and like my colleagues, our 
first thoughts were all of the victims of this tragedy. But now 
that we have had some additional time to reflect, my reaction 
turns more into one of frustration, and this frustration stems 
from many of the unanswered questions.
    Why in our age of technology were officials unable to 
communicate with each other? Why was the Federal response so 
slow? Why was disorder so pervasive? And from a public health 
standpoint, why were hospitals left to fend for themselves, 
especially in terms of evacuation, with only late or minimal 
evacuation assistance?
    And why were we unable to get insulin to diabetics in the 
Convention Center or Superdome? And why were dead bodies left 
amidst evacuees? And why were volunteer nurses and doctors from 
my State and others unable to reach those in need in the South, 
especially the health care workers who had worked hours and 
hours and days on end without relief?
    To have an experience like Hurricane Katrina and then not 
to learn from it would be the biggest tragedy of all. It's why 
I thank the chairmen for holding this hearing. And I associate 
myself with comments of others that we must not have this be 
the only hearing.
    We need to ask and have answered a lot of questions. We 
must thoroughly evaluate our preparedness and our reaction. We 
must learn from this experience and work toward improvement.
    So in looking forward and moving forward I ask, what steps 
can we take to better protect the public health in the face of 
emergencies? What proactive measures can we institute? What 
changes can we make in order to safeguard our health? And in 
light of Hurricane Rita's approach, what immediate improvements 
must we make?
    In my opinion, one of the most immediate and obvious steps 
we can take to protect the public health is to preserve the 
Medicaid program and ensure that Katrina victims and any 
victims we may see of Hurricane Rita are able to access health 
care through Medicaid; and I hope that we will put aside our 
plans to slash funding to this program in this time of need.
    I also want to join with my colleagues who have voiced 
their concerns over a Republican Study Committee recommendation 
to cut CDC funding in order to pay for Hurricane Katrina. I am 
also aware of that recommendation and feel that it would be 
very ill advised.
    I look forward today to hearing the testimony of our 
witnesses, especially as it relates to the many questions that 
we have collectively posed in our opening statements. And I 
thank all the witnesses for coming today.
    I yield back.
    Mr. Deal. The thank the gentlelady.
    I recognize Mr. Shadegg for his opening statement.
    Mr. Shadegg. Mr. Chairman, other than to commend you for 
holding this hearing so we can get some real facts on the 
record in light of a lot of hysteria and a lot of 
misinformation that's been reported, I will waive my opening 
statement.
    Mr. Deal. I thank the gentleman.
    Mr. Stearns for an opening statement. Mr. Stearns, do you 
wish to make an opening statement?
    Mr. Stearns. Thank you, Mr. Chairman.
    I would like to just start out by saying that we've been 
pretty negative here and indicated that what happened in New 
Orleans and Louisiana and blame the--in many respects, the 
Federal Government.
    But in my State we were through, Mr. Chairman, four 
hurricanes. We didn't have this problem; we didn't have the 
criticism that we are hearing this morning because the local 
officials--Governor Jeb Bush, the legislature, as well as the 
mayors and the police force and everybody--got organized early 
and evacuated. And you saw that in Miami and you saw that in 
the Keys. So I think we should concentrate also on remembering, 
there's a lot of States who have handled this well, and we 
should learn from those States and not just continue to dwell 
on what perceives to be the negative aspect.
    You know, for example, a lot of the pharmaceutical 
companies have provided drugs free of charge, almost $100 
million and getting those drugs down to the pharmacists--and 
the pharmacists are using these drugs and dispensing them free. 
So a lot of people complained about there was no insulin, but 
the pharmaceutical companies provided it free of charge.
    A question comes up that I hear people, doctors 
particularly, who were ready to go from my home county from 
parts of Florida to go into the State, but they could not get 
in. So to rapidly deploy professionals into a State, one State 
to another, how can we expedite this? This is perhaps one of 
the keys we should talk about today, this reciprocity 
arrangement.
    In our State, we had--from Ohio, through the Midwest and 
the Northeast, we had power companies into the State ready to 
go before the hurricanes, to take down the trees. That's the 
kind of early response that was done in Florida.
    So there are some success stories across this United 
States, and we shouldn't overreact at this hearing or with our 
legislation and think that just throwing a lot of money at this 
is going to solve the problem.
    I think if we had the administrative procedures that we've 
had in States that have been successful, and we adopt those, 
Mr. Chairman, I think we will go a long way toward solving this 
problem without a huge Federal intervention and a huge amount 
of criticism of Federal officers who, they say, supposedly 
didn't react.
    I've seen even in local States, in Maryland, Virginia, 
where they have sent physicians down into Louisiana to help 
out. So there are clearly some success stories here across the 
board. And I look forward to exploring these as well as 
criticism, Mr. Chairman, on how we can improve.
    Thank you.
    Mr. Deal. I thank the gentleman.
    I recognize Mr. Allen for an opening statement.
    Mr. Allen. Thank you, Mr. Chairman, for convening this 
hearing. I look forward to hearing from our expert witnesses on 
the status of current relief efforts and the medical needs of 
the affected citizens.
    This tragedy has tested our Nation's ability to deal with 
widespread devastation, placing a tremendous burden on first 
responders, hospitals and other health care facilities. Many 
medical professionals worked in hospitals without electricity 
or running water or in makeshift shelters without proper 
equipment. In many cases, these professionals continued to work 
even though their own homes were destroyed and their families 
evacuated.
    We have witnesses today representing many of these first 
responders--doctors, nurses, community health centers and the 
American Red Cross. Our Nation owes a tremendous debt of 
gratitude to those members who served during the storm and to 
those now traveling to the Gulf Coast to volunteer their 
services.
    I also want to acknowledge another group of health care 
professionals who successfully evacuated thousands of sick and 
disabled people from hospitals and nursing homes: air ambulance 
providers. Although flight operations were challenged by 
limited electricity, communications, ground support and access 
to fueling stations, civilian air medical programs such as Air-
Evac Lifeteam from West Plains, Missouri; THI Air Medical from 
Lafayette, Louisiana; Angel One Transport from Little Rock; and 
Baptist LifeFlight from Pensacola, Florida, worked around the 
clock evacuating patients from local hospitals in the areas 
hardest hit by Katrina.
    These efforts were largely informal and voluntary; there 
was no organized Federal plan to rapidly deploy nonmilitary 
medical aircraft in the case of medical disasters such as 
floods and hurricanes. Organized deployment of specialty team, 
critical care, medical aircraft to moving the critically ill 
and injured out of hospitals and nursing homes would allow the 
Coast Guard and military aircraft personnel to concentrate on 
search and rescue and material support for affected areas.
    We do not have witnesses from HHS or FEMA with us today to 
discuss this issue, but I hope that the role of air ambulance 
providers in emergency preparedness and disaster relief will be 
considered in future congressional hearings.
    In closing, this natural disaster bore most heavily on the 
working poor, many of whom had no health insurance. This 
Congress should abandon planned funding reductions to the 
Medicaid program and, instead, direct its efforts to rebuilding 
and strengthening the health care infrastructure and addressing 
the health care needs of those devastated by Hurricane Katrina.
    Mr. Chairman, I yield back.
    Mr. Deal. I thank the gentleman.
    Ms. Blackburn is recognized for an opening statement.
    Ms. Schakowsky is recognized for an opening statement.
    Ms. Schakowsky. Thank you, Mr. Chairman. And I thank both 
chairmen for holding this hearing and beginning what I hope 
will be an ongoing committee effort to understand what went 
wrong in public health preparedness.
    I very much look forward to hearing from Dr. Gerberding 
about the CDC's efforts to protect the health of those 
evacuated from the Gulf Coast, as well as those working on 
reconstruction efforts and returning home to cities and towns 
that present serious health threats because of contamination. 
The lack of a functioning health care infrastructure makes the 
task even more difficult.
    I do have two issues of particular concern, but first I 
have to comment on what has--what is a blueprint, in my view, 
for another disaster: a document presented by the Republican 
Study Committee that really is the meanest proposal I have ever 
seen, an intentional attack on the poor, billions of cuts in 
Medicare, increases in--Medicaid; increases in Medicare 
premiums; new home health care copayments; elimination of loans 
to graduate students, which would include, I presume, health 
professionals; cuts in the CDC. And I hope that the Republican 
leadership will reject this cruel and counterproductive 
proposal.
    My two issues are, though: I hope we can explore the 
response and needs surrounding the New Orleans public 
hospitals. Many reports suggest that Charity Hospital's 
patients were not evacuated as promptly as patients in other 
hospitals. It appears as if the health care disparities that 
existed before Hurricane Katrina may have resulted in 
disparities in emergency response.
    I am also interested in hearing from Dr. Gerberding and the 
other witnesses how patients who rely on the public hospitals 
receive care once they return home.
    Second, I hope this committee will look into the tragic 
treatment of nursing home patients.
    Dr. Gerberding, I know that the CDC does not have authority 
in this area, but as the administration's only witness here 
today, I hope you will pass along my concerns to your 
colleagues. There is nothing more horrifying than hearing 
Jefferson Parish's President, Aaron Broussard, tell America 
about the elderly mother of one of his employees, a mother who 
drowned in her nursing home waiting for rescuers. He said every 
day she called and said, Are you coming, son? Is somebody 
coming? But nobody came.
    We need to know why nursing home residents were not 
evacuated in time. Was it a question of inadequate staffing or 
neglect? Were residents too frail to be removed? If so, were 
they left to die on their own? What can we do to provide better 
emergency care for the frailest among us?
    Fortunately, it looks as if nursing home residents are 
being properly evacuated in advance of Hurricane Rita. What are 
they doing that was not done in New Orleans?
    And we're also beginning to hear about nursing home 
residents who were evacuated, but may have been sent to 
substandard nursing homes. I recently learned about one long-
term care ombudsman coordinator who had expressed serious 
concern. She wrote, quote, I have to tell you that I am dealing 
with another side of the story, and I am really feeling sick as 
I see what's happening. I received word in the past few days of 
one adult home and one nursing home that are getting ready to 
accept evacuees. They are both for-profit facilities that had 
have empty beds because they have been penalized for providing 
poor care. Neither staff has the facility to be able to provide 
consistent and good care to their own residents, along with 
evacuees in need of lots of TLC.
    I know I'm out of time, but I hope, Dr. Gerberding, that 
you will pass on this very important concern about decisions 
that are made, how and where to send nursing home residents. 
Thank you.
    Mr. Deal. I thank the gentlelady.
    Mr. Rush for an opening statement.
    Mr. Rush. Thank you, Mr. Chairman. And I want to thank you 
also for holding this hearing.
    I hope that we will have a hearing on the environmental 
hazards that Katrina has imposed on the citizens of Louisiana 
and Mississippi as we have additional--contemplate having 
additional hearings. Given this committee's vast jurisdiction, 
we should have numerous hearings on the subject from many 
different policy angles. Given that Hurricane Rita has now 
developed into a Class 5 storm with the same devastating power 
of Katrina, I think it's now more important than ever to hold a 
hearing like this in our committee.
    From this hearing I want to learn not just what the Federal 
Government is doing now for the affected populations along the 
Gulf Coast, but I want to know what went wrong and why so many 
people needlessly died.
    Mr. Chairman, the public health emergency infrastructure 
and system failed the victims of Hurricane Katrina, and this 
committee needs to determine what went wrong and why it went 
wrong. I say this not because I'm a Democrat and am looking to 
score points against my Republican friends on the other side of 
the aisle. We need to be retrospective and determine what went 
wrong so that we can learn from history.
    As I said, Hurricane Rita is now bearing down on Texas, as 
we speak, and we need to learn how we failed in the aftermath 
of Katrina if we are going to assure the people of Texas that 
they will not suffer from the same incompetence and 
indifference that the people of Mississippi and New Orleans 
suffered from.
    Too many lives are at stake, and if we want to call it the 
blame game, so be it. I hope my Republican colleagues do not 
get defensive and engage in a full-fledged combative posture to 
protect an incompetent bureaucracy.
    To my Republican friends I say, we need your inquisitive 
and critical minds, too. So forget dogmatically defending every 
aspect of this administration, and let's find some real answers 
to some real questions.
    To my Democratic colleagues, I would ask that we engage in 
a thoughtful and deliberative investigation without needlessly 
accusing the administration of wrongdoing. Let's hold 
accountable those who were incompetent and indifferent, but 
let's not try to score political points by exploiting the 
suffering of the poor people of the Gulf Coast. We are all 
better than this.
    That said, I too am deeply disappointed and profoundly 
perturbed that Mr. Simonson is not present today. Frankly, I 
was looking forward to hearing his agency's justification for 
his action, or lack thereof, during Hurricane Katrina. Let us 
get him in here, pronto.
    And, Mr. Chairman, I would just like to address a couple of 
comments from my colleague from Florida. The hurricane was a 
necessary and sufficient condition for the compromise of the 
levee system in New Orleans, which is and continues to be a 
Federal responsibility. I might remind my friend from Florida 
that Florida does not share New Orleans' geographical 
configuration, nor does it share its levee system.
    So you can't compare Florida to New Orleans. Thank you and 
I yield back.
    Mr. Deal [presiding]. The Chair recognizes the chairman.
    Mr. Barton. Thank you. I didn't give my full opening 
statement and use all my time because I thought we were trying 
to get to the witnesses. But I have sat here and listened to 
some of the opening statements, and I just want to make a few 
comments on the process. I think it is very important that 
committees of jurisdiction act in a timely fashion. And we have 
had one catastrophic hurricane, and we are in the process of 
possibly, hopefully not, but possibly of having another. So I 
want to tell my friends on the Democrat side we're not trying 
to whitewash anything. We want the facts before the American 
people, and we want them in timely way.
    And hopefully, we want to put them forward in a nonpartisan 
way. The easiest thing to do right now would be to hold no 
hearings at all and let this select committee that hasn't yet 
been established do whatever it's going to do and then us come 
back next spring after the fact. But I don't think that's 
right. And I'm in close contact with Congressman Dingell as we 
try to prepare these hearings. This is our second one. I've 
instructed every subcommittee to hold a hearing in its 
jurisdiction as soon as possible.
    Mr. Gillmor is going to have a hearing on some of the 
environmental consequences next week, hopefully. But in the 
process of doing that, sometimes some witnesses are not 
available because they are down in the area, either dealing 
with the aftermath of Katrina or preparing to soften the blow 
of Rita. But I assure everybody on this committee, at the 
appropriate time, there is no witness in the executive branch 
of this government, if there is a legitimate reason for them to 
appear before this committee, they will appear. We are not 
whitewashing or protecting anybody. But when you have an 
administration official who has the responsibility not just 
retroactively, but prospectively, you want them doing their job 
right now, hopefully to save lives and protect public health of 
potential victims of this second hurricane. But I have 
instructed the staffs and I have, you know, I have told very 
senior administration officials that they can't hide behind 
some pseudo reason that they can't be here. You know, we will 
have everybody before this committee that needs to be before 
the committee.
    But we also want to make sure that we allow them to do 
their jobs while there's a job that of immediacy that needs to 
be done. And I have conveyed that to Congressman Dingell and he 
has assured me that he is supportive of that. I hope he will 
have enough faith in my chairmanship and the subcommittee 
chairmanship to know that the one thing we are about on this 
committee is getting the facts, getting the truth and doing it 
in a way that bring credit on the institution of the Congress 
of the United States. Lord knows we need some credit, given the 
general public opinion of the entire Congress. So there are 
times we need to be partisan. I understand that. But partisan 
statements, while within 3 weeks of one major hurricane, with 
another hurricane that I'm told is three times as powerful as 
the first, make it difficult to move the process forward. And 
with that I yield back.
    Mr. Brown. Mr. Chairman.
    Mr. Deal. Mr. Brown Mr. Brown. Yeah. I only used 3\1/2\ of 
my 5 minutes. I just wanted to say one thing. I don't think 
it's partisan when members on our side hold up this document, 
signed by half the Republican members of this committee and a 
third of the Republican members of this Congress, which cut CDC 
$25 billion, which cuts Medicaid tens and tens of billions of 
dollars, I don't think it's partisan. I think it's something we 
want to put on the table to discuss.
    Mr. Deal. Well, the chairman didn't use his time either. I 
would simply remind Mr. Brown that's not the purpose of this 
hearing today. As we have a saying in the South of gone with 
the wind. We're looking at what happened in the result of what 
was gone with the wind and what was left and what we are going 
to focus on. So we will try to keep the hearing and the 
comments hopefully directed in that fashion. Ms. DeGette is the 
next one for an opening statement.
    Ms. DeGette. Mr. Chairman, I'll waive my opening statement 
in order to have additional time for questions.
    Mr. Deal. I thank the gentlewoman. Mr. Strickland.
    Mr. Strickland. Thank you, Mr. Chairman. Mr. Chairman I 
would just like to say at the beginning that I continue and I 
hope we all continue to be troubled by the fact that Americans 
died while they were waiting for water and food and emergency 
medical care in the United States of America in the year 2005. 
And we need to know why and how that happened and we need to 
make sure it never happens again. I would like to say a few 
words this morning about making Medicaid available to the 
survivors of the Hurricane Katrina. As you know, several States 
are delivering health care to survivors, including my State of 
Ohio. And in order to guarantee these evacuees continue to 
receive their care, we need to make sure that we are properly 
reimbursing the States. The National Governors Association has 
come out strongly in favor of the Grassley-Baucus relief 
package that provides 100 percent Federal funding for the 
health care needs of Katrina survivors. I hope that the 
witnesses will talk a little bit about that today and what this 
disaster relief package would mean to them and the importance 
of reimbursing the States in this way. I would also like to 
talk about the health care of our first responders, namely, our 
National Guard personnel. Immediately after Katrina hit, 
national guardsmen from across the country deployed to the Gulf 
Coast to begin relief efforts. As they return to their home 
States, it is my hope that we will monitor their conditions and 
adequately respond to any health concerns that arise. The 
Governors of this country have lent us their most precious 
resource, the men and women serving in their Guard. We must 
take care of them and we should honor their service. And that 
is why I will soon be introducing legislation to ensure that 
the health conditions of these guard personnel are 
appropriately monitored and that they will be able to receive 
care if they develop a health condition as a result of their 
service in response to Hurricane Katrina. Mr. Chairman, I want 
to thank you for this hearing and I look forward to hearing 
from our witnesses. I return the balance of my time.
    Mr. Deal. Thank the gentleman. Mr. Waxman is recognized for 
an opening statement.
    Mr. Waxman. Thank you, Mr. Chairman. In Katrina, we saw our 
national emergency response system fail. We witnessed a 
horrifying delay in access to basic medical care for tens of 
thousands of people. Hospitals had no electricity, light, water 
and medication for days. Thousands of people were stranded 
without even minimal medical attention in the Superdome, the 
New Orleans Airport and the Convention Center. Chronically ill 
patients died in their homes or on the streets. For a Nation 
that spends more money on health care than any other in the 
world, that has invested millions of dollars in medical 
emergency response, this failure is difficult to comprehend.
    In the wake of Katrina, we are told that dozens of health 
centers serving the areas most medically underserved were 
devastated. These centers provide care to thousands of people 
who, in the absence of these facilities, will have to travel 
great distances to receive card or worse, will simply go 
without. The emergency and trauma care facilities in these 
areas have also sustained significant damage. Big Charity 
hospital, the larger hospital in New Orleans and the only level 
one trauma center in the Gulf Coast region, was forced to shut 
down completely.
    It is imperative that we immediately provide the funding to 
rebuild these facilities and restore access to critical medical 
care in these areas. An immediate priority has to be to provide 
health care coverage for people affected by or displaced by 
Katrina. Medicaid is the program on the ground. That program 
can provide coverage and payment for care. Every State taking 
in evacuees has a Medicaid program in place that can 
immediately extend coverage to those in need. Our job is to 
give them the certainty that the Federal Government will 
provide full funding for the costs they incur by extending the 
Federal matching rate to 100 percent for those displaced by 
Katrina. The affected States that are taking in the people are 
already some of the poorest States in the Nation.
    With their economies in shambles they must have a temporary 
assurance so that they can maintain services to their Medicaid 
patients and reimbursement to their health care facilities 
already reeling from the effects and demands of Katrina. This 
is not something that ought to be approached on a waiver basis 
dependent on possibly arbitrary Federal decisions with no clear 
source for the promised funding. Changing the law to assure 
Medicaid full Federal payment is a simple and most certain 
approach. Affected States and providers deserve this assurance.
    There is a bipartisan bill introduced by Senators Grassley 
and Baucus in the Senate that would do just that. I hope our 
committee will do the same thing so the House can move in the 
same direction. The destruction resulting from Hurricane 
Katrina is unprecedented. Rebuilding health care infrastructure 
is unfortunately just one of the many tasks before us. I am 
looking forward to the testimony of the witnesses and I want to 
thank them for being here today.
    Mr. Deal. Well that concludes the opening statements of 
both subcommittees.
    [Additional statements submitted for the record follow:]
Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming
    Thank you, Mr. Chairman, for calling today's hearing. Today, we 
will have the opportunity to investigate one of the most important 
issues involved in the aftermath of Hurricane Katrina. The inherent 
necessity of adequate public health care is essential in the wake of 
any disaster, and today's hearing will clarify the current state of 
America's ability to react to these emergencies.
    I'd also like to thank the two panels of expert witnesses who have 
joined us here today. Many of you have been on the ground, working 
directly to assist the victims of this terrible tragedy. I thank you 
for these efforts and look forward to hearing what my colleagues and I 
can learn from your experiences.
    Hurricane Katrina is perhaps the most devastating natural disaster 
our nation has ever seen, and has presented the medical community with 
challenges of a magnitude we never could have predicted. The scope and 
variety of difficulties facing the public health care system in the 
Gulf States are staggering: there is a lack of health care providers, 
inadequate facilities, medical supply shortages, and infectious disease 
outbreaks, just to list a few. In addition, I have grave concerns 
regarding the administrative difficulties of delivering medical care to 
individuals who have no proof of insurance coverage and no medical 
records, many of which have been destroyed forever.
    Though we hope and pray we never again see a disaster of similar 
magnitude, we are here today to ensure America learns as many lessons 
as possible from this tragedy. Natural disasters have the potential to 
strike unpredictably and without mercy, in any area of the country. It 
is my hope that today's hearing will generate discussion on what steps 
must be taken to insure that health care assistance could be quickly 
dispatched to even the most rural areas of America, which tend to be 
medically under-served even in the best of conditions. I am also 
particularly interested in hearing how individuals with immediate and 
ongoing health care needs, such as chemotherapy or dialasis patients, 
are being assisted.
    Again, I look forward to hearing an honest assessment of the public 
health care system's response to Hurricane Katrina, and to hearing how 
Congress may help correct the inadequacies that persist. People across 
the country have opened their hearts Katrina's victims, and I hope this 
hearing will yield a practical work agenda for those who continue to 
serve the health care needs of their fellow Americans. Again, I thank 
the Chairman, and I reserve the balance of my time.
                                 ______
                                 
Prepared Statement of Hon. Ed Towns, a Representative in Congress from 
                         the State of New York
    Good morning. Today we are talking about a very important public 
health issue that has massively impacted the poor. The devasting effect 
of hurricane katrina destroyed the lives, families and homes of some of 
the most vulnerable American citizens. Likewise, businesses and 
infrastructure were also dealt a lethal blow. The tragedy of the 
situation is the unncessary loss of human life stemming from poor 
coordination and the lack of planning at the local, state, and federal 
levels. The government's delayed response to this public health 
emergency was unacceptable and unsatisfactory.
    Today, I implore congress on behalf of our fellow Americans whose 
lives were devasted by hurricane Katrina to not allow any of our 
countrymen to undergo such a horrific experience because of the Federal 
Government's lack of preparedness. We have the resources and means to 
ensure this for all American citizens. What we need is the political 
will and heart. This is about our country and us coming together as 
Americans to rebuild lives. Because when we rebuild the lives of the 
Americans that survived hurricane Katrina we fortify our own. Thank 
you.

    Mr. Deal. We will now move to the first panel and I am very 
pleased to have Dr. Julie Gerberding, who is the director of 
the CDC and certainly not a stranger to our committee and our 
committee processes here. We thank her for her presence. Since 
this is a combined hearing of the Health Subcommittee and the 
Oversight and Investigation Subcommittee, and since the policy 
of that latter subcommittee under chairmanship of Mr. Whitfield 
is to swear the witnesses, I would ask him at this time to 
swear in Dr. Gerberding.
    Mr. Whitfield. Thank you, Dr. Gerberding. I'm assuming you 
have no objection to testifying under oath. And I would like to 
advise you that the rules of the House and the committee, that 
you are entitled to be an advised by counsel if you so choose. 
Do you desire to be advised by counsel during today's 
testimony? In that case I would ask you to raise your right 
hand.
    [Witness sworn.]
    Mr. Whitfield. You are now under oath and may give your 5-
minute summary of your opening statement.

  TESTIMONY OF JULIE GERBERDING, CENTERS FOR DISEASE CONTROL, 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Gerberding. Thank you. Thank you, Mr. Chairman, 
Chairman Deal. I'm very pleased to be here this morning. We are 
sitting in the middle of two of the largest hurricanes that I 
think any of us could imagine. This is my 23rd and 24th public 
health emergency since becoming part of the leadership team at 
CDC, and I can assure you that we have learned something every 
time we have had an emergency operation. This is also the 
largest national natural disaster our country has faced, and I 
think the scalability of our preparedness and response 
capabilities are really a part of what we need to be looking at 
in terms of lessons learned as we go forward. In order to deal 
with a disaster this large, a network of response capability at 
every level, at the Federal level, the State level, the local 
level, the private level, the public level and in particular in 
this case, the citizen level of all the volunteers who have 
done so much, and not just the affected States, but the States 
that are receiving evacuees, all of these elements need to work 
together in a synergistic fashion to get each of their roles 
and responsibilities accomplished.
    But a response also requires a command and control 
environment. It needs leadership. It needs clear strategies and 
accountability for what's going on. And I feel very strongly 
that within the Department of Health and Human Services, we 
have had effective leadership on the part of Secretary Leavitt. 
We have been addressing four priority areas during this 
operation. Those include health care services, mental health 
services, the delivery of human services to the many 
disenfranchised people to require them immediately, and for the 
long run, and from my particular perspective, public health 
services. I wish I could provide more perspective and 
information about the overall departmental roles and 
responsibilities in this regard.
    I'll have to limit my remarks to the public health sector 
because that's my area of responsibility and expertise. But I 
just do want to acknowledge a few remarkable contributions that 
my colleagues have made. Secretary Leavitt put the whole 
commission corps of the United States public health service on 
early alert. That involves more than 6,000 clinicians and other 
experts for response. And we have engaged in the largest 
deployment of the commission corps since the Korean War. More 
than 1,200 commission corps officers have been staffing the 
shelters and providing medical services to people in evacuation 
centers across the south.
    In addition, we have deployed the strategic national 
stockpile in the State of Mississippi and provided more than 30 
tons of medical equipment and materials in the State of 
Louisiana. We've also conducted the coordination of the vending 
operations to assure a supply line of medical materials and 
vaccines. And CDC has also used the authorities that Congress 
has provided us in terms of our aircraft to, on short notice, 
deliver anti microbials, intravenous supplies, and I believe 
save lives by being able to get those materials into Louisiana 
very, very quickly.
    The Department has also taken the leadership team to many 
of the shelters. Secretary Leavitt has actually been three 
times now to visit shelters and understand firsthand what the 
needs of the sheltered individuals are. But we have also 
visited our Federal medical contingency stations where we 
deployed more than 2,500 emergency equipment for 2,500 
emergency beds in that regard, and deployed large contingencies 
of the commissioned corps as well augmented services from other 
medical centers across the United States to staff these 
shelters and provide these medical services. These and many, 
many other activities, I think, have been going on largely in 
the background of the lens of most of what's been discussed.
    In terms of the Centers For Disease Control, currently, our 
operational mission is summarized here. We have 61 people who 
are doing surveillance for the emergence of disease and 
investigating those diseases with teams across the south. The 
largest force is in Louisiana at the moment. But we've had 
overall since the operation began more than 300 people 
supporting public health functions in the field. Again, I want 
to emphasize, these are broad spectrum of activities, including 
occupational health screening, environmental health services, 
vector control for mosquitoes, rodent control for the 
anticipated rodent and pest problems that will emerge and a 
variety of other public health functions to support and 
augment, in my opinion, some of the unsung heroes, the State 
health officials in the various regions, in particular, Dr. 
Kevin Stevens, the health officials from the city of New 
Orleans who spent time in the Superdome.
    And I traveled with him to various shelters as he tried to 
locate his staff and figure out ways to get them back to New 
Orleans to begin the recovery and reconstruction 
responsibility.
    I'm just going to present three very brief snapshots of 
what the medical experience has been. These data are provided 
by hospitals in the greater New Orleans area. These are just 
snapshots. These data haven't been elevated or confirmed. But 
what you can see here in terms of injuries and chronic 
diseases, yes, the hospitals are requiring services for people 
with their regular medical attentions. But injuries have 
emerged in all of the different environments as a consequence 
of people rescuing and cleaning up the debris. We also have 
noted several cases of carbon monoxide poisoning, which is 
something we anticipate after any disaster that involves the 
use of generators and we are working hard to try to get 
information and education to people to avoid that.
    I have to emphasize the importance of mental health issues. 
The incredible immediate impact on people with pre-existing 
mental health conditions as well as long term mental health 
conditions is something that has engaged the entire department, 
and particularly SAMHSA, that has the lead for this activity.
    And last, in terms of infectious diseases, we have not seen 
widespread outbreaks of anything unusual. We anticipated 
intestinal diseases and respiratory diseases in the shelter 
context and we have seen some problems with an organism called 
vibrio, which is associated with the brackish water and some 
serious infections and death from that, but not the scale of 
infectious disease problems that one might anticipate. 
Environmental assessments are ongoing.
    I'll be happy to answer questions about the environmental 
impact as it pertains not just to the city of New Orleans where 
there was flooding, but also in other regions of the south.
    And last, let me just conclude by remarking on the 
incredible heroism that I've seen, not just among all the 
people in the country who are working hard to mitigate the 
consequences of this, but particularly to the survivors of this 
catastrophe, the stories that people tell about their own 
family heroism as well as the efforts that they made on behalf 
of others are heart warming, and I think what really leads us 
to have some hope, particularly as we look at Rita, but also as 
we go forward and try to strengthen our Nation's overall 
preparedness capacity. Thank you.
    Mr. Deal. Thank you, Dr. Gerberding. And I will begin the 
questions as this point. Before the hearing today, you and I 
had an opportunity to talk briefly about an issue that is of 
concern, I think, to all of us. We've heard it surface in 
several of the opening statements here today. And that is with 
regard to volunteer professionals, doctors, nurses, et cetera, 
from outside the affected region and their ability, or 
inability, as the case may be, to access and be able to be of 
service in the affected area. You outlined for me the program 
that is in place and the procedure for certification and 
verifying that. Would you be kind enough to do that briefly 
right now?
    Ms. Gerberding. Sure. I'll be happy to give a summary and 
provide additional background on that as we go forward. The 
overall health care service delivery in the context of 
preparedness is a modular program that relies on the 
commissioned corps of the public health service which has been 
engaged and relies on the national medical disaster system, 
which are teams of people from the civilian population who move 
into an area as a unit with the equipment and the materials 
necessary. Those are the people who, for example, worked out of 
the New Orleans Airport to support the evacuation efforts. Then 
there's an augmentation. We have a reserve corps in the 
commissioned corps of the public health service.
    And importantly, in all of this are the health care 
personnel in the affected regions. They are providing the vast 
majority of the care. Beyond that, if the need is larger than 
those people can provide and importantly in this context, 
sustain, it is possible for voluntary health care workers to be 
temporarily licensed in the affected States. And that can 
happen by providing them status as temporary Federal employees. 
If you're a Federal employee, your license can apply in any 
jurisdiction in which you're working as a Federal employee 
providing medical services as long as it's within the scope of 
your license. Credentialling that is something that has 
happened. We've had more than 30,000 people volunteer. The 
credentialling is in progress for those people. And depending 
on the decisions by Governors and the involved health officials 
in the State we can Federalize volunteers. What we don't want 
is for people to flood in a discoordinated way because then we 
end up having health care workers doing everything they can to 
help, but we don't have a comprehensive approach, leadership, 
management, supplies and communication that really allows us to 
take the best advantage of this volunteerism.
    So, it's an important component. And I know it's hard 
sometimes for people who really want to help to feel that their 
help is not being accepted. Believe me, there will be 
opportunities to help, and I think we can anticipate this 
volunteerism in the future and do a better job of planning for 
it ahead of time so that the step of credentialling is 
happening in advance, and perhaps people could be trained and 
offered the opportunity to prepare before they're actually 
requested to serve.
    Mr. Deal. Well, I thank you for that. And I would simply 
echo that last comment, that I think in light of what we learn 
here is that there are many people willing to help and willing 
to volunteer. And if we make the information available to them 
so that we can get the credentialling done in advance of a 
disaster, I would encourage movement in that direction, and I 
think this will make everyone more aware of the fact that there 
is a process, because as I understand it, licensure and 
credentialling carries with it the Federal Government giving 
protection from a liability standpoint and obviously, you do 
need to have some degree of say-so about who you extend that 
protection to. But I would hope that we would see that effort 
of credentialling continue and expand greatly.
    Let me go to another subject. And the CDC Foundation that 
works in conjunction with the CDC, would you explain briefly 
what that foundation does and how it augments what you do at 
the CDC, and what has that foundation done in conjunction with 
Hurricane Katrina?
    Ms. Gerberding. Thank you. The CDC Foundation is a 
Congressionally authorized nonprofit foundation that exists to 
help CDC do more and do it faster. Beginning with the World 
Trade Center attacks, the Foundation has taken a special 
interest in supporting and augmenting our preparedness and 
response capabilities by creating special funds that allow us 
to make resources available at the front line. So in the 
context of Hurricane Katrina, we've had remarkable 
contributions from several foundations and individuals across 
the country that have allowed us to do things like provide 
housing for the public health workers in the city of New 
Orleans who wanted to work but couldn't afford to pay a hotel 
bill for their stay, provided laptops for front line people, 
eventually they will be able to have some of these services, 
but they need them right now and we don't have to go through 
the government procurement process.
    The Foundation can put those tools in the hands of people 
on the front lines. It's been absolutely important. We've used 
it do get vaccine supplies in places where we needed to make an 
immediate buy and a number of other things that really have 
solved problems for the front line public health officials 
without having to go through a lot of red tape. So it's been a 
wonderful, wonderful support for all of us.
    Mr. Deal. And you multiply the dollars that the Federal 
contribution is. You multiply them many times over by the 
contributions from the private sector.
    Ms. Gerberding. Oh, absolutely. Absolutely. The Federal 
Contribution Foundation is very small compared to their overall 
ability to help.
    Mr. Deal. Thank you. Mr. Brown is recognized for questions.
    Mr. Brown. Thank you, Mr. Chairman. And welcome again, Dr. 
Gerberding, and thank you, Chairman Barton, and Chairman Deal 
for putting together this hearing. In the general sea of 
Federal incompetence that we saw in New Orleans and along the 
Gulf Coast the CDC really stood out as an agency that 
represents what the Federal Government should be, and we thank 
you for that. I think people on this subcommittee, or on the 
Health Subcommittee, and I think Mr. Stupak and Mr. Whitfield's 
subcommittee also are not surprised at the effort that the 
CDC's good work, not just in response to Katrina, but generally 
because most of us, I think probably on the subcommittee, have 
visited Atlanta and seen the CDC and seen the professional way 
that you carry your work out and not just you, but your entire 
top staff and mid-level and rank and file workers, and I think 
that's a lesson to us that when you hire competent professional 
people to run agencies, it means that those agencies carry out 
their work in competent professional manners. And that's 
something that we should remember whether, whenever we would 
both judge and evaluate what our Federal Government is doing.
    Ms. Eshoo, and then Ms. Schakowsky and Capps and Baldwin, 
all mentioned the cuts, the proposed cuts to CDC. And I think 
they speak for themselves certainly, but my concern is not that 
this was one person proposing a huge cut in CDC, there are 435 
Members of Congress and people do what they do. But when a 
large swath of a political party or a large swath of Members of 
Congress, 80-some members, put out a document that says we 
should cut CDC $25 billion over 10 years, that's something we 
need to understand better and respond to and prepare for, in 
case they are able to keep tax cuts in place and make these 
huge cuts to CDC.
    So I would like, if you could, Dr. Gerberding, tell us what 
these cuts, what they actually mean. What they would mean in 
terms of your day-to-day operations and what you do, everything 
from lead-based paints to obesity to health disparities to 
response to preparedness and what it would mean to your agency, 
those kinds of cuts in response to another Katrina or an 
attack, terrorist attack or something like that.
    Ms. Gerberding. I respect and appreciate the dilemma that 
Congress faces in terms of how to pay for these disasters. I am 
not a party to the discussions about the CDC budget cuts. This 
is really the first I've learned about them sitting here in 
this hearing today, and it is a sobering prospect. But I 
believe what probably happened, and I hope I have a chance to 
talk to the people who have considered cutting CDC, is that in 
our House budget this year, there is, on paper, the appearance 
of a $1.8 billion increase in our budget because the 
Appropriation For Terrorism Preparedness that used to go to the 
Department of Health and Human Services is now in this budget 
directly appropriated into CDC's line.
    So if you're just looking at last year's line compared to 
this year's line, it looks like we got a proposed $1.8 billion 
increase. And I suspect that the proposed reduction was a 
misunderstanding that that $1.8 billion was an increase for 
some purpose, when in fact, it was a movement of money from one 
line item in the Department back to our own line item. So I'd 
like to have a chance to check on that and to get back to you 
if that's the explanation.
    Mr. Brown. I don't know if it is a misunderstanding. I look 
at other parts of this document and the cuts are huge in all 
kind of service areas, increase in Medicare premiums, cuts in 
Medicaid, even though the demands of Medicaid are greater and 
greater prior to Katrina and Rita, prior to, but because of 
layoffs and all that's happening and more people need Medicaid 
and all of that. So I don't know if that's the case. Talk to 
me, if you would, about--I mean, even if the $1.8 billion is 
considered that way, $25 billion cut over 10 years, by any 
multiplication factor is a significant cut. I really do want 
you to talk about what the demands on--I mean, I know you're a 
``political appointee,'' but I also know you're a professional 
and I trust you and I've watched you in all kinds of venues.
    What would that mean to this country's public health if we 
have these kinds of, whether it is a--no matter what percent 
the cut is if you include or exclude the $1.8 billion, it's 
still a significant reduction in a funding stream for a very 
crucial public health agency. What does that restrict you? What 
can you not do?
    Ms. Gerberding. I'm not prepared to answer that with 
accuracy right now. Obviously, it would be a very sobering set 
of decisions about prioritizing or reprioritizing our work and 
we would have to----
    Mr. Brown. Okay. I accept that. But would you, after 
consulting with the authors of this and after they clarify to 
you what you meant, would you respond in writing to me and to 
Mr. Stupak about what, in fact, that would mean to your agency?
    Ms. Gerberding. Absolutely.
    Mr. Brown. Thank you.
    Mr. Deal. I'll recognize Mr. Barton for questioning.
    Mr. Barton. Thank you, Mr. Chairman. Doctor, you've 
testified before this committee before and I appreciate you 
coming again. I want to ask, just for the record, what your 
role is in the overall hierarchy at health and human services 
in terms of setting some of the larger policy goals that HHS is 
responsible for. Do you participate in those discussions on 
Medicare and Medicaid and things like that? Or is your role 
strictly Centers for Disease Control and running that part of 
HHS?
    Ms. Gerberding. My primary role is public health and the 
Centers For Disease Control in prevention. There are many 
important intersections between the work we do at CDC and other 
parts of the department, including Medicare. For example, the 
fact that the new Medicare Modernization Act includes 
prevention benefits that never before existed in Medicare is 
something that CDC has worked very hard to encourage for a long 
time. And we feel that the Medicare modernization process is an 
excellent opportunity for us to do what we do, which is to 
protect health through prevention services.
    Mr. Barton. So you do have some input and some interaction 
with the secretary and some of the other assistant secretaries 
and the people at CMS and some of the larger policies, is that 
fair to say.
    Ms. Gerberding. It is fair, and in areas where our 
expertise is complementary or helpful.
    Mr. Barton. Okay. So now while we couldn't have some of the 
witnesses that we had initially hoped to have today, one in 
particular who had to go down to Texas, and I know some of 
these questions are not directly in your jurisdiction, but 
since you just said that you have some input, I want to ask a 
few questions on some of the larger issues. What is considered 
within HHS right now, the No. 1 health issue as a consequence 
of what's happened with Katrina? If there was one issue that 
the Secretary and the other assistant Secretaries and yourself 
are most concerned about, that directly, as a cause of Katrina, 
what would that be?
    Ms. Gerberding. I don't want to speak for the Secretary. 
But I believe the restoration of health services is the big 
picture here. We need those systems to support the delivery of 
services, whether it's care for chronic medical conditions, 
care for mental health conditions that are present or emerging, 
or the sort of support services that people need to get their 
feet back on the ground.
    Mr. Barton. So there's not a concern, I mean there is a 
concern, but it is not as high a priority, some sort of an 
infectious disease because of contaminated water supplies, or 
environmental damage, some of the petrochemicals leaking into 
the groundwater, those are serious issues. But the No. 1 issue 
is just restoring the basic health services. Is that fair to 
say?
    Ms. Gerberding. I would say that would be at the top of the 
list. The other acute problems that you've mentioned are things 
that are certainly very important issues for the CDC and we are 
very vigilant about doing what we can to prevent infections, 
prevent exposures to these toxins, prevent vector borne 
diseases and help restore the public health infrastructure 
which was fragile in many of these areas before the hurricane 
and is going to be a challenge to restore after the hurricane.
    Mr. Barton. So within the No. 1 issue of restoring health 
services, what is the discussion right now about the Federal 
role, and should we--should the Federal Government come in as a 
providers of last resort and put money and manpower, regardless 
of the profit, nonprofit State-Federal-local relationship? Is 
it the feeling that we should just go in and do whatever needs 
to be done and have the Federal Government pick up the tab for 
it? Or is there some feeling that there should still be some 
sort of a partnership and we should look at the historical 
relationships and try to provide immediate short-term 
assistance while trying to maintain some balance of the 
historical relationships?
    Ms. Gerberding. No, my understanding from the participation 
in these discussions that I've had is that we all recognize 
that, again, sort of that network concept, that we're going to 
have to work effectively in partnership with a wide variety of 
enterprises, including the private sector, and that no agency 
or no government or no individual is really going to be able to 
affect a solution here standing on their own. I would be happy 
to get more information and clarity on this point from 
Secretary Leavitt for your record.
    Mr. Barton. Well, I understand that we didn't get some of 
the witnesses and some of these questions I'm asking you would 
be better directed to somebody that had a direct policy role 
day-to-day in these areas. But we're dealing--what should we do 
on Medicaid? Should the Federal Government step in and provide 
100 percent Medicaid assistance for everybody in the affected 
regions, or should we provide short-term Medicaid assistance in 
the historical Federal-State sharing relationship? What should 
we do with for profit hospitals? Should we rebuild a for-profit 
hospital right now or should we provide this assistance only to 
nonprofit hospitals? These are the kind of policy questions 
that honorable people can disagree on what the, you know, what 
we should do.
    The humane short-termed compassionate response is let's 
just do it. Let's don't worry about who pays for it. Let's just 
do it. When you look at the financial consequences long term on 
the American taxpayer, the Federal Government just stepping in 
and doing all right now, some of the numbers get to be pretty 
big pretty quickly.
    So you know we'll do some other hearings on this as soon as 
we can get the right people to come forward. I want to thank 
you for your, first, for your work in the current situation. I 
want to echo what Congressman Brown said. You've done an 
outstanding job.
    And I encourage you to do that good work as this second 
hurricane gets ready to hit our coast. I've just been told that 
my hometown, which is 320 miles from the coast of Texas, is 
now--the interstate Highway 45 is one way all the way from 
Galveston through Ennis, Texas. That's amazing. That's over 300 
miles, one way getting out of there. Thank you, Mr. Chairman.
    Mr. Deal. Thank the chairman. Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. And Doctor, if the No. 
1 goal or No. 1 issue in your eyes is the restoration of health 
services to these people, many of them are displaced, then 
would the bipartisan legislation introduced by Senator Grassley 
and Senator Baucus, which is a bill which really provides 
immediate health care assistance to Katrina survivors through 
Medicaid and 100 percent Federal funding to any State that 
enrolls survivors in their program, in other words, the money 
would follow the person no matter where they ended up, whether 
it's Texas, New York, Washington or Michigan, this approach is 
simple. It's immediate. It's equitable. It will not require the 
complexity of negotiating separate deals or Medicaid waivers by 
the administration with over 25 States that have taken in 
Hurricane Katrina survivors.
    Also the bipartisan Senate bill would also guarantee full 
funding for all low income Katrina survivors. And it does so in 
a program that States already know and work with. So would this 
legislation then meet the needs of your No. 1 issue, the 
restoration of health services?
    Ms. Gerberding. Thank you. I'd like to make a couple of 
statements of principle that we are planning on in the 
Department. One is that we want people to be able to access 
their services quickly in the most synergistic and customer-
friendly way possible, wherever they are when they need them. 
And the second principle is that whenever possible, to use 
existing programs and services to be able to provide things in 
a familiar environment with people who are already expert in 
administrating those program. But we are all looking for 
flexibilities in authorization and ways to make these programs 
work more rapidly. I can't comment on the specific legislation, 
and I'm not familiar with the details. But I'm sure others in 
the Department can respond to your question.
    Mr. Stupak. But with those goals the approach is simple, 
it's immediate, equitable. If you start going through waivers 
it's going to take time to deliver these services, right, 
because those all have to be----
    Ms. Gerberding. I can't, I just can't comment on that.
    Mr. Stupak. All right. Let me ask you this. Were there 
areas in New Orleans and throughout the Gulf area, not 
hospitals, but were designated as evacuation sites for 
individuals who had medical needs?
    Ms. Gerberding. There were evacuation plans that the city 
had put forward, and I believe had even had a recent exercise 
of those evacuation plans to account for people with special 
needs. I'm not sure the plans adequately addressed some of the 
concerns that were raised earlier about long term care patients 
and others that would find it difficult to avail themselves of 
an evacuation services.
    Mr. Stupak. Well, was CDC then aware of these other 
designated areas as evacuation sites for people with medical 
needs? Were you aware of it before Katrina hit?
    Ms. Gerberding. The CDC is not responsible for that 
specific activity, and I would have to make a determination 
whether or not we in the Department had that information.
    Mr. Stupak. So you didn't know then that like the 
Superdome, which was one of those evacuation sites for people 
with medical needs. You wouldn't have known that?
    Ms. Gerberding. Superdome is what is known as an evacuation 
center of last resort. It was never designed or intended to be 
a medical center. It was a place where, if everything else 
fails, if people are at risk of drowning, it was known to be 
able to survive a category 4 hurricane. But it was never 
intended to be----
    Mr. Stupak. Here in the city plans, it says some will be 
housed at the Superdome, the city plan, the designated shelter 
in New Orleans for people too sick or infirm to leave the city. 
So I would see it more as just a--that's what we are trying to 
get at and those were people who were sick. If we knew they 
were at evacuation sites, whether it's the city plan, the 
Federal plan, or the State plan, our question then is why, if 
everyone knew about it, they were in these plans, how come the 
medical supplies weren't there.
    Ms. Gerberding. Again, it was not in the pre-event planning 
intended to be a medical center. We wouldn't think of a large 
auditorium like that as being a place where we would have the 
kind of medical capability that turned out to be required.
    Mr. Stupak. Sure. But as you indicated it was in the city's 
plan.
    Ms. Gerberding. I can't comment on the mayor's plan.
    Mr. Stupak. Okay. Let me ask you this. What changes have 
been made in the way--I'd like to ask HHS, but again they're 
not here. Well the CDC, what changes have been made in light of 
Katrina to get you ready for Rita?
    Ms. Gerberding. Thank you. We are doing several things. 
I'll just give you a couple of concrete examples. In addition 
to forward deploying personnel which we did prior to Hurricane 
Katrina as well, we have just done an inventory of the 
communications system that we are responsible for. CDC owns a 
wavelength of the high frequency communications system. We have 
14 bands in there. We know that, we have tested in Texas 
frequently, prior to the hurricane, the activity of that high 
frequency communication system that allows us to communicate 
with public health officials. In the past, it was up to public 
health officials to be able to connect with the relevant care 
providers in their community. But we are reaching forward to be 
sure that we deploy antenna, batteries, and other equipment to 
make sure that our back up communications system is intact in 
the State of Texas.
    Mr. Stupak. Well, did you have that communication system in 
New Orleans?
    Ms. Gerberding. As a matter of fact it did exist in New 
Orleans, but they didn't have gasoline for the generator and 
they didn't have the battery supplies to be able to reliably 
use it.
    Mr. Stupak. Who is they? You or CDC?
    Ms. Gerberding. We are just in the process of understanding 
what the failure was in that high frequency communication 
system in that jurisdiction.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Deal. Mr. Whitfield next.
    Mr. Whitfield. Thank you, Mr. Chairman. Dr. Gerberding, 
obviously, this hurricane did expose some vulnerabilities from 
the health care systems, even in the area that you're 
responsible for. And in your opinion, what are the major 
vulnerabilities that were exposed?
    Ms. Gerberding. I think there were issues around the 
anticipation of the predictable surprises. For example, we knew 
that any disaster would bring a requirement for rescue and 
relief workers to go into environments that weren't necessarily 
safe and that infectious diseases could be a problem there. We 
could have prepared our guidance for who needed what 
immunization prior to the event and not during the event so 
that we could have eliminated--nothing that caused a problem, 
but just one extra element of working one extra element the 
communication.
    Those kinds of anticipatory recommendations under disaster 
circumstances are something that we're going through right now. 
We also learned that we were able to stand up 20 public health 
teams of 20 people each, excuse me, 12 public health teams with 
20 people each with multi disciplinary support to be able to 
move in as a team into a region and we have used those teams 
across the south. The rostering of those teams revealed to us 
that our bench is not broad in some specific areas.
    For example, we don't have a deep bench in risk 
communication. And in order to assure that we can scale up to a 
disaster this size, we need to not only be able to augment our 
own personnel, but we need to identify people from other parts 
of the country who would be willing to come in and volunteer or 
donate their time to be part of our teams. So we're already 
figuring out how top reach outside of CDC to link into a 
broader bench to help us when scalability is really the 
challenge.
    Mr. Whitfield. You sent 12 teams of 20 people each into the 
New Orleans area?
    Ms. Gerberding. We comprised 12 teams. We also are sending 
people in without request, and so in some, for example early on 
in Mississippi, they needed 35 environmental health experts to 
help deal with things like water quality and food quality in 
the shelter environment, so we rostered 35 environmental health 
people there as a team. We have a full complement of public 
health experts right now in the city of New Orleans, sitting 
literally next door to the city health director, along with the 
Department of Defense and the Army Corps of Engineers and 
others.
    They are really working on restoring the public health 
system in the city in a wonderful collaboration, actually a 
visionary collaboration of what really would be a better 
solution to the public health system in a community that's long 
had the challenges of health disparities and underinvestments.
    Mr. Whitfield. And do you have the authority to just send 
these teams in without a request from local or State 
government?
    Ms. Gerberding. No. CDC cannot send personnel into 
anybody's State without permission. That is not part of our 
authority. We have to be requested by State health officials or 
local health officials for assistance.
    Mr. Whitfield. And how timely was that request for 
assistant?
    Ms. Gerberding. It was, in my opinion, right on time. We 
are using our own command and control structure, which at least 
preliminary evaluation has revealed a much better system than 
some of our strategies in the past. We have a senior management 
official in each of affected States that is there with the FEMA 
task force, but also with the State health official. And they 
are the point of contact and the leader for all of the other 
CDC activities in that environment, so all of our field teams 
report back to our senior management official who's working 
with the overall disaster leadership.
    And that allows us to know immediately when there's a need 
and to relay that need up and down the system. So I think the 
timeliness of our deployments has been exemplary. And again, 
not to harp on the CDC aircraft, but we were able to get people 
in and out of these areas at a time where we could never have 
been successful in the past because we could use the CDC plane.
    Mr. Whitfield. So from your perspective, just the 
infrastructure that you had in place and the management team 
that you had in place was able to respond in a timely fashion. 
But you were weak in that you did not have adequate expertise 
in particular areas that you needed in these teams.
    Ms. Gerberding. I would not describe it as a weakness or 
deficiency. We just realized that if we were asked to do more 
than we were already doing, that we were going to be cutting 
into other important public health functions that are part of 
our agency's overall mission. We're not only a preparedness 
agency, we have other responsibilities like avian influenza and 
other key issues on the horizon. So for us, given that this 
operation is not short-lived, and we are seeing it followed on 
by another hurricane, we have to get the balance right between 
being able to provide an effective and sustainable response, 
and at the same time, continue our important public health 
mission.
    Mr. Whitfield. So there was no weakness, but just not 
enough people in this particular area.
    Ms. Gerberding. A recognition that future planning will 
need to assure that we have a back up to the system.
    Mr. Whitfield. Just one other question. On September 8, in 
an interview at CNN, you indicated that you were relieved at 
that point because you did not see any major disease outbreak. 
From your perspective, is that still the case or----
    Ms. Gerberding. We have seen outbreaks of expected problems 
in the shelters in Texas. There was a problem with a common 
viral gastroenteritis, the same thing that causes the outbreaks 
in cruise ships, sometimes called noro virus. CDC, along with 
local and State health officials, brought that problem under 
control remarkably easily, probably more easily than we have 
seen on cruise ships through extraordinary measures to help 
people improve hand hygiene and hand washing. We have seen this 
vibrio infection outbreak. Vibrio is a bacteria. One member of 
that family causes cholera. We certainly don't expect cholera 
in this area, but organisms in that family can also cause other 
very serious skin and bloodstream infections, and there have 
been some deaths associated with vibrio from people being 
injured, wandering in the water, and then getting infected.
    Our most important public health focus right now in 
addition to just avoiding drinking the contaminated water in 
the greater New Orleans level is the concern that we have 
tracked down people with pre-existing infectious disease 
problems like tuberculosis that need to be treated even in this 
context, and we have accounted for the vast majority of 
patients with tuberculosis who were being cared for by their 
public health programs, but we haven't found all of them, and 
so we are very eagerly working across the United States to make 
sure that we have identified every single person who is 
supposed to be on tuberculosis medication and assure that they 
are on their treatment.
    Mr. Deal. Ms. Eshoo is recognized for questions.
    Ms. Eshoo. Thank you, Mr. Chairman. I have a series of 
questions, but before I start on this much referenced report, 
``budget options summary and explanation of offsets by the 
RSC,'' the Republican Study Committee, under reducing funding 
for the Centers For Disease Control. It States under the House-
passed appropriation level, the CDC's funding increased 25 
percent over last year, a significant infusion given the 
current fiscal situation. Savings, $25 billion over 10 years, 
$9.7 billion over 5 years. So that gives you a taste of where 
they're going. All right. And----
    Ms. Gerberding. I would like to have a chance to understand 
this proposal. I have--it's obviously sobered my----
    Ms. Eshoo. Well, certainly. And I understand your 
discomfort of commenting on something you haven't read. But I 
just wanted to read that into the record so that--because we've 
just been using the figures, and I'd like to ask that after 
having read this, that you send a letter to each member of the 
committee with your analysis of what these cuts would 
represent. I'd like to request that and I can't make you do it, 
but I think that it would be an important document relative to 
the health, the overall health of the Centers For Disease 
Control. Let me ask you this: Of whose left in New Orleans, 
have they received vaccinations?
    Ms. Gerberding. The people who are--the rescue and relief 
workers have been advised to receive vaccinations into the----
    Ms. Eshoo. What about the population, any population that's 
left there?
    Ms. Gerberding. People who are presenting for care are 
evaluated to determine whether or not their specific 
environment puts them at risk.
    Ms. Eshoo. Individuals have to make the determination as to 
whether they're at risk and then step forward?
    Ms. Gerberding. No. The vaccines that were especially 
recommended in those areas because we were concerned about 
people being in the water and rescuing and taking care of 
people, the people in the evacuation centers.
    Ms. Eshoo. I understand. But both the search and rescue and 
from residents----
    Ms. Gerberding. The evacuees immunizations were based on 
the fact that they were in crowded conditions where they could 
transmit----
    Ms. Eshoo. Not in water?
    Ms. Gerberding. The evacuees we were focusing on, 
particularly the children, the vaccine preventable diseases 
that they should have had as well as their tetanus shots. So 
there are really no special vaccines for regular people that 
are necessary. But a lot of these people were behind on their 
regular immunizations and so we want to catch them up. And 
that's really been the focus for the average person who is not 
putting themself at special risk.
    Ms. Eshoo. I am feeling less and less confident the more 
you try to explain this to me. I want to get it straight. 
Residents of the affected area that are still there, is there a 
team of people, whether it's CDC or any other organization that 
is making sure that they receive the kind of vaccines that 
search and rescue people have gotten?
    Ms. Gerberding. The people who, let's say the people who 
refused to be evacuated, is that who you're talking about?
    Ms. Eshoo. Well, the people that are left there. People 
that didn't get out. People that are still there, whatever you 
want to call them.
    Ms. Gerberding. The people who are still there or who are 
returning are at no greater risk for special infectious 
diseases----
    Ms. Eshoo. Not returning. There are some people who didn't 
leave. They're the ones that I'm asking about.
    Ms. Gerberding. It's not a one-size-fit-all answer. The 
purpose of the immunizations in the context of a disaster are 
to provide protection against special circumstances that 
emerge. If individuals are in an environment where they're----
    Ms. Eshoo. Let me just go on, because I have two more 
questions. When did the teams that you referenced, these 12 
teams of 20, when did they arrive in the area?
    Ms. Gerberding. They arrived at different times throughout 
the deployment, depending on the request of the State health 
officers. But generally, they arrived on the day they were 
requested.
    Ms. Eshoo. Which was when?
    Ms. Gerberding. I can give you the details for all of 
various departments.
    Ms. Eshoo. I think that we need to have that.
    Can you explain to us how the planning that takes place at 
FEMA and Homeland Security includes you, so that there are 
not--I think if there is anything that we've learned from this 
is that we have separate smokestacks. Each agency is talking 
about what their team did or didn't do and how they planned. I 
don't have a sense that there was coordination that was so 
meaningful that they arrived at a time with the breadth and 
depth of teamwork from across agencies in order to address this 
catastrophe. So can you describe for us how you, how CDC is 
integrated in that.
    Ms. Gerberding. Under the current National Response Plan, 
and something called the National Incidence Management System 
and its annexes, right now CDC is not directly linked into 
Homeland Security or----
    Ms. Eshoo. Do you think you should be?
    Ms. Gerberding. I think that is one of the things that I 
would like to look at, was there adequate health input into the 
decisions that were being made. The Department----
    Ms. Eshoo. Dr. Gerberding, I mean, with all due respect, I 
mean we pick up the newspaper and we see bodies wrapped in 
white sheets on the front pages of our Nation's newspapers. So, 
you know, if we need to think out of the box, this isn't fault 
or blame, we've got to come up with a better way to respond, 
and this is--I don't want to pit a terrorist attack against a 
natural disaster. We are a great and wealthy and decent nation, 
so something is wrong here. And if you're left out of that, if 
CDC is left out of that--we see people going through these 
contaminated waters. I think that CDC needs to be part of the 
overall response team that hits the ground. I might be wrong, 
but since you're here, you're included and you're the lead 
witness in this hearing. We are going to need some real 
professional thinking coming out of the agency to help us do 
what we need to do. It seems to me that you should be 
integrated in those teams. I may be the only know that thinks 
that, but I think that should be a consideration. I really do.
    Ms. Gerberding. I think I misunderstood your question 
because I thought you were asking me about sort of the planning 
process and the kind of high level government process. On the 
ground we're very much integrated in the team. And we do have a 
desk in the operations center and we are there side by side 
with the other responders on the ground. So I apologize for 
misunderstanding.
    Mr. Deal. The gentlelady's time----
    Ms. Eshoo. So are you satisfied with how your agency was 
able to do what it is supposed to do in this emergency?
    Ms. Gerberding. I'm never satisfied, and we can learn.
    Ms. Eshoo. Neither am I, I'm never satisfied with myself or 
all kinds of things, because anything we can do we can always 
do better. But I'm asking you are you satisfied that what your 
responsibilities were----
    Mr. Deal. The gentlelady's time is expired. Can we conclude 
within 3 minutes over time, please?
    Ms. Gerberding. I believe that all of us should and could 
do much better, including the CDC and the health sector 
response. I'm just as horrified by some of the things that 
happened in these areas as you are, and I am very committed to 
making sure that my agency will do better next time, and I'm 
very committed to doing my part within our department to 
improve.
    Mr. Deal. We have a vote going on on the floor. The 
committee is going to stand in recess pending the completion of 
the votes, and I would encourage the members to come back as 
soon as possible so we can finish because we still have a 
multi-member second panel. We stand in recess.
    [Brief recess.]
    Mr. Deal. The subcommittee will come back to order. We will 
resume with the hearing at this time, and Dr. Gerberding is 
still the first witness on the first panel. It is now in order 
to call on Mr. Bilirakis from Florida for his questions.
    Mr. Bilirakis. I thank the Chairman, and I know that many 
of the folks who have been talking about this Republican Study 
Committee plan are not in the room. CQ Today, ``Conservatives 
offer $1 billion offsets plan but GOP leadership won't bite.'' 
And those of us who were in the caucus yesterday morning heard 
the GOP leadership not biting on this, so I think that should 
be a part of the record.
    Doctor, you've heard a lot of frustrations up here today, 
and they're all with merit. There is no question about that in 
my mind. And yes, we are frustrated regarding what has happened 
or what hasn't happened or what hasn't happened exactly the way 
it should have, and things of that nature, and it's important 
that we learn from the past, we learn what has happened or 
hasn't happened so we can prepare better in the future. There 
is no question about that either. But my frustrations go more 
toward, you know, it's like I said in my opening statement. We 
seem to react. A disaster takes place, and we decide to hold 
hearings and react and what not, and when are we ever in really 
the richest country on the face of the earth, with all the 
intelligence we have here and what not, ever going to be 
prepared, really adequately prepared when these things happen? 
Sort of like the Medicare bill for years and years didn't have 
any provisions in it to keep a disease from taking place, it 
was just providing to take care of a person when they got sick.
    And you heard me talk about 211, and as I understand it, it 
played a role down in the States of Louisiana and Mississippi. 
There are areas there apparently 911 went down and people went 
to 211. And I don't know whether 211 is available in all of the 
areas of those two States. Like in Florida there's neighboring 
counties that have 211 and other counties that can't afford it 
and don't have it and that sort of thing. That's why it's so 
critical--in my opinion, it's so critical to get it into place.
    But maybe--I don't have that much time left, but maybe if 
you can address 211 and its significance. And then expand upon 
that if you can in the short time available, what would you do 
if you were king and you're frustrated too with the fact that 
these things happen and we're never adequately prepared. What 
should we do? Who is responsible? Who should be responsible? 
What would you put into place if you could do this and say that 
this has to be done?
    Go ahead. Please proceed.
    Ms. Gerberding. I would like to answer the if-I-was-king 
question first.
    Mr. Bilirakis. Queen, queen.
    Ms. Gerberding. The one thing that we have learned at CDC 
in our emergency operations is that you learn most in 
operation, but the second best way to prepare is to exercise. 
And there is nothing better than getting out there and rolling 
up your sleeves and either doing it or role playing the doing 
of it to inform you where your weaknesses are.
    We learned from the 9/11 Commission about the failure of 
imagination. I think one of the things that CDC is learning in 
this operation is the challenge of scalability. So in order to 
prepare we have to be able to think of the scenarios that we 
are preparing for, and in our society and in our culture that's 
very challenging.
    I've observed that people are resistant to imagining things 
that are really hard problems to solve, and so instead we 
pretend like they're not really going to happen. We have known 
for a long time a hurricane of this nature would be devastating 
in New Orleans, we've known for a long time that parts of our 
country are prone to earthquakes, and now we have the 
additional dimensions of emerging infections like a food 
pandemic or a terrorism attack.
    We have to come to grips first with the fact that bad 
things happen, and the government is going to have to be 
providing a significant part of the leadership in that, but not 
the only leadership. So if I were in charge, I would exercise 
often, I would exercise without notice, and I would exercise 
repeatedly.
    Mr. Bilirakis. But are the plans--Mrs. Eshoo said it all so 
very well. You talked about lack of coordination. As far as she 
was concerned it looked like there was a lack of coordination. 
So when you talk about exercising and that sort of thing 
without notice, et cetera, but there's got to be something in 
notion, there's got to be a structure there. Your folks--you 
can exercise within the realm of your jurisdiction and 
responsibility, but the way if it jives in with all of the 
other agencies and departments, et cetera, et cetera, is out of 
your hands.
    So we have all this emphasis on some sort of a commission 
to find out what happened, and that is significant, I'm not 
belittling that, but should we be talking about maybe some sort 
of a nonpartisan commission to sit down once and for all and 
try to really work out, with the proper people like yourself, 
work out some sort of a structure, of a national structure so 
we can be better prepared and everybody knows where all the 
pieces will fit when it happens?
    Ms. Gerberding. I'm not sure that that would be the first 
step. We actually have a new structure that is just in the 
process of being implemented, something called the National 
Incident Management System, which by law this September was 
supposed to be finalized and in operation in various Federal 
agencies. This is the first time we've ever operated under this 
structure, and I think it's a great platform. We will either 
learn that it could work but didn't for various reasons, or we 
will learn no, that's not the right structure and we have to 
reinvent it. I think it is too soon to say which of those 
answers is correct. But CDC is operating in the context of that 
structure. It's an incident management module that's been used 
for a long time, but----
    Mr. Bilirakis. Is everybody else operating within the 
content of that structure?
    Ms. Gerberding. Everyone is supposed to be. I'm pretty sure 
they're not at every level because many people haven't 
exercised it and it is just brand new. But the concept of 
knowing who is in charge, who is responsible, what the roles 
and responsibilities are, all of the important components of a 
response, that's critical.
    One place where we've gone--and obviously there is a big 
difference between public health and the Department of Defense, 
but we've gone to look at how does the military conduct such 
complicated operations involving many disparate parts and 
sometimes working with many different nations like they did 
with the tsunami and they're able to make it work. But two 
things; one is you have a strategy and everyone knows it and, 
second, you exercise and you learn how to make these 
connections go.
    A third thing that we have----
    Mr. Bilirakis. My time is up. I don't know, Mr. Chairman, 
whether----
    Mr. Deal. Could you summarize right quick, please?
    Ms. Gerberding. I was just going to say, the third issue is 
leadership. And I would say that in order to effectively lead 
in this complex environment with multiple agencies and 
jurisdictions requires a set of leadership skills that are 
beyond those necessary to run an organization. You have to 
learn to work between organizations and really how to lead a 
network, and that's a new set of skills.
    Mr. Bilirakis. Well, I would think maybe ONI, Mr. Chairman, 
it wouldn't be a bad idea to maybe look into that; or Mr. 
Whitfield coming here now, but we ought to learn a little bit 
more about that and whether that might turn out to be the 
ultimate solution.
    Mr. Deal. To make that DOD analogy, you probably need a few 
first sergeants. That might solve part of the problem.
    Ms. Capps, you are recognized for questions.
    Mrs. Capps. Thank you.
    Dr. Gerberding, you had an agency that's respected 
throughout the world for the epidemiology you provide to many 
nations, and you are appreciated by the public health community 
I represent, and that every community owes a debt of gratitude 
to the CDC for the local support services that you provide, and 
I thank you for being here today.
    I have three topics in my brief time, so I don't expect 
lengthy answers from you, but I want to focus on the emergency 
responders to Hurricane Katrina who have been and will continue 
to be exposed to extremely dangerous environments since the 
first day of rescue operations. Example, wading through 
contaminated waters filled with sewage and hazardous materials.
    Now following 9/11, the Federal Government created a 
medical monitoring program for responders to the World Trade 
Center tragedy, and I'm wondering if the same long-term 
monitoring program for responders to Katrina, and now maybe 
Rita, is being set up.
    Ms. Gerberding. The program is not set up as a long-term 
program right now; we're concentrating on preparing people to 
protect themselves, is the first priority, with the equipment 
and the immunizations that are necessary. We are assessing the 
hazards as we go. And we have NIOSH teams as well as the 
environmental health teams onsite to assist with those 
assessments. If that perspective indicates that yes, this is 
going to be issued for long-term health concerns, then I'm sure 
we will be getting recommendations about what and how we would 
go about them.
    Mrs. Capps. So you could set up something to monitor as 
well?
    Ms. Gerberding. Yes, we could.
    Mrs. Capps. And what about the population that moves back 
into New Orleans as the cleanup continues, would they also fall 
under this category?
    Ms. Gerberding. Well, different set of issues but a lesson 
learned from the World Trade Center. As people return they will 
have concerns about the environment. The first thing is to do 
everything possible to improve the environment so that there 
aren't exposures. The second is to try to assess what the 
hazards may be, and that work is ongoing as we speak with 
various people in the field. And then the third is to identify 
what, if any, are the long-term consequences of that, and to do 
what we need to do to address them. I think this is early in 
that process, and so we will be----
    Mrs. Capps. You are just sitting it out there?
    Ms. Gerberding. Yeah. Mrs. Capps. Adults who move back in--
or people who move back in and begin cleaning up their own 
property face a variety of health risks as they do that. I'm 
wondering if there is the capacity to vaccinate them in the 
same way that relief workers are being vaccinated.
    Ms. Gerberding. Yeah. I didn't have a chance to give a 
complete answer to this question before. There are two 
categories of immunization in play here. One is to catch people 
up with the vaccines that they should have had, and that is 
just part of providing health care services to people. Most of 
the evacuees are going to fall under that category.
    There are special immunizations that we've recommended for 
people with special exposures. And some of the States have 
recommended even more than we at CDC feel is in evidence based 
on the approach right now. But for the majority of evacuees 
returning, their hazard that is relevant to immunizations is 
tetanus. And if they haven't had a tetanus shot in the last 10 
years they need to get one. So that's the emphasis there.
    Mrs. Capps. Good. Another topic, in 2002 this committee 
worked in a bipartisan way to produce bioterrorism legislation, 
and we deliberately made sure that that legislation covered all 
public health emergencies. Now we're seeing whether it works or 
not. The legislation created a program to assist cities and 
communities to plan and prepare for public health emergencies, 
and you were asked as one of those agencies to set benchmarks. 
In fiscal year 2003 this program, Bioterrorism Prevention 
Program, was decently funded, but the next year it was cut by 
$100 million and then in fiscal year 2005 it was cut again by 
another $10 million, and now the administration has requested 
another cut in the budget of $130 million for next year.
    I want to ask you, in the 3 years since this legislation 
was passed, would you say that every major city in the country 
has met the benchmarks that you established for planning 
appropriations?
    Ms. Gerberding. No.
    Mrs. Capps. So I'm wondering if you have the funding, or 
what is the blockade for doing that, what is the barrier?
    Ms. Gerberding. It will be hard for me to give an accurate 
short answer, but I will try to hit the highs.
    First of all, we're starting in the hole. The public health 
structure----
    Mrs. Capps. The hole?
    Ms. Gerberding. In the hole. The Public Health System was 
neglected for decades, and so in order to bring it up to 
anything even closely resembling contemporary needs is taking a 
lot of investment.
    Second, while--from the line item that says ``money to 
States in the grant'' there have been some reductions, there 
have been increases in other line items at CDC. So we learned 
that it wasn't making a lot of sense to put money out into 50 
States to do everything 50 times. Some things we just needed to 
do and create a tool or a resource or a package and do once. 
And so the total investment has not been cut, but it's been 
moved out of Cooperative Agreement Program to be made available 
to States through other means.
    Mrs. Capps. Thank you. And Mr. Chairman, if I could direct 
to you, this is legislation that we fairly recently--well, in 
2002--passed, starting in this committee and through the House, 
that we find some opportunity to follow up, if we are finding 
this situation such as she was able to say just in the very 
brief time.
    Thank you.
    Mr. Deal. Thank you.
    Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. And I appreciate your 
waiting, and patiently, for us to get through opening 
statements and then in asking the questions. This is obviously 
an interesting time for our country in many aspects.
    I'm involved with the NATO Parliamentary Assembly, and we 
had a strategic exercise last fall called Black Dawn put on by 
Sam Nunn and some think-tank, and it basically said what 
happens if a weapons of mass destruction--this case it was a 
small nuclear bomb went off in Brussels, and what happened was 
catastrophe: Overwhelmed first responders, no first responders, 
people fleeing, and very similar to Hurricane Katrina. They are 
very linked. And we, as a country, really need--you hit it in 
your last question that my friend, Mr. Bilirakis, asked about 
what do we need? What we need is the ability to respond; i.e., 
the military. I'm very biased, I'm a military guy, and when the 
military got on the scene things changed. The Coast Guard was 
on the scene for a long time, no one knew it. They were pulling 
people off 3 hours after the hurricane went through, and they 
have a military structure to be able to deploy assets. They're 
the only ones.
    So in your look, as being suggested, as we try to get a 
handle on how are we going to respond to mass evacuations and 
mass casualties, we'll have to integrate our agencies in sync 
with probably a military response, maybe change the focus of 
the National Guard to make sure--the military hospitals are in 
the Army Reserves right now, and the Army Reserves has a 
different deployment aspect than the National Guard does. Maybe 
we need to get National Guard away from flying fighter aircraft 
and back to infantry so they can roll trucks into an area and 
deploy.
    So this a the very important debate. And your agency, along 
with others, we want to make sure that you've got your foot in 
the door so that you're not left out, because there is--and I'm 
going to follow up with questions that highlight your important 
role. Many of us, because of all the interconnections we have, 
either because of family or friends or--my pastor was down 
there--we're getting a lot of just firsthand information or 
secondhand information from visitors.
    So I want to ask about the voluntarily first line 
responders who went down there, some at the request, some 
because they just packed up and went down. And one such group 
is the fire fighters. And so they've been working as long as 
they've been down there. And the question that I've been asked 
to ask, they have the ability to even inoculate themselves. 
What they have difficulty in is receiving the vaccinations they 
need to protect the first line responders who are there now 
from disease. What do I tell them?
    Ms. Gerberding. I would need a few more specifics, but I 
can say that first of all CDC has put forward with a fairly 
massive distribution what we recommend people do. We are 
bringing vaccine into the regions, and we are assisting with 
the administration of vaccine at any place that needs our 
place. So if there is a gap----
    Mr. Shimkus. If we can follow up with you and point to 
someone in my staff and--my staff or theirs, Mo--and we can 
help coordinate with this particular--and there's probably 
disparate groups all over the place that--I mean, I think 
people--this is a huge disaster. And we keep beating up on 
FEMA, and to some extent FEMA is a check-writing agency. They 
go to disasters and they find a truck company and they give 
them a check to haul out, you know, the refuge that is just--
but if you don't have a truck company any more, you can't hand 
a check to them. If you find a truck owner, he can't find his 
trucks. If he can find his trucks, they've been flooded. So 
that's why when the military came in, as we talked about 
before, and leadership, the deployment of assets, that's our 
real challenge on a major disaster, and we've got to figure out 
how we do that internally.
    The other question deals with--it's kind of with the 
bioterrorism question. What is the status of Federal and State 
preparedness planning activities for vaccine and antiviral 
stockpiling, which was part of the issues that we've been 
trying to address? And if there is stockpiling in the area, 
unless it's been destroyed, are we drawing upon other 
stockpiles? Or where are we at as a nation in this whole issue 
of stockpiles of vaccines?
    Ms. Gerberding. Let me talk about the stockpile concept 
generically and then specifically. We have 12 locations around 
the country where we have something called a push pack, which 
is a very large cache, a 747 cargo hold full of medical 
equipment that was designed primarily to provide emergency care 
in the context of a setting like the World Trade Center or the 
day after the hurricane. It was not really designed to provide 
sustainable health care for long periods of time, the kinds of 
requirements that have emerged during this particular disaster.
    Mr. Shimkus. Well, was the plane--once the air field was 
available, did the plane ever get deployed?
    Ms. Gerberding. We leaned forward----
    Mr. Shimkus. Leaned forward in the foxhole, good.
    Ms. Gerberding. We leaned forward, and when it was clear 
that the State of Mississippi needed it, we brought the assets 
to the location where they were needed. We put it on trucks, 
the trucks were ready to roll. It was all right there.
    In Louisiana we predeployed, before the hurricane hit, 
about 37 pallets full of anticipated medical resources to a 
zone outside of where we expected the hurricane damage, and 
then those assets were made available, primarily at Baton 
Rouge, but at other locations throughout the State.
    So in terms of the planning, I think one of the questions 
we'll need to look at is, is the content of the stockpile 
that's designed now adequate to meet all of the range of 
disasters that we would be required to support?
    The second element of stockpile specifically relates to 
drugs, vaccines and other supplies that have a half-life that 
expire. And so instead of having them sit in a warehouse 
somewhere, generally those supplies are in the process called 
vendor managed inventory where there is a holding tank of them 
at the vendor. They rotate them or use them so that they don't 
expire, but when we need them, they have a cache place to 
instantaneously get our hands on.
    With the vaccines per se, independent of this, we have a 
separate small vaccine stockpile, particularly vaccines for 
children as well as some flu vaccine. We have tapped into that 
replenishable resource. Also, we have looked for vaccine in 
States that have extra and so forth. So we've brokered the 
movement of a lot of vaccine around the country. I think you 
will hear more about that on the next panel.
    Mr. Shimkus. And let me follow up real quickly on the 
issue, since there have been some public statements about 
seniors and the ready access for them to being first in line 
for the flu vaccine. Where are we at based upon the problems we 
had last year?
    Ms. Gerberding. So far the news this year is good. We have 
anticipation of four suppliers of flu vaccine. If Chiron is 
able to license the lots of vaccine coming off its shelves, as 
we expect, there will be able to be--we are not anticipating a 
shortage. But we have learned how unpredictable the vaccine 
supply is, and therefore we have made a very firm decision that 
we will immunize the people who need the vaccine the most 
first, and on October 24 we will then open it up for everyone 
else who wants a vaccine.
    Mr. Shimkus. Thank you very much. Thank you, Mr. Chairman.
    Mr. Deal. Thank you.
    Ms. Baldwin.
    Ms. Baldwin. Thank you, Mr. Chairman.
    I have been intrigued with the last few series of questions 
relating to planning that has gone on, planning that will 
hopefully follow this hurricane efforts to integrate. I have a 
couple of questions along those lines.
    First of all, my understanding is that FEMA conducted a 5-
day exercise involving a hypothetical hurricane named Pam. As I 
understand it, Pam was projected to bring sustained winds of 
120 miles per hour and up to 20 inches of rain in southeastern 
Louisiana, with a storm surge that topped the levees in the New 
Orleans area. It seems like the exercise used realistic weather 
and damage information to help officials develop response plans 
for a catastrophic hurricane in Louisiana. I'm wondering, did 
CDC participate in the Hurricane Pam simulation?
    Ms. Gerberding. The way these exercises run is they are 
designed to exercise the National Incident Management System, 
and there is a component of the National Response Plan called 
the ESF-8, which is the set of responsibilities that are 
health, and Health and Human Service has the lead for those 
responsibilities. Under that there are a set of activities that 
we are expected to be able to perform, and CDC has specific 
responsibilities under them. So in that particular exercise, I 
did not play in that exercise, but representatives of the 
health desk did play in conjunction with HHS.
    Ms. Baldwin. So CDC, but not you specifically, did 
participate in the simulation?
    Ms. Gerberding. I would be happy to define specifically for 
you who participated in which exercise.
    Ms. Baldwin. Okay. Can I ask you if you are able to, given 
your limited participation, answer whether public health 
threats were--well, were there public health threats that were 
encountered with Hurricane Katrina that were not projected in 
the simulation that was done with Hurricane Pam?
    Ms. Gerberding. I would like to get back to you with those 
specifics.
    Ms. Baldwin. Okay. Let me move on to then follow-up 
planning. And perhaps I think some of the other members of the 
panel share my frustration that we have heard both anecdotally 
and certainly seen the images on television that suggest that 
there were many, many problems. And we have you here today to 
ask questions to, and I think if you were to look at the 
organizational chart of who had responsibilities, you probably 
represent one of the agencies that responded most effectively, 
and I know you have room for improvement, et cetera. So I want 
to get answers to some of the questions I have. And I know 
you're not necessarily the appropriate person to ask them to, 
but what sort of follow up plans--you just said few minutes ago 
that you learn most in operation and second by role play, 
simulation, the role of imagination, realizing and following up 
on the challenge of scalability. Who will do follow-up 
planning? Who will be at the table, who will convene this 
group, and what recommendations will you make when you sit at 
that table?
    Ms. Gerberding. I will speak for CDC first. We have, as I 
said earlier, this is--Rita is our 24th emergency operation. 
And since anthrax, we have developed an activity called Team B, 
which is a set aside group of experts, scientists, 
knowledgeable people who aren't supposed to be participating in 
the operation, they're supposed to be watching us. And it's 
their job to challenge our dogma, it's their job to 
troubleshoot things that we are overlooking, it's their job to 
reach out to the community and see if what we are thinking, we 
are doing is making sense to the people that we're working with 
and so forth. And we bring those Team B perspectives into our 
operation as we go forward.
    This time last week we invited three people from the 
Department of Defense who do exactly this kind of operational 
learning support for the military to CDC. They spent a couple 
of days with us, explaining to us how they work--and they 
actually work by embedding their people in the operational 
field so that they're out there cycling the learning on a real-
time basis instead of waiting until everything is done, then 
studying it and going back and trying to fix it in retrospect.
    Both things are important, but what we are trying to do is 
adjust as we go, get the learning in the same time that we are 
doing it. It's fresher, it's more helpful, it's more immediate. 
Sometimes it's very tactical, but it is the kind of continuous 
quality improvement process that we think really, in the long 
run, serves as a more efficient operational organization.
    I also--at the end of our operations we do do more 
comprehensive after-action reports for CDC where we try to 
strategically change things that we really felt didn't go as 
well as they should have and as we learn after every operation. 
I think those same principles are exactly what other 
governmental organizations do, learn as you go, but at the same 
time also do a comprehensive retrospective look. And probably 
there is a role for both of them as a government as well as the 
State and local and private sector people who are engaged in 
these operations. I don't have an evidence base for that, I 
just have an experience, but that's been my perspective.
    Ms. Baldwin. Thank you.
    Mr. Deal. I thank the gentlelady.
    Mr. Ferguson.
    Mr. Ferguson. Thank you, Mr. Chairman.
    I want to thank Dr. Gerberding for again appearing before 
our committee. You've been here many times, and you provide 
excellent testimony. You are extremely patient----
    Ms. Gerberding. Not always.
    Mr. Ferguson. Nor are we. But we certainly appreciate not 
only your testimony with the committee, but your excellent work 
at CDC. You provide a level of integrity and leadership there, 
which is so important to our Nation and to the people of this 
Nation, and we certainly appreciate both that work and your 
frequent visits here to share your views on a whole host of 
important topics with us.
    Our discussion today has been centering around the 
tremendously large coordinated response between Federal and 
State and local officials that is needed to respond to a public 
health crisis. And as you and I have discussed on a number of 
occasions, I am particularly interested in obviously some of 
the lessons that we can learn from Katrina and the other many 
couple of dozens of crises that you have dealt with in your 
tenure at CDC, public health situations, what we can learn from 
those as we prepare for the future.
    And when we talk about pandemic flu, it is really--everyone 
who knows anything about pandemic flu tells us that it's really 
not a matter of if, it's a matter of when, and we have to deal 
with that eventuality. And the outbreak of pandemic flu, when 
it happens, will almost certainly cross State lines, it will 
cross county lines, it will cross many layers of government 
jurisdiction, which will virtually require a federally led 
response to that sort of crisis. Public officials were told for 
many years that a hurricane with the force of Category 3 would 
overwhelm the levee system protecting New Orleans, would cause 
flooding, would wreak havoc in that region. The same warnings 
are given to us frequently about the possibility and 
eventuality of a pandemic flu, so I think it is certainly 
within the scope of this hearing to talk about that a little 
bit.
    Can you tell us a little bit about where we stand with the 
pandemic response plan--we've been talking about this for a 
year or more--and when you believe it might be released?
    Ms. Gerberding. Thank you. One of the things going on 
behind the scenes of Katrina is an enormous amount of effort on 
pandemic flu, Secretary Leavitt and I and Dr. Fauci and Dr. 
Gallin and others from the Department have systematically been 
briefing every Cabinet and every Cabinet secretary in 
government on their role in preparing for pandemic. We are 
working very hard to do the science to understand what our 
vaccine capabilities will be, what are the limitations of our 
antiviral treatment, investing aggressively internationally to 
improve detection, and a lot more needs to be done.
    In terms of--the Department's pandemic plan was, as you 
know, put out in draft form a year ago, and what was missing 
from the plan at that time were the really tough decisions 
about how we would allocate scarce resources when we know no 
matter what, right now if it happened tomorrow, we won't have 
enough vaccine to go around for at least 6 months into the 
enterprise, and that process of getting the public and the 
public health community as well as the medical community and 
others, including decisionmakers, to really articulate the 
strategy for allocating those resources is tough. And we aren't 
going to please everybody when we come out with these 
recommendations, but the dialog has been time well spent. I 
think we expect to have the plan within the next couple of 
weeks finalized and ready for a final public review.
    I would also say that the plan is important, but the 
planning is much more important. In my experience, often plans 
aren't what you take out in the middle of a disaster. What you 
do take out are the relationships and the knowledge and the 
connectivity that you have built as a part of the planning 
process. And I think this time we've spent this year working on 
this at State and governmental levels, and also international 
levels, has been extremely helpful. Our plan is better because 
of it.
    Mr. Ferguson. And just very briefly, as my time is about to 
expire. Are you satisfied, given the experience that we've had 
in the last several weeks with Hurricane Katrina, are you 
satisfied at this point, or do you think more work might need 
to be done on the plan, the pandemic flu plan, with regard to 
coordination between local, State and Federal officials and 
responsibilities?
    Ms. Gerberding. I believe that if we are facing pandemic 
flu it will make Hurricane Katrina look very small. And while 
we are certainly challenged with this disaster, we recognize 
that a pandemicdisaster would encompass the whole global 
community. So it is very difficult to anticipate proactively 
whether your plan is going to have the capacity to solve and 
anticipate every one of those problems, I doubt it will, but it 
certainly creates a framework for decisionmaking and helps us 
identify our governmental strategy.
    It is remarkable to me how much clarity we have achieved by 
simply defining that we are following a strategy of containment 
first, if feasible, and then subsequent components of that 
strategy that we are going to work on, building our vaccine 
capacity, we are going to work on building our drug capacity, 
and we are going to scale up the investments in our ability to 
detect and respond to cases.
    We have a remarkable challenge in front of us, and probably 
one of my biggest concerns is that we are so easily distracted. 
Our focus shifts from one disaster to another. So while we are 
talking about hurricanes and natural disaster preparedness, I'm 
pleased that you would even ask a question about pandemic flu 
because it is very much on our plate. And we know it will be 
difficult to keep it on the plate in the minds of the public, 
but it's nice on know it's on the minds of the Congress, and I 
really appreciate that.
    Mr. Ferguson. Thank you again for being here. Thank you, 
Mr. Chairman.
    Mr. Stupak. Mr. Chairman, if I may. In light of that last 
statement, we've asked a number of times for CDC to come and 
brief us on pandemic because it is a major concern. And we've 
been asking and we get no response. So I would hope, based on 
your response here today, you would take our offer and come and 
meet with us.
    Mr. Deal. I'm not sure if the gentleman was aware, but 
we've already had a hearing on that issue in which CDC was 
present testifying.
    Mr. Stupak. Right. We had one hearing, it was the shortage 
of the vaccine that we're going to need, and that's why we want 
more on pandemic flu. Specifically we've asked, specifically in 
writing a couple of times, so I hope we can get this briefing 
for our staff and the members because this is a serious issue.
    Mr. Deal. Well, we will follow up with it from the 
committee level, I'm sure, and the full committee, too.
    Mr. Engel.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    I have seen a series of articles which talked about the 
medical nightmare of people who were being treated in various 
New Orleans clinics, who needed a continuation of a treatment, 
who went to Texas and other places and didn't really know, for 
instance, if they had cancer, what stage the cancer was in. And 
I'm wondering if you could comment. I mean, one of the obvious 
ways to deal with this could be talking about the need for a 
national data base of electronic medical records. I know that 
it involves privacy issues and other things, but it would 
certainly seem to me that this is something we ought to work 
toward. I'm wondering if you could comment on that.
    Ms. Gerberding. I think Secretary Leavitt will be very 
happy you asked that question. One of our over-arching 
priorities in the Department is the electronic health records. 
And we said--every shelter we visited, oh, if there was ever a 
case for an electronic medical record, this is it.
    And one of the directions that we gave to our CDC team in 
New Orleans yesterday when we got a briefing on the 
redevelopment of the Health Department there is that your 
planning assumption should be e-public health, e-medical 
records. We have got to do this right. And now we have a chance 
to make it very visible why not only is it a convenience, or a 
patient safety issue, it's a life-saving issue in situations 
like this.
    In most of the hospitals that were flooded, the medical 
records department was on the ground floor. Those medical 
records will never be recovered. I know that Dr. McClellan and 
his colleagues at CMS are trying to reconstruct chemotherapy 
regimens by going back through billing records because it's the 
only electronic resource available. That should never happen in 
an environment where we have the technologic capability that we 
have today.
    I thank you for addressing that.
    Mr. Engel. Thank you. And I really appreciate your answer 
because obviously you said it, it's not just simply a matter of 
patients not being able to get treatment, many medical records 
were washed away forever, and it's a real problem.
    I was speaking with a friend of mine who happens to be a 
surgeon in the Miami area, and they're surrounded by water, and 
he was telling me also, not only with records, but the 
operating rooms in many of the hospitals are on the ground 
floor, so it's also a very big problem in terms of weather-
related things. I suppose that new hospitals that are going to 
be built will change that.
    The other question I had involves the same line of 
thinking, and I am told that an estimated 8,000 people with 
HIV/AIDS have been displaced by Katrina. And the Federal--the 
Department of Health and Human Services has not yet announced a 
comprehensive plan to guarantee HIV positive evacuees access to 
anti-retroviral medication and medical care. And I am wondering 
if you could tell me that because I am also--tell me if that's 
true because I've also been told that no provision has been 
made for emergency release of Ryan White Care Act funds to 
allow neighboring States to care for HIV positive Katrina 
survivors. That is obviously a problem, so I'm wondering if you 
can comment on that. And then I have two related questions.
    Do you believe that HRSA or HHS should release these 
emergency funds to the States accepting the evacuees? We 
checked with HRSA this morning, and we were told there were no 
plans to. So I'm wondering if you could comment on that, and 
then I have another follow-up question.
    Ms. Gerberding. I very early after the hurricane personally 
received correspondence from the National Association of People 
with AIDS that outlined a number of concerns related to the 
disaster status of people with HIV/AIDS, and all very 
thoughtful and appropriate, including access to medications and 
relocation. And I don't know what decisions have been made at 
HRSA or within the Department, but I certainly will try to get 
that information back to you as quickly as we can.
    Mr.  Engel. Thank you, I appreciate it. And can you tell me 
if the CDC is supplying an adequate supply of rapid HIV testing 
kids to community organizations throughout the affected region 
and around the country to ensure that counseling and testing 
are available for evacuees near and far from the disaster, and 
educate providers about how to recognize infections in immune 
suppressed people? Because obviously if we are concerned with 
infections based on the water and whatever, people who have 
compromised immune systems are that much more at risk.
    Ms. Gerberding. Yeah. I think there are a lot of people 
with compromised immune systems for a number of reasons that 
are in the special needs population. And I'm sorry, I don't 
know if CDC is doing that, but I think it's a good idea and I 
will go back and check.
    Mr. Engel. Thank you very much. I appreciate your 
testimony, thank you.
    Mr. Deal. I thank the gentleman.
    Dr. Burgess.
    Mr. Burgess. Thank you, Mr. Chairman.
    Dr. Gerberding, on the issue of preparedness, as we look at 
Hurricane Rita poised just off the Texas coast, do you think 
there are things that we are likely to do better as Rita comes 
ashore as a consequence of having learned some things from 
Hurricane Katrina?
    Ms. Gerberding. I certainly hope so. I believe we see 
evidence of that already in terms of the comprehensive 
evacuation. I know from the people at CDC who are 
prepositioned, as well as what I'm seeing on television, that 
the vulnerable populations were among the first to be evacuated 
so that there was special planning for those individuals there.
    I also anticipate that the coordination of the services for 
those people will have benefited from the fact that many of the 
materials and utilities are already in the State of Texas since 
that's been providing so much shelter and medical care to the 
survivors of the previous hurricane. So I would fully expect 
there to be some significant improvements in certain areas of 
response.
    I hope that the biggest improvement is that people really 
do cooperate with the evacuation and leave because that is the 
single most life-saving thing that people can do.
    Mr. Burgess. Yes, I agree with you. Now many, many years 
ago I was in medical school in Houston, and I remember back in 
those days reading in the newspaper about the Houston-Galveston 
Area Council of Governments and their disaster preparedness and 
when the big one hits and what their plans were even back in 
the 1970's. Obviously all of this preparation is not something 
that's taken place in the last 3 weeks.
    Do you feel that in any way that the Houston-Galveston area 
has been better prepared over the long term than perhaps the 
Louisiana Gulf Coast?
    Ms. Gerberding. I can't make that comparison directly. I 
have spoken with Dr. Eduardo Sanchez, who is the Health 
Director, and I am well aware of his perspective that the 
investments made in preparedness in the last few years have 
definitely paid off in multiple ways in helping to support the 
care and support for the evacuees that arrived in Texas 
spontaneously.
    I also spoke to the Deputy Director of Health in 
Mississippi, who was adamant about how valuable the 
preparedness investments assessments had been made and his 
ability to support the public health functions and save lives 
in Mississippi. Whether one State is more or less down that 
path than another is a more complicated question.
    What I will say from our perspective as an agency, as well 
as our responsibility for administering some of the 
preparedness dollars, all of our States can and will do more.
    Mr. Burgess. But surely going forward from these two 
historic storms, we'll develop some type of best practices, 
what worked in planning, what didn't work in planning, where 
were the weak spots, or at least I hope we do. That would be a 
real tragedy to not learn those lessons.
    It seems to me from where I sat in Texas a week before 
Labor Day weekend--and I will reference most of my remarks 
about Louisiana since they were--that was the State closest to 
us--there are certainly some areas where there were pinch 
points, as far as getting people in, getting people out, 
getting aid in. I was very impressed with the private sector of 
the Dallas/Fort Worth area. If I put a call into American 
Airlines and said what are you doing, they said what do you 
need, they were ready to go. And then very quickly we would run 
into an obstacle that wouldn't let them participate. Same with 
DFW Airport. We heard the stories about Wal-Mart and Ray 
Pensley on the television on Meet the Press. What are we doing 
overall, particularly in the health care community, to keep 
those pinch points to a minimum and to make certain that, 
especially in delivery of needed care, that it becomes seamless 
rather than as rocky as it seemed in so many instances?
    Ms. Gerberding. Thank you. We are actually very actively 
looking at that as a department right now. And from a CDC 
perspective, we are going back to even looking at the grant 
programs and the expectations to see if we need to make 
fundamental changes in our expectations based on this.
    But the coordination necessary to get the government 
agencies to work together is one piece of it. You're bringing 
in then how do we take advantage of the private sector 
opportunities, and that is a generic question that I believe 
all of us are going to have to look at from our own individual 
domain. It's a ying and a yang, because if you have an 
unstructured approach, then you have people running all over 
each other and you don't have that kind of command structure 
that we need. But a properly managed incident command structure 
should have allowances for inserts from the private sector to 
perform specific functions, and I think it's primarily a matter 
of communication more than it is of anything more complicated 
to solve.
    Mr. Burgess. But it is a problem that must be solved.
    And finally, Mr. Ferguson brought up the flu epidemic. Have 
we weakened our public health infrastructure with these two 
storms or will we have weakened our infrastructure with these 
two storms such that we have increased our vulnerability to an 
outbreak or just regular flu or avian flu or any other easily 
transmissible disease?
    Ms. Gerberding. It's always a challenge to have a surge in 
requirements in one domain, and you have to get that surge from 
someplace. It's difficult to sustain a surge for a long period 
of time without cutting into other needed programs.
    At the moment, I feel, in part because CDC has exercised 
for many, many public health emergencies in the last couple of 
years, that we are able to sustain our mission and respond to 
these hurricanes in following our own strategy, which includes 
the concept of parsimony. We don't send everybody out. We try 
to be very thoughtful and rigorous about who we send--we are 
rotating people in and out. We're taking steps to try to 
support our workforce in mental health by including mental 
health counselors and resilience counselors on our teams to 
recognize when people are at risk for burnout or unable to work 
at their best.
    So through a whole variety of personnel management issues, 
as well as organizational strategy, I believe at the moment we 
can continue our mission.
    I mentioned earlier that there are specific capabilities we 
have as an agency that don't have as much surge as we would 
like to have, and we're going to have to go back as one of our 
after actions and understand how can we access that surge 
capability, those skills, those people when we need them, 
through volunteers or through relationships with external 
organizations, with academia, with the private sector in a 
formalized way so that they are there when we need them, 
they're trained and we can count on them. This is management, 
but it's challenging.
    Mr. Burgess. I will yield back, Mr. Chairman. Thank you.
    Mr. Deal. Thank you.
    Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman.
    Dr. Gerberding, I wanted to follow up on some of the 
questions my colleagues asked you. First of all, about just the 
regular flu. Here we are now in the fall season? Flu season is 
approaching, and you talked about how you feel about--you 
feel--I got the sense you are cautiously optimistic about the 
flu vaccine supply for this season; would that be accurate?
    Ms. Gerberding. I'm cautiously optimistic. I do remember 
sitting in the House hearing on October 4 last year when I 
learned that the supply had been cut in half. And so I have 
learned my lesson not to project strong optimism. But what I am 
optimistic about is that even if the worst case scenario occurs 
and we lose unexpectedly some component of our supply, we have 
what we need to get the high priority people vaccined and we 
are starting out doing that first.
    Ms. DeGette. And here's my question then; given the 
hurricane victims, and now it looks like we might have even 
more evacuees from this new hurricane, does the CDC have a 
specific plan for vaccinating evacuees? And just briefly, what 
kind of planning do we have for that?
    Ms. Gerberding. First of all, Santa Fe Pastore donated 
200,000 doses of the first flu vaccine this year for evacuees, 
and it is included in the immunization programs going on 
throughout the shelter system. So we put them in the priority 
group so they could----
    Ms. DeGette. Because they're clearly a high priority.
    Ms. Gerberding. Absolutely. And they have gone through 
enough. They don't need to have the flu this year.
    Ms. DeGette. Yes exactly. And, also, given some of the 
situations they're staying in, lots of people in one building, 
they're at a much higher risk.
    Ms. Gerberding. Absolutely.
    Ms. DeGette. Okay. That makes me feel good.
    Mr. Ferguson talked about the issue, as you know, that I 
have been concerned for a long time, and that is the Avian flu. 
I think it's more than just one or two people on this committee 
that are worried about the Avian flu because that, as you said, 
Doctor, this will make the hurricanes and all of the other 
disasters just pale in comparison.
    Just today, in the Washington Post--I don't know if you saw 
this--there was an article about how now they have more cases 
in Indonesia, and they're thinking that some of those cases 
were human-to-human transmission, which, of course, is what 
we're worried, that the Avian flu will mutate and then spread 
around as a human-to-human pandemic.
    But I wanted to follow up on Mr. Ferguson's questions, 
because we have had hearings in this subcommittee, but I think 
that we're really already so far behind the curve on Avian flu, 
even though this hadn't hit, and the potential devastation 
should be so great. You talked about how we're stockpiling 
drugs now for the possible Avian flu pandemic. But, first of 
all, I think the record needs to be clear. We don't have a 
vaccine for the Avian flu right now, correct?
    Ms. Gerberding. We have an H5N1 vaccine. We have less than 
a million courses of vaccine for it. It's a very small 
stockpile, but it was designed, first of all, to give us some 
H5 vaccine to test to make sure that we could get an antibody 
to; and, second, because the process of proving that you could 
do it speeds up our ability to do it with exactly the right 
strain should a new strain emerge that's easily transmissible.
    Ms. DeGette. But since we don't know exactly what the 
strain will be once the virus mutates we don't have a vaccine 
that we know will be effective against a pandemic, correct?
    Ms. Gerberding. We have strong reason to believe this 
vaccine will be effective because we've seen it develop high 
antibody titers. The difference between this vaccine and the 
one that we used for regular flu is that it takes more of it to 
get an immunological response, so it's going to be harder to 
get an adequate number of doses.
    Ms. DeGette. And that's my next question. A million doses 
stockpiled is not even a drop in the bucket. It's such a 
miniscule amount of what we would need. So what is the CDC 
doing in conjunction with its various partners and allies to 
increase that stockpile?
    Ms. Gerberding. We don't really want a stockpile of the 
vaccine because the virus is going to change. So, in other 
words, the vaccine we have right now we made from the H5N1 that 
was in Vietnam last year. Already this virus is evolving. When 
and if it becomes transmissible to people, we're going to need 
that virus to put that into the vaccine.
    Ms. DeGette. Right. But we don't have the capacity to make 
that virus, that vaccine.
    Ms. Gerberding. That's why it would take about 6 months to 
be able to get the supply we need for the United States if we 
were starting from today.
    Ms. DeGette. Right. So do you feel we have that capability 
to manufacture that amount of flu vaccine? Because I didn't 
have that sense after we had our last hearing.
    Ms. Gerberding. What we do is we would have to turn off the 
regular flu season vaccine and turn on the pandemic vaccine 
production, and part of the government strategy right now is to 
define exactly when would we make that decision. You know, if 
we see a small outbreak, is that an indication to switch or, 
you know, at what point do we say, yes, this is an imminent 
threat; we've got to change our factories over to making the 
new vaccine.
    Ms. DeGette. The second question I have--I have more 
questions about that, but I have less time. The second question 
I have is there is an anti-retroviral drug that has proven--at 
least it gives people that get the Avian flu some hope of 
surviving, and that's the Tamiflu. And I understand that we are 
way down on the list for shipment from the Swiss company that's 
manufacturing this drug, is that correct?
    Ms. Gerberding. There is a manufacturing bottleneck. The 
company cannot make as much as people want right now, but they 
are looking at new opportunities to do that.
    Our current plan, meaning, you know, fiscal year by fiscal 
year, is based on our understanding of what their bottleneck 
is. What we would like to achieve is what we refer to as a 20/
20 approach for the first phase of our planning, and that means 
we would like to have enough vaccine available for 20 million 
people and enough antiviral for treatment of 20 million people, 
knowing that that's not the end, but that is a significant 
improvement over time.
    Ms. DeGette. And, right now, how much Tamiflu do we have 
stockpiled?
    Ms. Gerberding. We have 2.3 million doses in our hands as 
we speak, and we have another 2.1 doses that are arriving.
    Ms. DeGette. And that's out of 20 million needed doses, 
right?
    Ms. Gerberding. Right.
    Ms. DeGette. And of the vaccine we have a million, and we 
would hope in 6 months to be able to ramp that up, is that what 
you're saying?
    Ms. Gerberding. We're not going to have a stockpile of 290 
million doses of this.
    Ms. DeGette. No. No. But what you're saying is we have a 
million stockpiled now and what we would need to have is 20 
million.
    Ms. Gerberding. We'd like to have some additional doses. 
Even though the vaccine that we're creating right now is not 
likely to be a perfect match for what would emerge, it may give 
some partial protection. So it's just an extra margin of safety 
while we're waiting for the right vaccine to come out of the 
factory.
    I do want to emphasize a couple of things, though, because 
there is such attention on the Tamiflu issues. There is kind of 
the impression that this is the magic bullet solution, and we 
need all of these things just for the record.
    Ms. DeGette. Right. Mr. Chairman, I just have one more 
question; and that question is, let's say we cut $25 billion 
out of CDC over the next 10 years. How would that affect the 
agency's ability to do things like stockpile the vaccines and 
Tamiflu and to respond to possible issues like Avian flu that 
are out there but that are not immediate right now?
    Ms. Gerberding. My professional judgment, without 
constraints, is the agency could not accomplish its current 
mission with that level budget cut. But I also want to be clear 
that I believe that the people who put that dollar figure on 
the table were under the mistaken impression that it 
represented an increase this year in CDC's budget.
    Ms. DeGette. I understand. If we cut that money out, that 
would really hurt your ability to plan for these future events.
    Ms. Gerberding. I would be very sober looking at how we 
would manage that cut.
    Ms. DeGette. Thank you.
    Mr. Deal. Well, I would just simply point out that the 
likelihood of that is certainly not historically in the context 
of what Republicans have done. Since 1995 through this year 
you've actually had a 291 percent increase over the period of 
time that we have been in control. So I think that this 
suggestion by someone which has never been adopted is not in 
keeping with the historical precedent of Republican funding of 
your agency.
    Ms. Gerberding. I'm glad to hear that.
    Mr. Deal. Yes.
    Mrs. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    Dr. Gerberding, I think I'll change the subject from flu, 
because everybody starts coughing and sneezing as we are 
talking about it so we'll not spread that around. I do have a 
couple of questions on that, but I want to go back to some of 
the things that you have said regarding the response with 
Katrina. I found it interesting that you've used military 
analogy in saying that you all have some lessons learned from 
the way the military responded and that strategy and exercise 
are very important to an overall plan.
    One of the things I would like to know from you is what you 
would say were the most significant nondisaster-caused barriers 
to your job. You've talked a little bit about workers without 
immunizations. You talked a little bit about having 
communications technology on the ground but somebody didn't 
have the fuel to power the generators readily available. And, 
as we all know, in that area, there was not fuel for a couple 
of days because there wasn't electricity to run pumps. So if 
you would elaborate on that for just a little bit. Or if you're 
not--if you don't have what were the most significant barriers 
in terms of like regulation, unnecessary regulation, poor 
communication or whatever, if you would like to respond to that 
later, as you look at your after actions, I would like to know 
that.
    Ms. Gerberding. Let me say, first, I mentioned the 
logistical command and control capabilities of the DOD as 
something that we learned from. But I think we also respect 
that there were four hurricanes in Florida last year and that 
there was a very fine emergency response to those hurricanes. 
So we can learn from a lot of different places, not just the 
DOD.
    Some of the other things that we're concentrating on right 
now are recognition that communication about medical supply 
needs was not streamlined and efficient. I resorted at times to 
calling the operations center directly and asking to speak to 
the health officials at the combined emergency operations 
center in Louisiana, and it was on one of those calls where a 
desperate person said if we don't get IV fluids to this 
facility within 2 hours, people will be dehydrated and die. You 
know, fortunately, we had the capacity to load up two planes 
full of IV materials and get them there within that timeframe. 
But that is not a system that's working, and so those are the 
kind of communication channels that we need to iron out.
    Mrs. Blackburn. Okay. The responsibility for those supply 
lines, would that be something at a Federal level or a State 
level or do you see it as a shared responsibility?
    Ms. Gerberding. I can't answer that in a simple way. We 
were fortunate that the prime vendor of the medical supplies 
for the functional hospitals in the areas were operational. 
Most of the shelters that were providing medical services 
reached back to their prime vendor and were not experiencing 
supply disruptions, but, in some cases, such as pharmaceuticals 
or vaccines, those lines were not adequate, and we were there 
trying to augment and support them with materials.
    I will also say that wasn't part of CDC's defined mission 
in disaster response because, as I said before, our stockpile 
was really designed to provide----
    Mrs. Blackburn. But you stepped in.
    Ms. Gerberding. Yeah, we stepped in to do that.
    Mrs. Blackburn. Okay. So, again, we have that private-
sector/public-sector coordination that did not flow as smoothly 
as it should have.
    Let me speak for just a moment about a couple of things 
relating to the evacuees that are in my State, and we have 
many. I have had the opportunity to visit some of the shelters 
and talk with some of the health care professionals, nurses and 
physicians both, who are delivering some of the health care.
    On your Web site, you've got a piece that is titled, 
Medical Care of the Ill Evacuees: Additional Diagnoses to 
Consider. So this directs the physicians to look for some 
specific illnesses, and my question was this: With the evacuees 
being in 48 States, what kind of communication network do you 
have for those physicians that are working in those shelters? 
Is this something that you are taking a proactive lead with? 
Are you working with the medical associations? Do you expect 
the physicians to go into your materials and find out on your 
Web site? What's your interface?
    Ms. Gerberding. We have two main strategies. One is, just-
in-case, you know, trying to provide materials before something 
happens, and then the just-in-time approach. Our just-in-time 
approach relies on our own distribution systems through the 
Web, through things called health alerts or dispatches where we 
fax or e-mail things directly to providers. We work through 
State health agencies who are then sharing materials with the 
evacuation clinicians, for example.
    But we also have an extraordinary network of medical 
associations, including the AMA that's on the next panel that 
have taken on the role of we give them what we think people are 
asking for and they use their extraordinary distribution 
systems to amplify beyond that. So we--yes, to all of those 
mechanisms. We, I think over the last 2 years, have greatly 
expanded our ability to get information out. Do we get it into 
the hands of every person who needs it when they need it? 
Probably not yet. But much progress and opportunity from the 
collaborations that we've established.
    Mrs. Blackburn. One question on the flu, and I'll just hope 
that nobody coughs or sneezes, you know, that we're not 
spreading this around here. We've talked a good bit about that, 
and we're coming up on flu season, and we still have 
individuals that are living in shelters, and we know that with 
Rita we're probably going to see that. Do you all have a plan 
worked out, working with the State and local agencies, that 
will be providing flu vaccines for those residents that are in 
those shelters?
    Ms. Gerberding. Absolutely. And you're reminding me to 
emphasize that it's really the State health departments that 
have the responsibility for this. But we have immunization 
program staff in all of these centers, and our folks are there 
helping deliver vaccine and plan for the vaccine program. We 
made the decision not to do this in a crisis mentality of 
saying, okay, people need varicella vaccine, let's run and do 
that. Oh, no, it's flu. Let's do that. Rather, we are looking 
at the individual and saying, first of all, what does this 
individual need to catch up with? Often, we don't know. So, if 
we don't, we err on the side of reimmunizations.
    Mrs. Blackburn. Another case for e-records.
    Ms. Gerberding. Well, that's right. And the second piece is 
to include the flu vaccine in this comprehensive approach.
    One really great thing that happened with kids is that the 
State of New Orleans actually did have electronic immunization 
records for most of their children; and, as those children got 
redistributed across the shelters, special dispensation was 
made so that health officials in other States could query that 
electronic immunization record and would know, yes, this child 
has had the measles shot; no, this child hasn't. It was 
absolutely helpful for most of the children in that region. And 
I think, again, that's a lesson on the importance of these 
electronic records.
    Mrs. Blackburn. Well, thank you for being here with us; and 
thank you for your leadership in addressing the issue. We 
appreciate that and appreciate your time.
    Ms. Gerberding. Thank you. I have to be very clear that I'm 
the spokesperson for CDC and all this, but I work for a 
wonderful agency full of really, really fantastic people.
    Mrs. Blackburn. Thank you.
    I yield back.
    Mr. Deal. I believe that completes our questioning; and, 
Dr. Gerberding, again I would repeat what you have heard from 
many of our members of the committee. We thank you for being 
here today. We thank you for your professionalism and your 
direction, and we also express our appreciation to those who 
work with you and under your direction for the magnificent work 
that they have done in this time of crisis. Thank you for being 
here.
    With that, I'll turn the gavel over to Mr. Whitfield, who 
will preside over the remainder of the hearing.
    Mr. Whitfield. Those of you on the second panel, if you 
would come forward. You've been very patient, and we'd like to 
give you an opportunity to testify and have ample opportunity 
for questions. I do want to thank all of you for your patience, 
and we do look forward to your testimony.
    As you heard earlier, this is a joint committee meeting of 
Health and Oversight and Investigation; and it is our practice 
to take testimony under oath. I would ask any of you, do any of 
you have any objection to testifying under oath this afternoon?
    I would also advise you, as I did Dr. Gerberding, that 
under the rules of the House and the rules of the committee 
that you are certainly entitled to be advised by counsel. Do 
you desire to be advised by counsel during your testimony 
today? Does anyone here?
    Okay. In that case, if you would please rise and raise your 
right hand, I would like to swear you in.
    [Witnesses sworn.]
    Mr. Whitfield. You are now under oath.
    Dr. Kirsch, we'll start with you. If you would give your 5-
minute opening statement.

 TESTIMONY OF THOMAS KIRSCH, AMERICAN RED CROSS; MARK PETERS, 
PRESIDENT AND CEO, EAST JEFFERSON MEMORIAL HOSPITAL, ON BEHALF 
OF AMERICAN HOSPITAL ASSOCIATION; ARDIS HOVEN, MEMBER, BOARD OF 
TRUSTEES, AMERICAN MEDICAL ASSOCIATION; BERNARD SIMMONS, CHAIR, 
  NATIONAL ASSOCIATION OF COMMUNITY HEALTH CENTERS, INC.; JOE 
  CAPPIELLO, VICE PRESIDENT, ACCREDITATION FIELD OPERATIONS, 
JOINT COMMISSION ON ACCREDITATION OF HEALTHCARE ORGANIZATIONS; 
 BOB DUFOUR, VICE PRESIDENT, PHARMACY SERVICES, WAL-MART, INC. 
  ON BEHALF OF NATIONAL ASSOCIATION OF CHAIN DRUG STORES; AND 
    BARBARA BLAKENEY, PRESIDENT, AMERICAN NURSES ASSOCIATION

    Mr. Kirsch. I'll try to keep my statement brief.
    Chairman deal, Chairman Whitfield, Congressman Brown and 
Congressman Stupak, I'm Dr. Tom Kirsch. I serve as a voluntary 
physician advisor as the Medical Director for Disaster Health 
Services of the American Red Cross. My professional position, I 
work at Johns Hopkins Hospital as the Director of Operations at 
the School of Medicine Department of Emergency Medicine as well 
as in the School of Public Health as well as in some disaster 
preparedness centers. I appreciate the opportunity to appear 
before the subcommittees on behalf of the Red Cross and to 
share with you some of the activities in public health that we 
undertook following this extraordinary disaster of Katrina.
    As an independent, nonprofit organization, the Red Cross is 
part of the first response community, working with police and 
fire personnel helping to move people out of harm's way and 
providing primarily shelter, first aid and food. When the 
National Response Plan is activated following a Federal 
disaster declaration, Red Cross is the only nongovernmental 
organization with primary agency responsibilities for mass care 
such as feeding and sheltering, which is known as the ESF 6 of 
this plan.
    The Red Cross has been instrumental in providing over 12 
million meals so far in this disaster and more than 9 million 
snacks. We have provided services to more than 344,000 people 
with mental health problems; and more than 156,000 volunteers, 
including these trained public health professionals that we 
organized for this disaster, have responded.
    This was different for the Red Cross in that in the past we 
have not ever really had a coordinated public health response. 
For years, particularly following 9/11, we recognized the need, 
that there were many issues in the shelters and within our 
services that were affected by public health questions. We, 
therefore, when this disaster struck, quickly assembled a team 
of public health experts from Johns Hopkins and from Harvard 
and began organizing a response.
    The primary problems that we had identified in the past and 
we knew were going to be a major problem in this disaster was 
that many of the people who end up in our shelters have 
absolutely no access to health care. They've lost their 
records. They've lost their prescriptions. They've lost all 
ability to meet their basic health needs. So one of the main 
assessments that we were doing during our first preliminary 
assessment was to look to see what was available with regard to 
local health care access for the people in our shelters.
    I'd like to just say that we went down there expecting that 
these people would be cutoff, and I was amazed by the local 
response by physicians and nurses in the areas. They had set up 
clinics in the shelters. They had set up mobile teams. They had 
really done wonderful things for the people in the shelters.
    The second thing that we were concerned about was just the 
basic health care needs of the shelters. Often in major 
disasters the local, State and Federal agencies are really 
unable to respond immediately to look at the basic needs of our 
shelters, and there's some misunderstanding as to the functions 
of the shelters. So we did a preliminary assessment along those 
lines to see what we felt the major needs were.
    Then, like everyone in this disaster, there were concerns 
from the first day of the potential for outbreak and epidemics; 
and so our primary mission was to look into that, also. We 
deployed two teams, one to Mississippi, one to Louisiana, did 
these preliminary assessments and, based on the findings and 
recommendations, came up with a strategy.
    The first strategy was that there is an obvious need for a 
high-level coordination in public health and health response; 
and we assigned team members to the EOCs in both of the States 
to interact with FEMA, the Department of Public Health in the 
State, the U.S. Public Health with CDC, et cetera.
    Then we also began a surveillance-type system in our 
shelters which were based more on symptoms than disease 
specific. Because most of the people in shelters, those that 
are directing the shelters, have little medical training; and 
it's difficult for them to report disease-specific systems, 
like they cannot diagnose dysentery. They are retired nurses or 
even managers.
    We have managed in even in the State of Mississippi, 
working with the State, to set up a toll-free number so that 
our shelter members can call into this number, speak to either 
a State epidemiologist or one of our professional volunteers to 
get information on cases and then have an investigation 
conducted, if necessary.
    The other things that we accomplished were developing 
educational tools for the shelters. We developed posters on 
hand washing, sanitation and recognition of symptoms that could 
be transmissible; and we continue to have teams in the field 
and, in fact, have deployed another team to--I guess they're 
going to Austin now in preparation for Rita.
    So, based on this experience, there were some specific 
recommendations that we came up with that we feel are 
important. And I think many of the Members, including Ms. 
Eshoo, Dr. Burgess, Ms. Baldwin, Mr. Stern, had brought up the 
issue of local volunteers or volunteers in general. This is a 
huge issue. I think Dr. Gerberding touched on this.
    Like I said, I was amazed--I was down there 4 days after 
the event, and I was amazed at the ability of the local health 
care system to absorb some of the blow, particularly in the 
shelters. There were doctors and nurses in pretty much every 
shelter I visited, and I visited some of the most remote ones 
in the State of Louisiana. The team in Mississippi found the 
same thing.
    So I think that, based on that, there clearly needs to be--
the trouble with these people responding to shelters is that 
they weren't credentialed. No one knew exactly who they were. 
No one knew what their training was. No one had any formal 
control or credentialing process over them. That is clearly a 
need that needs to be addressed going forward.
    The Medical Reserve Corps in the U.S. has been somewhat 
tasked with that mission but has not been given the structure 
of funding, is my understanding, to really conduct that 
mission. I think that there needs to be work with the Medical 
Reserve Corps to formalize that.
    Another possible thing that I have found was the remarkable 
response of particularly the LSU and the Tulane Schools of 
Medicine. What they accomplished having their hospitals 
destroyed and then setting up secondary hospitals in field 
houses was truly amazing. I think there would be a significant 
role for academic medical centers or medical schools to act as 
a focal point for organizing local physicians and health care 
response pretty much in every State in the Nation. Johns 
Hopkins itself was tasked with forming one of these 40 medical 
teams to respond to the disaster; and we had more than 250 
volunteers ready to be deployed, physicians, nurses and other 
support staff. So I thought that the coordination of the local 
response is truly important both for the Red Cross as well as, 
in general, the response.
    It is not the role of the Red Cross to credential health 
professionals. We don't have the ability to do that. So that 
has to be looked at seriously.
    Interestingly enough, people had commented on the laws 
regarding volunteer health practitioners. There was a review 
done by the Center for Public Health Law which is available at 
www.publichealthlaw.net that specifically reviews the legal 
issues. They were tasked by HRSA to do this, and the law is 
called the ESAR-BHP. Many of the States have already signed on 
to cross-credentialing capabilities for outside providers to 
come into States.
    The other issue that was tremendously important to the 
people we found immediately and for weeks going on was the 
access to medications, and I'm glad to see that there are 
representatives here from pharmacy because that is a problem 
with almost every disaster that we've encountered in the Red 
Cross for decades now. People do not have their medications, 
don't know what their medications are, don't have any access to 
their medications, and so that is an issue that clearly there 
needs to be some coordination moving forward.
    Mr. Whitfield. Dr. Kirsch, if you could summarize. We 
appreciate your testimony, but you're about 3 minutes over.
    Mr. Kirsch. Okay.
    Other thing would be that there needs to be, like Dr. 
Gerberding said, further strengthening of the local public 
health response. The public health in many of the States were 
overwhelmed and didn't have the personnel to respond.
    Finally, there needs to be a little bit more operational 
control, I believe, at the ESC level in the States to 
coordinate public health response between the different 
agencies.
    [The prepared statement of Thomas Kirsch follows:]
Prepared Statement of Thomas Kirsch, Medical Director, Disaster Health 
                      Services, American Red Cross
    Chairman Deal, Chairman Whitfield, Congressman Brown, and 
Congressman Stupak, I am Dr. Tom Kirsch, and I serve in a volunteer 
capacity as the American Red cross Medical Director for Disaster Health 
Services. My professional position is Director of Operations, 
Department of Emergency Medicine at the Johns Hopkins School of 
Medicine. I appreciate the opportunity to appear before the 
Subcommittee on behalf of Red Cross and to share with you the public 
health efforts that have been undertaken following Hurricane Katrina.
    As an independent, not for profit organization, the Red Cross is 
part of the first response community, working with police and fire 
personnel by helping move people out of harm's way and providing 
shelter, first aid and food. When the National Response Plan is 
activated following a federal disaster declaration, Red Cross is the 
only nongovernmental organization with Primary Agency responsibilities 
for Mass Care (feeding and sheltering), known as Emergency Support 
Function #6.
    In addition to being a primary agency for Mass Care, we serve as 
support agency to the Department of Health and Human Services in the 
provision of Public Health and Medical Services, as outlined under 
Emergency Support Function #8 (ESF 8).
    Our major responsibilities Under ESF #8 include:

<BULLET> Provision of emergency first aid;
<BULLET> Assistance for community health personnel;
<BULLET> Mental health counseling for individuals affected by the disaster;
<BULLET> Coordination with the American Association of Blood Banks 
        Interorganizational Task Force on Domestic Disasters and Acts 
        of Terrorism to provide blood products and services as needed 
        through regional blood centers;
    As we focused on the public health issues that could arise in the 
many congregate shelters needed as a result of the massive evacuation 
following Hurricane Katrina, we assembled a team of public health 
experts at Red Cross National Headquarters in Washington, D.C. on 
Wednesday, August 31, 2005. Within 48 hours, we had two assessment 
teams already deployed to Louisiana and Mississippi to assess our 
sheltering operations in order to conduct an emergency assessment of 
our shelters. As a Red Cross volunteer, I led the efforts with my 
colleague, Dr. Courtland Robinson from the Johns Hopkins Bloomberg 
School of Public Health. The purpose of the visit was to:

<BULLET> Assess the health and public health needs of the shelters;
<BULLET> Establish relationships with local hospitals and health care 
        practitioners; and
<BULLET> Begin liaising with other governmental and non-governmental agencies 
        providing aid.
    Our teams visited the regional Red Cross headquarters in Baton 
Rogue, Louisiana and Montgomery, Alabama as well as local chapter 
headquarters and individual shelters throughout the two states. We also 
coordinated activities and established relationships with local, state 
and governmental officials through each state's Emergency Operations 
Center (EOC) and by direct visits to these agencies. Based on these 
preliminary assessments, an emergency public health response was 
developed for each of the states.
    We also developed a public health command center in the Red Cross 
Disaster Operations Center in Washington, D.C. Along with two of my 
colleagues, Dr. Gregg Greenough of Johns Hopkins and Harvard 
Universities, and Dr. Ed Hsu of Johns Hopkins, the command center is 
manned effectively. Not only have we been able to better coordinate our 
public health efforts, but we have also developed assessment tools and 
educational materials for use in the field.
    To date, we have accomplished a great deal, including:

1. Emergency health and public health assessments in more than 35 
        shelters in Louisiana, Mississippi and Texas;
2. Medical and public health expert advice for the Red Cross at the 
        national and regional levels.
3. Ongoing engagement with FEMA, the CDC, Public Health Service, state 
        health departments, DMAT teams and local health facilities in 
        three states.
4. Deployment of 27 public health trained physicians, including the 
        Dean of the Johns Hopkins Bloomberg School of Public Health.
5. State-wide survey of all shelters in Louisiana in conjunction with 
        the CDC and U.S. Public Health Service.
6. Completed a state-wide shelter assessment in Mississippi and 
        implemented surveillance system using a toll-free number for 
        all shelters.
7. Developing and adapting health education handouts and brochures for 
        distribution to ARC shelters.
    I am proud of the work that we are doing to ensure that shelters 
remain safe for evacuees and survivors. I am also proud of the medical 
community for their immediate support to these shelters. There was some 
concern that an organization like the Red Cross would have to assume 
responsibilities for coordinating local medical needs and medical 
personnel. I am happy to report to you that this is not the case. There 
was tremendous response from local physicians and nurses with providing 
direct medical care throughout the state including in shelters. 
However, there needs to be better coordination of these local doctors, 
nurses, and other medical professionals so that credentials and skills 
can be verified to ensure the highest possible care for those affected 
by disaster. This type of oversight could be conducted by academic 
medical schools, the Medical Reserve Corps, or other state agencies.

                               CONCLUSION
    As the hurricane season continues, and the need for shelters is 
still prevalent, it is imperative for the American Red Cross to 
continue having a public health presence for the next 2-4 weeks or 
until local, state and federal authorities can complete the 
infrastructure needed to ensure public health safety.
    My hope is that as we continue to assess the sheltering operations 
that we will continue to work to mitigate any potential public health 
crises. This will require long term public health expertise and advice 
as the sheltering of these displaced peoples continues.
    Thank you for the opportunity to appear before you today.
                                Appendix
Louisiana
    In Louisiana, our team <SUP>1</SUP> initially met with the 
leadership of the regional Red Cross response and reported through the 
Disaster Health Services manager. Over the next four days we assessed 
19 Red Cross shelters and three very large state shelters, established 
relationships with the local emergency health facilities such as the 
Pete Marovich Center in Baton Rogue, and met with multiple agencies 
through the state EOC. Reports of possible infections at two shelters 
were also directly investigated.
---------------------------------------------------------------------------
    \1\ Thomas Kirsch, MD, MPH (Johns Hopkins), Hilarie Cranmer, MD, 
MPH (Harvard), Alex Vu, MD, MPH, (Johns Hopkins), Joyce Sophle, MD 
(private).
---------------------------------------------------------------------------
    Major initial findings:

1. Initially there remained many logistic, communication and supply 
        problems but these rapidly improved.
2. There were no infectious disease issues identified at any shelter.
3. Every shelter had good access to medical care either through local 
        physicians providing care in the shelter, visiting medical 
        teams, DMAT teams or relationships with local hospitals.
4. There were no outside resources rapidly available to access public 
        health issues in Red Cross shelters or to begin surveillance 
        for infectious diseases.
    Based on the preliminary findings plans were made to:

<BULLET> Create a full-time health liaison position to coordinate activities 
        with other agencies providing aid; and
<BULLET> Create four teams of public health experts to visit each ARC shelter 
        and assess public health needs, begin a passive surveillance 
        system and provide health education to shelter nurses.
    Surveys and educational tools were drafted and more public health 
experts were sent to the field. However, soon thereafter the Red Cross 
health liaison found that the state, in association with the U.S. 
Public Health Service and the Centers for Disease Control, was 
interested in a similar survey and our efforts were combined. There are 
now 24 teams conducting surveys of every shelter in Louisiana. Urgent 
findings will be available immediately for operation purposes. Thus far 
there are no reports of problems with infectious disease outbreaks.
Mississippi
    In Mississippi, the team <SUP>2</SUP> initially met with the 
leadership of the regional Red Cross response center in Montgomery, 
Alabama. We then conducted assessments along with a regional physician 
in 12 shelters in the Biloxi-Gulfport area. After these visits a health 
liaison was sent to the state EOC in Jackson, Mississippi to begin 
coordinating with other agencies.
---------------------------------------------------------------------------
    \2\ Courtland Robinson, PhD, Margurite Kearney RN, PhD and Kellog 
Schwab, PhD (Johns Hopkins), and Jonathan Spector, MD, MPH (Harvard).
---------------------------------------------------------------------------
    Major initial findings:

1. There continued to be severe disruption in basic logistical support 
        and communications.
2. There were difficulties in staff availability.
3. There was reasonable availability of health care for the clients of 
        Red Cross shelters.
4. There were no infectious disease problems identified, although some 
        shelters were continuing to improve shelter services and 
        sanitation.
5. There was a need to begin disease surveillance and health education.
    During meetings in Jackson, the Mississippi Health Department 
requested that the Red Cross begin shelter assessments and disease 
surveillance. The means chosen for this was to develop four health 
intelligence teams, whose goals are similar to those in Louisiana but 
will focus more on establishing a ``passive-active'' surveillance 
system with county public health authorities and health education of 
ARC staff and clients through the use of educational tools. These teams 
will begin work on September 12.
Texas
    A team <SUP>3</SUP> was sent to Houston on September 8 primarily to 
liaise with other health and public health agencies to ensure the 
safety of the shelters. Thus far they have been conducting planning 
with the CDC and state public health officials to finalize surveillance 
and education systems. They have also conducted assessments in more 
than 10 shelters in conjunction with a team of epidemiologists from the 
CDC.
---------------------------------------------------------------------------
    \3\ Michael Klag, MD, MPH (Dean of the Johns Hopkins School of 
Public Health), Alex Vu, MD, MPH (Hopkins) ans Sarah Tunebrtg, BSW 
(Tulane).

    Mr. Whitfield. Okay. Thank you. Dr. Kirsch, thank you.
    Our next witness is Dr. Mark Peters, who is the President 
and the CEO, East Jefferson Memorial Hospital in Metaire, 
Louisiana.
    Dr. Peters, we welcome you and look forward to your 
testimony.

                    TESTIMONY OF MARK PETERS

    Mr. Peters. Thank you.
    Good afternoon, Mr. Chairman. My name is Dr. Mark Peters. 
I'm president and CEO of East Jefferson General Hospital; and, 
as you mentioned, I am in Metaire, Louisiana, which is a suburb 
of New Orleans. I'm also a family physician by training.
    I'm here on behalf of the American Hospital Association and 
its 4,800 hospitals and health system members. We all 
appreciate the opportunity to tell the committee about the 
impact of the hurricane on our hospital and the hospitals in 
the gulf region.
    We are a 450-bed acute care hospital in Jefferson Parish, 
which is adjacent to Orleans Parish. We employ more than 3,000 
team members, and we have more than 900 medical staff members 
on our staff. I think it is very important to point out that 
the great majority of our medical staff are independent 
practitioners with their own private practice. We are a full-
service, not-for-profit hospital that provides the full gamut 
of services for our community.
    Throughout the onslaught of Hurricane Katrina and its 
aftermath, our hospital remained open all during the time of 
the storm and remains open today. We are one of four hospitals 
currently open in the New Orleans area, one of which is North 
Shore, which is on the north side of lake Ponchartrain which is 
a different area of the New Orleans region. The three of us on 
the south side are--the area you're most familiar with--are 
ourselves, the Oschner Clinic and West Jefferson Medical 
Center.
    I'd like to take a moment and tell you about our experience 
at our hospital during the storm and also tell you what we're 
doing right now to ensure that the continuity of care continues 
in the greater New Orleans area.
    Two days prior to the storm, we activated our disaster 
plan. The medical staff members and employees came together, 
followed the plan, decided who was going to be in the hospital, 
made plans for continued stay in the hospital and really geared 
up for what was coming. Our medical staff, who is independent, 
did not have any financial obligation to stay. They chose to 
volunteer their services, serve our patients and have continued 
during these 3 to 4 weeks to work side by side with our 
employees to assure that our patients receive care.
    As the storm started, we made some decisions about our 
patients. We made a decision to transfer all our babies out of 
the neonatal unit. We felt that the risk to those babies 
staying in our hospital was greater than the risk of transfer. 
We were able to send them to a hospital in Baton Rouge. We sent 
some other patients away. We also made some decisions to keep 
some of our sick patients because we felt the risk of transfer 
was greater than the risk of staying.
    Quickly after the storm we lost power and ran on 
generators. Our generators continued through the storm at times 
were not at full strength.
    We had to make decisions to minimize the use of power. We 
had no air conditioning. We continued the power to run 
ventilators and key medical equipment.
    We did not have flooding in our hospital. The floodwaters 
stopped about 30 yards prior in front of the front door. We did 
have multiple leaks in our facility, and a few windows were 
blown out.
    Also, other factors that we dealt with were security, 
communication and restaffing. I think everyone saw some of the 
security issues as it related to the storm. We were fortunate 
not to have a direct impact on our facility, but the fear and 
the perception on our patients and our staff was very 
significant. Fortunately for us, the Jefferson Sheriff's 
Department and the National Guard responded to our needs and 
helped secure our facility.
    Communication was very difficult. Cell phones, as you've 
all heard, were very, very difficult to get them to work. Our 
own in-house phone system went down, and we had 2 or 3 days of 
minimal communication with the outside. That was another factor 
of how we had to assess the situation from our perspective, 
make our best decisions with patient care No. 1, our No. 1 
priority.
    We also ran low on food. There were several days where the 
staff and physicians ate once. We were able to maintain, 
though, the food on a regular basis to our patients. We had 
very, very fortunate cooperation with our vendors throughout 
the southern region.
    Patient safety and employee safety were our top priorities 
through these 2 weeks. It was very difficult and challenging, 
but I have to very much applaud the efforts of our staff in 
very difficult times. You have to think about people who either 
knew that they lost their home, did not have an idea of how 
their home was, or their family relocated that stayed there, 
provided health care when they were tired, when they were 
fatigued, when they were stressed. And I think us, along with 
the other two hospitals, are very proud of the fact that we 
were able to continue through the storm and to be able to 
continue our services as we provided care for the community.
    We have some issues, though, now that I need to get out in 
front of this committee. Three hospitals are left standing out 
of many hospitals in the New Orleans area--we are it--to 
provide hospital care for our region.
    There are other hospitals in the future that are going to 
look to get restarted. That will be challenging. Some have 
facility issues. Some have lost their staff, and reopening and 
getting back to where they were is going to be a process.
    We will have health care needs in our community of people 
coming back. You all have talked about the flu. You talked 
about that a lot with the CDC. We anticipate this winter to 
have extensive health care needs within our community.
    Our issue right now is we're all at about a third capacity. 
We're losing money on a daily basis. I can speak for East 
Jefferson. We've lost $12 to $14 million through the storm, 
through 2 weeks of the storm, and we are currently losing 
approximately a half a million dollars a day. Why that's 
happening is we have committed to being fully staffed, to being 
prepared, to have that capacity that we feel is needed. That 
being said, we have a financial responsibility to our hospital, 
and we are running into some difficult decisions in the very 
near future.
    I'm also speaking on behalf of the Oschner Clinic in West 
Jefferson. We three have been here this week talking to many 
different officials, making certain that everyone is aware of 
our current financial plight as we continue to try to serve the 
community. It's a real issue. It's an immediate issue within 
the next 7 to 10 days.
    Can you imagine sitting in my chair, talking to somebody 
who's worked through this storm, worked hard, worked double 
shifts, worried about their home, and I may have to tell them 
we don't have enough business, I need to send you home. We 
might be able to use you later, but we can't use you now. How 
would that make all of you feel? And what does that say to the 
rest of hospitals that are going to face this issue and are 
facing this issue today and tomorrow?
    We also have housing issues for our staff, for our medical 
staff. The other hospitals face this issue, also. That will 
allow us to continue to provide the services that are needed.
    I also would like to take a minute and point out issues 
with our medical staff. A lot of times physicians get lumped in 
with hospitals. In our case, in West Jefferson, that is not the 
case. They run their own practices. It's their own business. 
There have been no patients, no money coming in. They're facing 
issues of survival, and we have a great risk of losing 
physician manpower in our community. People can only tolerate 
no income for a period of time. That will be a great strain on 
the New Orleans area if we lose health care workers, and any 
sign of instability in our systems can prompt that.
    We also need economic support of our private practice 
physicians, and we need some regulatory relief in what 
hospitals can do with physicians. There are appropriate 
regulations in place. These are unusual times that require some 
interim relaxation of those regulations of what hospitals can 
do for physician practices. It's imperative that we look at 
that as we continue to support the health care needs of our 
community.
    I've also included in my written testimony a document 
compiled by the American Hospital Association that identifies 
critical legislative and regulatory issues that need immediate 
attention to ensure that health care needs are met in the wake 
of this storm. It is very unfortunate, with what is happening 
with Hurricane Rita, and I've also been informed that that's 
ticked a little bit to the north which does not bode well 
potentially for Louisiana. Regardless of where it goes, it 
heightens the three hospitals' need for financial relief.
    Appropriately, some of the agencies that have helped us 
have to direct their attention now to Texas or wherever this 
storm hits. We need to be able to stand up to care for our 
community and provide really the beachheads for the future 
health care needs of our community. Rita has even accentuated 
that further.
    Mr. Chairman, I appreciate the opportunity to tell you of 
the tremendous care that was given by all the individuals of 
East Jefferson, Oschner and West Jefferson. Ours, we realize, 
is just one of many stories throughout the gulf coast region 
and throughout the U.S. We also appreciate everyone's help from 
the outside, and we appreciate the opportunity of being able to 
share our story.
    Thank you.
    [The prepared statement of Mark Peters follows:]
   Prepared Statement of Mark Peters, President and Chief Executive 
  Officer, East Jefferson General Hospital, on Behalf of the American 
                          Hospital Association
    Good morning, Mr. Chairman. I am Mark Peters, M.D., president and 
chief executive officer of East Jefferson General Hospital in Metairie, 
Louisiana. On behalf of the American Hospital Association's 4,800 
hospital, health system and other health care organization members, and 
our 33,000 individual members, I appreciate the opportunity to speak to 
you and your colleagues about the impact that Hurricane Katrina had on 
hospitals in the Gulf Coast region.
    I have been with East Jefferson since December 2000. Prior to that 
I practiced family medicine and served in various medical leadership 
roles with health care facilities in Ohio, where I earned my medical 
degree from The Ohio State University.
    East Jefferson General Hospital is located in Metairie, on the east 
bank of Jefferson Parish, adjacent to Orleans Parish. We are a 450-bed 
tertiary care facility with more than 900 professionals on our medical 
staff. We employ more than 3,000 people, and are one of the largest 
employers in the parish. Our publicly owned, not-for-profit hospital 
offers the clinical expertise and cutting-edge technology that our 
community expects and deserves. We offer a range of outpatient services 
as well as numerous primary care services including cardiovascular, 
rehabilitative, oncology, and women and child services.
    Throughout the onslaught of Hurricane Katrina and in its aftermath, 
East Jefferson General Hospital has remained open, caring for patients. 
In fact, we are one of four hospitals open in the New Orleans area; the 
others are West Jefferson Medical Center in Marrerro, Oschner Clinic 
Foundation in New Orleans and North Shore Regional Medical Center in 
Slidell.
    When Hurricane Katrina hit the Gulf Coast, no one could have 
prepared for the intense devastation it left in its wake. The wind and 
the rain wreaked havoc across Alabama, Mississippi and Louisiana. 
Knowing that the huge storm was headed their way, hospitals began 
sending home ambulatory patients. Those in critical condition or 
requiring special assistance, such as ventilator-assisted breathing, 
remained in the hospital. When hospital staff reported to work on 
Monday, they knew it might be a few days before they were able to 
return home. When the levees in New Orleans broke, however, the 
situation changed dramatically.
    This morning, I'd like to tell you how my hospital prepared for and 
operated during the storm, what we are doing to ensure the continuity 
of health care delivery in the Gulf Coast region, what our facility as 
well as the rest of the New Orleans medical community needs to ensure 
that our doors remain open to provide critical health care services to 
our community, and answer any questions you and your colleagues might 
have.
    Hospitals routinely plan and train to deal with disaster, whether 
it's the derailment of a train carrying hazardous substances, a 
multiple-vehicle accident on a nearby interstate, a plane crash, or a 
natural disaster such as a hurricane or earthquake, depending upon the 
region of the country. As they prepare for natural disasters and the 
prospect of going without public services such as electricity and 
water, they plan on being ``on their own'' for at least 72 hours, in 
case it takes that long for assistance to arrive from the state or 
federal government.
    East Jefferson is no exception. The weekend of August 27, we 
activated our disaster plan, which includes being self-sufficient for 
72-96 hours following a disaster event; met with our hospital and 
medical staff to ensure that we were able to care for patients 
currently in our hospital as well as those who might come with injuries 
as a result of the storm; and began moving our less-critical patients. 
The physicians who comprise our medical staff are part of independent 
practices, not employees of the hospital, and thus had no obligation to 
remain with us in what looked to be a dangerous weather situation. They 
did stay, however, and were tremendous in caring not only for our 
patients, but also for our staff and others in the community who sought 
shelter at our facility.
    Before the storm hit and roads were closed, we moved our neonatal 
unit to Woman's Hospital in Baton Rouge; many other patients were 
transferred to facilities both in and out of state, though we did not 
move patients that required ventilator-assisted breathing. We felt the 
risk to their health during a transfer was too great.
    While we quickly lost power and ran on generators, our building 
weathered the storm fairly well. We reduced our electrical consumption 
by shutting off the air conditioning and reserving our power for 
ventilators and other key medical equipment. Our damage included quite 
a bit of leaking throughout the building, but that did not hinder our 
ability to care for patients. A few windows were blown out. Once the 
levees broke, the flood waters came within 30 to 50 yards of our front 
door. At that point, we evacuated the first floor, which is not used 
for patient care.
    Security, communication and restaffing became critical concerns as 
we moved past the initial storm and began to look toward recovery. We 
heard reports of looting and other unfortunate events in Orleans Parish 
and were concerned for the safety of our patients and staff; the 
National Guard quickly responded and provided us with armed security. 
All phone service of course went down as well as cable connections, and 
cell phone service was infrequent at best. This made it almost 
impossible to ask other employees to come in and assist those who had 
been working 12-hours shifts for days. It also made it impossible to 
speak with other hospitals in our area and the public officials trying 
to provide assistance. I was able to get to a Baton Rouge television 
station, however, and announce that East Jefferson was still open and 
operating, and that hospital staff were desperately needed. Help began 
to arrive soon after.
    A day or two after the storm, we ran low on food. We always were 
able to feed our patients, and there were only two days when the staff 
had to eat once a day, and in small amounts. After that, we were able 
to contact various businesses and vendors to replenish our supplies and 
food.
    Throughout the storm, our first priority was patient safety, and 
second--though only by a hair--was staff safety. Throughout the ordeal, 
we received tremendous support from the men and women who work in our 
hospital as well as from the independent private physicians who provide 
care. In addition to caring for our patients, the physicians set up a 
quasi-pharmacy with samples from their offices so that hospital staff 
had access to needed prescriptions such as blood pressure medication. 
It provided one little bit of comfort for staff who went above and 
beyond their call of duty.
    This is our story of how we maintained our commitment to serving 
the residents of Jefferson Parish. Obviously, other hospitals in the 
Gulf Coast region went much longer before relief arrived. They relied 
on generators until fuel ran out, all the while trying to arrange the 
means to evacuate patients and hospital staff. In New Orleans, of 
course, the situation was exacerbated by the rising flood waters, as 
patients were carried up flights of stairs to dryer floors, and 
authorities tried to arrange air and water evacuations.

                   RESPONSE FROM AMERICA'S HOSPITALS
    When the levees broke and the city of New Orleans flooded, the 
immediate assumption was that all the hospitals would be inoperable in 
the wake of a significant need for surgical and trauma care from the 
many injured anticipated.
    The AHA received countless calls from hospitals across the country 
asking how they could help their colleagues in the south, with most 
ready to send resources and health care teams at a moment's notice. The 
AHA developed www.hospitalreliefefforts.org, a Web site through which 
hospitals could sign up and volunteer for deployment by the government. 
The response was swift and generous. By September 3, three days after 
the Web site went live, more than 500 hospitals volunteered for duty, 
and today that pool of hospital and health care facility volunteers is 
over 800. This information was forwarded on a daily basis to the 
Department of Health and Human services.
    Very quickly, through conversations with our member hospitals, it 
became apparent that the need was not primarily immediate trauma and 
emergency care, but rather the facilities and ability to assist 
patients and evacuees suffering from chronic conditions. It was finding 
a way for the cancer patient to continue chemotherapy treatment, for 
someone suffering from kidney disease to continue dialysis, and for 
someone with hypertension to obtain the right medication. At the same 
time, we needed to care for those who suffered minor injuries as a 
result of the storm. In the hurricane-stricken areas, as well as other 
areas where evacuees have been taken, we're seeing an increased demand 
for mental health and substance abuse services, chronic care, and 
public health services.
    The AHA also has been working to help locate patients who--in the 
initial evacuations from Louisiana's storm-battered hospitals--had been 
taken to other hospitals, possibly without patient ID records. This 
information will help ensure that these patients get the care they need 
no matter where they are.

                            IMMEDIATE NEEDS
    Currently, we have several critical needs in the disaster area--
restarting the cash flow to these facilities, relieving staff, 
obtaining temporary housing, and accessing fuel. As we assess the 
damage and attempt to rebuild our facilities it is critical that we 
find a way to improve our cash flow. If we have no patients, we have no 
income. If we have no income, we have no way to pay our workers, to 
obtain services such as food and water, and to continue providing 
health care services to areas that already have lost so much of their 
infrastructure. During the first two weeks of the storm and its 
aftermath, East Jefferson General Hospital lost approximately $12 to 14 
million. Now we're losing about $500,000 a day. West Jefferson Medical 
Center, the Oschner Clinic Foundation and my hospital each are caring 
for about 150 patients a day. At East Jefferson, our average daily 
patient population is 350.
    Our situations are urgent. Unless we find financial relief within 
the next seven to 10 days, we will be forced to make some very tough 
decisions. We are committed to our patients, our hospital staff and our 
community. However, we can't continue to care for our patients and 
community--many of whom hopefully will return soon from the 
evacuation--unless we have immediate financial assistance.
    Hospitals, including ours, have caregivers who are reaching 
``burnout'' and need relief from personnel from other hospitals, for 
two-week rotations. These caregivers can help us by relieving staff who 
are trying to rebuild their own lives after losing everything to the 
hurricane, and, for facilities outside the immediate New Orleans area, 
providing health care services to an influx of evacuees who have 
settled, at least temporarily, in other communities. We also need 
temporary housing--both for our personnel as well as for the temporary 
health care workers who come down to assist us. And in order to get our 
staff, as well as our emergency first responders, to the hospital, we 
need fuel.

                         GOVERNMENT ASSISTANCE
    More than a quarter of a million people fled New Orleans. They 
ended up homeless, in evacuation shelters, or took up residence with 
relatives in other states. Some of these victims--for certainly they 
are victims of one of the worst natural disasters in our country's 
history--may have had jobs, benefits that included health insurance, a 
roof over their heads, plenty to eat and all of the basic necessities. 
But, many may not have been as lucky and already relied on the 
government to assist with their health care needs. Regardless of their 
financial situation previous to this disaster, all now need help.
    The AHA has identified several areas that require immediate 
attention to ensure that patients continue to have access to health 
care services and that hospitals continue to be able to provide them. 
The Centers for Medicare & Medicaid Services already has eased some of 
its regulations governing Medicare and Medicaid. There are, however, 
additional measures that can be taken. The AHA suggests immediate 
federal coverage for the uninsured people affected by the hurricane. So 
that access can be granted as quickly as possible, additional relief 
from Medicare and Medicaid red tape is needed. In order to facilitate 
providing relief health care workers to the Gulf Coast region, the AHA 
suggests granting broader liability protection to providers serving in 
disaster areas. The AHA also asks that Federal Emergency Management 
Agency funds be available for all types of community hospitals affected 
by the storm. Additional priorities include reconstructing the hospital 
and health care infrastructure in states battered by Hurricane Katrina; 
aiding stressed health care personnel; and addressing the growing 
caregiver shortages in affected states. I've included a full list and 
more details on these issues in the attached document, ``Ensuring 
Health Care for Individuals Affected by Hurricane Katrina.''
                            lessons learned
    Every tragedy and disaster provides lessons to either avert the 
next one, or, if that is not possible, mitigate the consequences. This 
disaster is no exception. During the last few weeks, we've learned a 
number of valuable lessons and gained some insights on how best to work 
together. We realize that response to disasters is always ad hoc at the 
start, when it is best to rely on good judgment rather than policies 
and procedures.
    We learned this time, as we did with the events of September 11, 
2001, that communication systems are the first thing to go. From our 
experience at East Jefferson, it is obvious that an alternative, 
reliable communication service must be in place, so that public 
officials, first responders and the health care community can 
efficiently communicate their needs, situations and availability to 
assist.
    Mr. Chairman, I appreciate the opportunity to tell you about the 
situation in my community, and offer suggestions for improving disaster 
response in the future. In closing, I'd also like to add that I am here 
representing the many people who work at East Jefferson and live in our 
community, who are dealing with loss and tragedy, but have remained 
steadfast in their mission of caring for the illnesses and injuries of 
their neighbors.

    Mr. Whitfield. Dr. Peters, thank you very much. We 
certainly appreciate the valiant effort that you all put 
forward, and your testimony is quite important to us.
    Our next witness is Dr. Ardis Hoven, who is a member of the 
Board of Trustees of the American Medical Association.
    Welcome, Dr. Hoven, and you may give your opening 
statement.

                    TESTIMONY OF ARDIS HOVEN

    Ms. Hoven. Mr. Chairman and members of the subcommittees, 
good afternoon. I am Dr. Ardis Hoven. I am a practicing 
internist and specialist in infectious diseases and the Medical 
Director of the Bluegrass Care Clinic in Lexington, Kentucky. I 
am also a member of the Board of Trustees for the American 
Medical Association and thank you for inviting me to speak with 
you today.
    It is now clear that Katrina is the worst national disaster 
to affect our country. Our thoughts and prayers are with all of 
the survivors. It is also now clear that the gulf region has 
experienced an unprecedented public health disaster. Parts of 
the public health and health care delivery infrastructures are 
wiped out or severely damaged. Many physician offices, 
hospitals and clinics are simply gone. The local drugstores do 
not exist. Funding is needed so that this can be rebuilt and 
restored.
    The health care needs of Katrina's victims were and 
continue to be significant. Physicians on the front lines faced 
major challenges in treating patients.
    We must plan so patients in hospitals, nursing homes and 
those living at home are evacuated before disasters occur. The 
AMA is prepared to play a leading role to meet these 
challenges. However, we cannot do it alone. We need the support 
of Congress and the Federal Government as well as other private 
organizations like those that are on the panel with me here 
today.
    Our testimony today focuses on three key issues: First, 
what were the health care needs of evacuees and what problems 
did physicians have in treating and saving their patients? 
Second, what must be done to rebuild physician practices and 
the rest of the public health and health care delivery 
infrastructures so that patients needs are met? And, finally, 
how can we make sure that the medical and emergency response 
communities are better prepared for future disasters?
    Physicians were on the front lines of the response to this 
disaster. Physicians tried to save and evacuate their patients 
from hospitals and nursing homes that were flooded and had lost 
power and communication systems. Physicians in the disaster 
areas and across the country volunteered by the thousands to 
help rescue and treat patients and evacuees. Physicians set up 
emergency medical facilities overnight.
    What problems did they face? Patients arrived with no 
medical records and often could not remember what drugs they 
were on or what the dosages were. Physicians treated many 
patients with heart disease, high blood pressure, diabetes and 
serious mental illnesses who had been without their drugs for 
many days. Physicians needed to determine how to reconstruct 
treatment for patients with special health needs such as those 
with cancer and those needing dialysis and find facilities that 
could take them long term. For example, the oncology community 
acted quickly to help patients find physicians help across the 
country in treating them.
    Physicians also had to contend with many legal issues, such 
as consent to treat, licensing waivers, protection from 
liability and privacy issues. Another significant problem was 
the lack of coordination and delays in accepting and placing 
volunteers where they were most needed.
    These displaced patients will continue to have major health 
care needs that require ongoing medical management. We must 
make sure that those with chronic conditions have access to 
medication. We can expect more injuries as people return home 
and attempt to clean and rebuild.
    The AMA is doing everything we can to make sure that 
patients can be reunited with their physicians and that 
physicians can get back to treating their patients, but we need 
Congress' help. To make sure patients have access to care, we 
call on Congress to enact legislation to help physicians 
rebuild their practices or relocate, help ensure that patients 
have health insurance, rebuild laboratories to detect and track 
infections, ensure adequate vaccine supplies, provide long-term 
mental health services for both displaced persons and first 
responders, conduct research on disasters to develop best 
practices and lessons learned.
    The AMA, through its Center for Public Health Preparedness 
and Disaster Response, is ready to help lead and provide 
guidance and the tools necessary to ensure effective response 
in disasters. And, of course, we must learn from what happened 
after Katrina. Effective response is a system. That system is 
greater than the sum of its individual parts. We must train 
more physicians with the skills to respond to future disasters. 
As we have just learned, a disaster scene is not a classroom.
    Thank you very much, Mr. Chair.
    Mr. Whitfield. Dr. Hoven, thank you.
    Our next witness is Dr. Bernard Simmons, who is the Chair 
of the National Association of Community Health Centers.
    Dr. Simmons, welcome. We look forward to your testimony.

                  TESTIMONY OF BERNARD SIMMONS

    Mr. Simmons. Thank you, Mr. Chairman.
    I have submitted written testimony to the committee, and I 
request that the written testimony be entered into the record. 
I will use the remainder of my time to present highlights in 
oral testimony of the condition on the ground affecting 
community health centers.
    Mr. Chairman, thank you and the committee for the hearing. 
I am Bernard Simmons, and I'm the Chief Executive Officer of 
Southwest Health Agency for rural people in Tylertown, Walthall 
County, Mississippi. I'm currently serving as Chair of the 
Board of the National Association of Community Health Centers. 
On behalf of America's health centers and the 15 million people 
we serve, I thank you for the opportunity to speak to you today 
about the Federal health center program and the vital role and 
response they have played in Hurricane Katrina and the 
aftermath.
    Health centers across the country, but especially those 
along the gulf coast, have been first responders, though often 
not recognized as first responders and victims of this 
disaster. I know that there has been a devastating impact on 
many health centers, for I alone operate a community health 
center, and I will be dealing with areas and issues that affect 
rural community health centers especially, for they are 
different animals and treated differently somewhat in the 
emergency response scene.
    I am in an affected State, I'm in an affected county, and 
my health center also was affected. However, due to a 9-day 
lack of power and electricity to my area, water not being 
supplied to the area, our major sites were affected where we 
could not provide care for 10 days in our primary site, and one 
of our sites is also inoperable at this time.
    I want you to know that, based upon a discussion with 
emergency response persons in my county, 6,500 evacuees are in 
the County of Walthall and are expected to receive care and 
services in that locale. The hospital--we are located in the 
hospital circle, and the hospital did have generators but no 
power to other physicians' offices or community health centers. 
There are many things, not only power, but water, because most 
of the rural communities has been encouraged to become part of 
a rural community water system that relies upon electricity. 
Also, the advances of technology, also with the emergency 
medical records and other things also need electricity to 
operate. I know that many health centers are being affected.
    But I want to share with you the fact that a community 
health center is a community health center that responds 
specifically to the needs and the desires and requirements of 
that local community. As we look at the situation, America has 
at its disposal a system of health care infrastructure that can 
be expanded, can be also strengthened to be first responders in 
the first zero to 72 hours. They are in the affected areas.
    I am in a rural county and ofttimes, and even before I left 
coming to our national meeting last week, some areas of the 
county did not have power at that particular time. Telephone 
service is sporadic. Electronic--not only electronic but cell 
phone service is very sporadic in those areas.
    Residents of my county are traveling 75--60 to 75 miles 
just to try to access where possibly they can get Red Cross and 
some FEMA assistance of immediate response. They will be coming 
to our area, but as rural people hear of assistance and 
services they are responding to where they heard it was 
available, many without gasoline, to travel that distance but 
to get in a line and then wait there for hours to be told we're 
not serving your county today.
    In the State of Louisiana, our health centers in New 
Orleans are assumed 100 percent destroyed, with more than $43 
million in facility damage, facilities that often served some 
18,000 homeless individuals--health centers in other areas of 
the State are saying the same--or more evacuees. They have 
extended hours, hired temporary clinicians to handle the 
growing number of new patients.
    Health centers in Mississippi, Alabama, Louisiana also have 
been hard hit by Hurricane Katrina. We believe that there are 
54 health center grantees in 302 communities that have been 
affected by the hurricane and the aftermath thereof. These 
centers provide basic primary care as well as urgent medical 
care, mental health and enabling services to thousands of 
persons.
    In Mississippi, along the gulf coast, the coastal family 
health centers, which served more than 30,000 patients last 
year, have been severely damaged and completely destroyed and 
have only managed to open one of their sites in north Biloxi.
    Several health centers in Alabama were severely damaged 
both by wind and flooding, and the Bayou Labatte area health 
development board, which served 17,000 patients experienced 
structure damage but was able to provide care through a recent 
generator that had been placed in the center.
    As a result of this disaster, health centers across the 
region are seeing an increased number of gulf coast evacuees. 
They are being seen in Texas. They are being seen in Georgia. 
They are being seen across the region.
    Health centers always assume or are accustomed to 
confronting adversity head on and providing health and enabling 
services to communities; and, therefore, in the wake of this 
storm, it's nothing new for health centers. We need to request 
of Congress the ability to get funding, to have the ability to 
rebuild, repair and restore health center facilities. We 
estimate about $65 million in facility requirements--$45 
million for Louisiana, $10 million for Mississippi and 
approximately $10 million in Alabama--to enable existing health 
centers to serve as many displaced individuals as possible. 
Because we do it at a rate of about $500 per year. Therefore, 
we will be able to serve approximately 400,000 people.
    The extension of the Federal Torts Claim Act liability 
coverage. We would like to certainly request that physicians 
and clinical personnel have the right to travel offsite and 
across State lines and that that access be provided them or 
that coverage, follow them wherever they go, and remain in 
effect at the existing centers where they work.
    We also need to encourage this panel, as you look at 
Medicaid, that you enact emergency Medicaid spending to provide 
Medicaid and SCHIP coverage for evacuees and that 100 percent 
of that reimbursement be covered by the Federal Government 
rather than by the States, provide emergency Medicaid coverage 
for all evacuees, regardless of categorical eligibility and 
expanded income and asset eligibility thresholds, streamline 
the Medicaid process so that the eligibility requirement--and 
ease documentation requirements in an effort to overcome 
administrative problems.
    America's health centers who specialize in providing care 
in low-income communities throughout our Nation are bringing 
their unique skills to this emergency relief effort now, as 
ever. We are committed to being a shelter in the storm and a 
health care home for the individuals and families in medically 
underserved communities across this country.
    Thank you, Mr. Chairman, for this time; and I will be glad 
to entertain questions at the appropriate time.
    Mr. Whitfield. Thank you, Dr. Simmons.
    At this time, Mr. Joe Cappiello, who is the Vice President 
of Accreditation Field Operations for the Joint Commission on 
Accreditation of Healthcare Organizations.
    We look forward to your testimony, Dr. Cappiello.

                   TESTIMONY OF JOE CAPPIELLO

    Mr. Cappiello. Thank you so much and good afternoon, Mr. 
Chairman.
    I am Joe Cappiello, Vice President of Accreditation Field 
Operations for the Joint Commission on Accreditation of 
Healthcare Organizations. I appreciate the opportunity to 
testify before you today on the health care delivery situation 
in the wake of Hurricane Katrina.
    The Joint Commission, by background, is a private-sector, 
not-for-profit entity dedicated to improving the safety and 
quality of health care provided to the public. We accredit over 
15,000 healthcare organizations in the United States along the 
full continuum of care, including the preponderance of the U.S. 
hospitals.
    Now emergency management has been a priority for the Joint 
Commission for over 30 years. Following the terrorist attack on 
9/11, however, our efforts took on a new sense of urgency and 
our standards began to focus heavily on issues of community-
wide planning. Among the many tools and resources that we have 
developed is the document that you have before you entitled, 
Standing Together: An Emergency Planning Guide for America's 
Communities.
    In continuing efforts to understand communities' response 
and recovery of their health care systems following a large-
scale disaster, the Joint Commission sent a team to the region 
devastated by Hurricane Katrina. Our charge was to make initial 
observations and establish contacts for a more deliberate 
debriefing in the future. Our mission was to develop a set of 
lessons learned and openly share these with America. As a 
member of that team, I'm here today to discuss our observations 
and to highlight for you the immediate challenges for restoring 
health care infrastructure to the gulf region.
    In New Orleans, we witnessed a health care system 
attempting to recover from a staggering blow. Major parts of 
the infrastructure that support medical care--water supply, 
sewage, electricity--have been significantly damaged. At the 
time of our visit, only three of New Orleans 16 acute care 
hospitals were fully operational. Other hospitals are trying to 
open their doors as quickly as possible.
    While New Orleans has been the focus of much of the press 
reports, we visited areas in Mississippi where the destruction 
was as severe and whose recovery will be just as difficult.
    I would like to highlight from my written testimony a few 
activities essential to the restoration of health care services 
in the affected States. They are not listed in any specific 
order of significance.
    First, disseminate information at a national level to 
advise returning residents and workers of certain 
responsibilities, dangers and available services. Incoming 
residents and workers should be apprised of the need for 
immunizations and where to get them, specific hazards they may 
encounter, the ways to access emergency help and the 
limitations of the current health care system, what is open, 
what is not, what services are available and where.
    Second, provide this information to people again as they 
enter the city in order to reinforce and update the information 
as needed. I believe the Federal Government could be helpful in 
such information dissemination.
    Third, re-establish the post-acute care infrastructure, 
such as home health, rehabilitation, and nursing home care, 
quickly to ensure that hospital beds, which will be at a 
premium as citizens return, are not unnecessarily tied up with 
those who can be helped at lower levels of care.
    Fourth, institute a process that insures that patients 
receiving services in temporary care sites are provided with 
their medical information so that it is portable to other sites 
of care and to primary care providers who may treat them in the 
future.
    Fifth, focus on insuring that a number of critical physical 
plant and environmental care concerns are addressed, especially 
mold abatement. Engineers with mold abatement training should 
be identified and brought in to support these facilities as 
quickly as possible.
    Sixth, implement and expand upon HHS's Critical 
Infrastructure Data System to capture real time, accessible 
data needed for recovery purposes.
    Seventh, ensure that returning health care workers have 
adequate access to housing, food and other supportive services, 
including payroll. Because, without such services, they will be 
less likely to return to those affected areas.
    Last, integrate mental health and clinical services. There 
needs to be a strong focus on appropriate mental health in 
order to deal with increased risk of behavioral health issues 
such as suicide, lack of or access to psychotropic medications 
and post-traumatic stress disorder.
    The Joint Commission will participate and collaborate with 
appropriate oversight officials in developing a strategy for 
ramping up hospitals and other healthcare organizations to 
full-service institutions. For example, we are working with 
representatives from the State and Federal Governments to help 
get systems back up and running by establishing a minimal, 
consensus-driven checklist of physical plant safety that will 
provide organizations with guidance on what they must do to 
meet oversight requirements for reopening their facilities. 
That checklist will add increasing granularity as levels of 
care increase.
    In conclusion, there remains much work to be done in the 
gulf States, but there is also an opportunity here so rare and 
unusual that it cannot be overlooked. The opportunity presents 
itself to be innovative in the reconstruction of the health 
care infrastructure of a major city to make New Orleans a model 
health care delivery city that will do more than just bring 
back the professionals and citizens that fled that city due to 
the storm but a model that will attract the best and the 
brightest of every profession. God willing, we will never have 
this opportunity again.
    Thank you, Mr. Chairman.
    [The prepared statement of Joseph Cappiello follows:]
 Prepared Statement of Joseph Cappiello, Vice President, Accreditation 
   Field Operations, Joint Commission on Accreditation of Healthcare 
                             Organizations
    I am Joe Cappiello, Vice President of Accreditation Field 
Operations for the Joint Commission on Accreditation of Healthcare 
Organizations. I appreciate the opportunity to testify before the 
subcommittees on Health and Oversight and Investigations on the health 
care delivery situation in the wake of hurricane Katrina.
    Founded in 1951, the Joint Commission is a private sector, not-for-
profit entity dedicated to improving the safety and quality of health 
care provided to the public. Our member organizations are the American 
College of Surgeons; the American Medical Association; the American 
Hospital Association; the American College of Physicians; and the 
American Dental Association. In addition to these organizations, the 
29-member Board of Commissioners includes representation from the field 
of nursing as well as public members whose expertise spans such diverse 
areas as ethics, public policy, insurance, and academia.
    The Joint Commission currently accredits over 15,000 organizations 
in the United States. These include hospitals (both general acute care 
and specialty), critical access hospitals, laboratories, health care 
networks (including integrated delivery systems, HMOs and PPOs), 
ambulatory care, office-based surgery, assisted living, behavioral 
health care, home care, hospice, and long term care organizations. 
About one-third of accredited organizations are hospitals, comprising 
the nearly 85% of hospitals that contain 96% of U.S. hospital beds.
    Emergency Management has been a priority for the Joint Commission 
for over 30 years. In 1999 with the help of emergency management 
experts and 2 years before the disaster of 9/11, our emergency 
management standards were revamped to reflect the most current thinking 
in the field. At that time, the Joint Commission started the process of 
assessing and modifying our accreditation standards to better reflect 
the need for health care organizations to be involved in community-wide 
planning, as opposed to only focusing on their institution. Following 
the terrorist attacks on September 11, 2001 and the subsequent anthrax 
exposure, our efforts took on a new sense of urgency.
    In 2003, the Joint Commission published Health Care at the 
Crossroads: Strategies for Creating and Sustaining Community-wide 
Emergency Preparedness Systems, a report that reflected the work of a 
roundtable of experts. These experts were assembled under the Joint 
Commission's Public Policy Initiative to frame the issues associated 
with (and to recommend strategies for) developing community-wide 
preparedness.
    More recently, the Joint Commission partnered with the Illinois 
Department of Public Health, the Maryland Institute of Emergency 
Medical Services Systems, and the National Center for Emergency 
Preparedness at Columbia University to convene two expert roundtable 
meetings. In addition, over the past four years, Joint Commission has 
conducted site visits to communities impacted by a disaster, such as 
New York City and Washington, DC (following the terrorist attacks and 
anthrax exposure), Houston (massive flooding during 2001 Tropical Storm 
Allison), Southern California (wildfires), Florida (the 2004 
Hurricanes) and the North East (power outage in August, 2003). 
Information gleaned from the roundtable meetings and site visits to 
communities impacted by a disaster was used to develop Standing 
Together: An Emergency Planning Guide for America's Communities.
    In continuing effort to understand communities' response and 
recovery of their healthcare system following a large scale disaster, 
the Joint Commission sent a team of disaster experts to the region 
devastated by Hurricane Katrina. The charge of that team was to make 
initial observations and establish contacts for a more deliberate 
debriefing in the future. I was part of that team and I am here today 
to discuss our observations and to highlight for you efforts that are 
underway to restore the health care infrastructure in the Gulf Region.

                      WHAT OUR TEAM SAW LAST WEEK
    In New Orleans, we witnessed a health care delivery system 
attempting to recover from a staggering blow. In recent history, a 
major city in the United States has never experienced the destruction 
wrought by Hurricane Katrina. Major parts of the infrastructure that 
support medical care--water supply, sewage system, and electricity--
have been significantly damaged. At the time of our visit, only three 
of New Orleans' 16 acute care hospitals were fully operational. Other 
hospitals are trying to open their doors as quickly as possible. When 
we departed New Orleans on September 16, there was no 911 system 
(although a call center was being established), no ambulance transport 
system, no Level 1 trauma center, no burn center, no home health care, 
no long term care nor any dialysis centers. That is part of the 
challenge this city faces.
    In New Orleans, we visited Ochsner Medical Center where we took 
part in the ``virtual'' daily briefing, which brought together a broad 
array of federal, state and local healthcare leaders to discuss daily 
status reports and coordinate their efforts. We also visited several 
other facilities that were in the process of recovery. While New 
Orleans has been the focus of much of the press reports, we visited 
areas in Mississippi where the destruction was as severe and whose 
recovery will be just as difficult. For example, Hancock Medical Center 
in Bay St. Louis will face the same challenges to restore service to 
its community as any hospital in New Orleans. For a period of time, 
they were being supported by federal Disaster Medical Assistance Team 
(DMAT) teams in their parking lot and coping with extensive water 
damage.
    In Mississippi, we had the opportunity to visit several deployable 
medical units designed to accommodate surge control for an existing 
functioning hospital. Nevada 1 is an air transportable, expandable 
Federal Management Shelter capable of treating a wide range of health 
care conditions and a large number of patients. It has a capacity of 
100 beds and can be set up for both primary and ICU care, as well as 
labor and delivery. Carolina 1 is an air transportable facility that 
has at its core, an 8 bed fully equipped ICU and a fully functioning 
Operating Room. These deployable units are clearly life saving entities 
that can supplement existing medical infrastructure. These health care 
assets can bring much needed supplies and emergency systems with them, 
and can be helpful for staging, surge control, and providing special 
medical services.
    Furthermore, we learned of many acts of heroism and caring that 
medical professionals rendered throughout this disaster and I can say 
with certainty that there were a thousand other acts of compassion that 
will go unrecorded and unnoticed. Such is the nature of health care 
professionals.
    I would remind the members that the Joint Commission is interested 
in and accredits the full spectrum of care. My remarks are directed 
with equal importance to the care provided outside of the hospitals, as 
well as hospital-based care. Hospitals in every community rely on and 
need the support of community-based structures to effectively 
accomplish their mission. My comments are directed toward the 
restoration of the synergistic interplay of all health care resources 
that comprise the fabric of care.
    resuming the delivery of health care services in the gulf states
    The following is a list of activities that are essential to 
restoring health care services to the affected states in the next few 
weeks to months. They are not listed in order of significance.

<BULLET> Disseminate information at a national level to advise returning 
        residents and workers of certain responsibilities, dangers, and 
        available services. Incoming residents and workers should be 
        apprised of--
    --the need for vaccinations, especially Tetanus and Hepatitis A;
    --locations of facilities providing free vaccinations;
    --specific hazards, such as water, mud, debris;
    --the ways to access emergency help; and
    --limitations of the health care system, e.g., what is open and 
            closed, what services are available and not available, 
            where services are located, and how to contact service 
            providers.
<BULLET> Provide the information noted above to people a second time as they 
        enter the city in order to reinforce and update the information 
        as needed.
<BULLET> Resume the traditional 911 services as soon as possible because 
        alternative call centers are not as effective--i.e., people 
        will not remember the number or find it quickly during a 
        crisis.
<BULLET> Begin Level 1 trauma services in the New Orleans area.
<BULLET> Restore supportive medical services as quickly as possible and 
        commensurate with the re-population plan. These services 
        include, but are not limited to pharmacies, laboratories, 
        diagnostic imaging centers, ambulance services, and dialysis 
        centers.
<BULLET> Develop a plan for the delivery of healthcare to the chronically ill, 
        but ambulatory low-income and uninsured populations, whose 
        normal health care providers are not operable. The affected 
        states had high rates of both low income and uninsured people. 
        In New Orleans, for example, the majority of those uninsured or 
        in poverty relied upon Charity Hospital for primary care and 
        other services, but it is unlikely that this hospital will 
        reopen any time soon.
<BULLET> Establish services for disabled and special needs populations, such 
        as medical transport and rehab facilities, as soon as possible.
<BULLET> Re-establish the post-acute care infrastructure, such as home health, 
        rehabilitation, and nursing home care, quickly to ensure that 
        hospital beds--which will be at a premium--are not 
        unnecessarily tied up with those who could be helped at lower 
        levels of care.
<BULLET> Ensure that providers have broad scale access to the Department of 
        Health and Human Services (DHHS) network of pharmaceutical 
        records in order that the pharmaceutical history of residents 
        can be known by those providing treatment.
<BULLET> Institute a process that ensures that patients receiving services in 
        temporary care sites are provided with their medical 
        information so that it is portable to other sites of care and 
        to primary care providers who may treat them in the future.
<BULLET> Focus on ensuring that a number of critical physical plant and 
        environment of care concerns are addressed, especially mold 
        abatement. Engineers with mold abatement training should be 
        identified and brought in as soon as possible. Environment of 
        care issues are paramount to resuming patient care. Other 
        concerns involve air quality, sanitation, and contamination.
<BULLET> Monitor on a daily basis the number and geographic location of 
        individuals with rashes, fevers, and diarrhea to ensure that 
        any trends indicating a public health concern are identified 
        early. Disseminate this information to all relevant health care 
        and public health entities.
<BULLET> Establish mechanisms to communicate across health care facilities so 
        that care delivery can be coordinated and made efficient and 
        effective. A common communication system will help to leverage 
        health care assets and disseminate essential information that 
        is necessary for recovery.
<BULLET> Implement and expand upon the Department of Health and Human 
        Services' Critical Infrastructure Data System (CIDS) to capture 
        real time, accessible data needed for recovery purposes.
<BULLET> Make available safe water and restore sewage capabilities, so that 
        health care organizations can resume operations.
<BULLET> Ensure that returning health care workers have adequate access to 
        housing, food, and other supportive services (including 
        payroll) because without such services, they will be less 
        likely to return to affected areas.
<BULLET> Assist health care facilities to establish laundry services and 
        sterilization capabilities.
<BULLET> Establish telemedicine services, to provide access to specialists 
        from unaffected areas.
<BULLET> Integrate mental health and clinical care services. There needs to be 
        a strong focus on appropriate mental health care in order to 
        deal with increased risks of behavioral health issues, such as 
        suicide, lack of access to psychotropic medications, and post 
        traumatic stress disorder.

                            EFFORTS UNDERWAY
    The Joint Commission is commonly recognized as an entity with the 
unique capability of bringing disparate groups together to focus on a 
common goal. We are engaged in that activity today. The Joint 
Commission is working collaboratively with federal, state and local 
officials to ensure that health care organizations in the affected 
areas can obtain a sufficient level of functioning to provide safe 
health care services. There has been significant study on the graceful 
degradation of care but few studies or experiences with the 
reestablishment of care. The Joint Commission will participate and 
collaborate with these officials in developing a strategy for ramping 
up hospitals and other health care organizations to full service 
institutions
    For example, we are working with a wide spectrum of organizations 
to help get systems back up and running by establishing a minimal, 
consensus-driven checklist that will provide organizations with 
guidance on what they must do to meet state and federal requirements 
for reopening their facilities. That checklist with add increasing 
granularity as levels of care increase. For example, there will be a 
basic set of criteria for re-opening the doors of closed facilities so 
that they are safe for occupancy by staff and patients. The criteria 
will become more specific as particular types of services are brought 
on line, such as surgery.
    The Joint Commission is also an active participant the ``Emergency 
System for Advanced Registration of Voluntary Health Personnel (ESAR 
VHP).'' This Health Resources and Services Administration (DHHS) 
project brings public and private sector groups together to identify 
and address issues and formulate responses associated with 
credentialing and privileging volunteer health care personnel. 
Hurricane Katrina was the first real test of those states who have been 
funded to put this system into practice. We were pleased that this 
system could be activated to help.

                           CONCLUDING REMARKS
    In conclusion, there remains much work to be done in the Gulf 
states, but there is also an opportunity so rare and unusual that it 
cannot be overlooked. The opportunity presents itself to be innovative 
in the reconstruction of the healthcare infrastructure of a major city, 
to make New Orleans a model health delivery city that will do more than 
just bring back the professionals and citizens that fled the city but a 
model that will attract the best and the brightest of every profession. 
God willing, we will never have this opportunity again.

    Mr. Whitfield. Thank you, Mr. Cappiello.
    Our next witness is Mr. Bob Dufour, who is Vice President 
of Pharmacy Services with Wal-Mart Corporation.

                     TESTIMONY OF BOB DUFOUR

    Mr. Dufour. Thank you. And I'm a Director, not a Vice 
President.
    I'm here today testifying on behalf of the NACDS. I was 
asked because of my involvement in helping to organize chain 
pharmacies to respond with emergency medications to the 
shelters and to evacuees.
    My testimony today is really a success story. We have a lot 
of successes. I know that many of you, as you visited the area 
or you saw in the media the different shelters going up, these 
shelters were provided with prescription medications, many of 
those from chain pharmacies.
    In total, we contacted over 400 shelters; and we served 
hundreds of thousands of evacuees who were in these shelters, 
in hotels, staying with relatives and staying with friends. We 
did this without any formal Federal contract, without any State 
contracts. It was an ad hoc response by community pharmacy 
because we recognized need of these evacuees to have their 
medicines. This was possible because of the cooperation we had 
with several different groups, first of all, with the 
pharmaceutical manufacturers; and I think the congressman from 
Florida this morning mentioned the contribution they made.
    Starting on Tuesday after Hurricane Katrina hit, I 
approached six different manufacturers with the notion that the 
company I work for, Wal-Mart, wanted to provide a 7-day supply 
of emergency medications to anyone who was affected by 
Hurricane Katrina. I asked them for their support by asking if 
they would provide replacement products for those prescriptions 
that were donated. Four of those companies immediately said 
yes. Two other ones said they would have to get back with us 
after they checked with other folks in their company. Later on, 
we had our pharmaceutical buyers contact other manufactures.
    I also contacted Mr. Billy Tauzin, who is now with the 
Pharmaceutical Manufacturers Association, explained what we 
were trying to do and sent him a letter that he distributed out 
to the PHARMA companies. So we really appreciate his support.
    There was also great cooperation with the government at the 
State and Federal level.
    On Wednesday, I contacted folks at the emergency operations 
centers in Louisiana and in Mississippi to offer help to find 
out what they needed. We also worked with boards of pharmacy. 
The boards of pharmacy in Mississippi, Louisiana and Texas 
recognized the urgency of the situation and provided a means 
for pharmacists to dispense medicines to patients where they 
may not have a prescription with them, could not get ahold of 
the doctor or the pharmacies and they may be in shelters where 
there were no physicians yet, so pharmacists were using their 
good professional judgment in dispensing these.
    We also had cooperation from the DEA, where they allowed us 
to dispense controlled substances under these emergency 
guidelines.
    I would also say we had good government cooperation with 
the Medicaid departments in Mississippi and Louisiana and also 
Texas. They worked very hard to allow out-of-State pharmacies 
to quickly enroll and provide services because many of the 
evacuees had gone out of their home States. We had real good 
cooperation which provided a lot of help there.
    We started this retail network. It started on the Wednesday 
evening after Hurricane Katrina hit.
    I was speaking with Fred Mills, who was in Baton Rouge 
working for the Louisiana emergency operations center. As 
shelters were starting to pop up, they were trying to figure 
out how do we get medicines to all of these different shelters. 
They did consider at one point a scenario of maybe having some 
type of government pharmacy and how would they get people, how 
would they get the drugs from the Federal supply down to these 
pharmacies; and we brought up the fact that there were a lot of 
Wal-Marts in a lot of the locations where the shelters were 
going. I offered the support of Wal-Mart, saying we would 
provide a 7-day supply of medicines to each of these shelters 
that were close to us.
    I then asked them to prepare a list of the shelters and fax 
it over to me, which they did. When I saw how extensive the 
list was, we enrolled the help of the other chain pharmacies. 
The following day we held a conference call with chain 
pharmacies.
    We also invited Larry Kolcot from CMS, who was a very big 
help in this process. What we did was we would e-mail out the 
list of shelters and how many evacuees were in these shelters 
and we would ask chains to adopt a shelter. And what adoption 
means is that the pharmacy chain that adopted the shelter would 
take responsibility for sending pharmacists over to the shelter 
and making sure prescription medicine were given to these 
people who needed it. We did this each day.
    As more shelters were opened in Texas and Mississippi, with 
these shelters, what we would do--if you've got a shelter 
typically of less than, say, 2,500 people, the most efficient 
way to provide medicine in the large shelters like the Houston 
Astrodome and George Brown Convention Center, places like that, 
mobile pharmacies were dispatched.
    I think this was a real good example of the value of 
community pharmacy and what we can do. You did not hear a lot 
in media about the independent pharmacists, but I'll tell you 
the independent pharmacists also participated in this to the 
extent they could.
    The recommendations that I would have for this panel as 
we're looking at Hurricane Rita and we know that other 
catastrophes will happen, one way we could organize the need 
for prescription medicines is for the Federal Government to 
create a Federal Government disaster prescription drug program 
very similar to what employers have for their employees, or 
with the Federal Government you have a little plastic card 
that's in your wallet you use to purchase prescriptions. Under 
this Federal disaster, the Federal Government would get a VIN 
number and they would set up the parameters of what drugs would 
be covered, what days supply and, very simply, the Federal 
Government could turn on this plan electronically whenever a 
disaster hit.
    By doing that, there's some distinct advantages. You could 
have every community pharmacy in the Nation participate. If you 
think about emergency response and how do you get drugs to 
where they're needed, 95 percent of Americans live within 5 
miles of a community pharmacy. So wherever the disaster is 
you're going to have community pharmacies with personnel and 
drugs already on hand.
    This prescription drug program would also give the Federal 
Government real-time access to what prescriptions are being 
dispensed, the names of people and what shelters they're at.
    The second thing I'd recommend is, when we talked earlier 
about the national data base, and I think Mr. Engle and also 
Dr. Hoven mentioned the importance of having medical 
information. Dr. David Braylor with the Health Information 
Technology Group in HHS has been working for the last couple of 
weeks with three different pharmacy technology companies as 
well as chain pharmacy and independent pharmacies to create a 
data base. I believe today they are announcing that. They have 
over a million health care records of people in the path of 
Hurricane Katrina. I would recommend the committee take a 
closer look at that and say, how can this be applied to other 
areas when a disaster is coming.
    Overall, besides working the prescription network, I was 
also involved with responding in Mississippi and in Louisiana 
with other health care needs, supplies to hospitals, nursing 
homes. And I would say, in general, the biggest thing I saw 
was, if we were going to focus on something to make this 
better, is to look at fuel, look at communications and look at 
coordination. One piece of coordination I'd like the committee 
to consider is if emergency responders had a phone number they 
could call in and their needs could be posted on to a website 
that was monitored by FEMA or the emergency operations center 
of a State, they could--the State could see all the needs that 
were coming in, determining if they were valid needs. And then 
if they wanted to respond, they could do it with a FEMA 
response, a Federal response, or they could post that over to 
another website that was open to authenticated suppliers who 
could look at what those needs were, and those suppliers could 
respond. So, for instance, if there was a need for water or if 
there was a need for medicine you could go to a web page and 
you could see that being posted by FEMA and a supplier could 
come back and say we can respond back in 1 hour, we could 
respond back in 2 hours. Thank you.
    [The prepared statement of Bob Dufour follows:]
   Prepared Statement of Bob Dufour, Director, Pharmacy Professional 
Services and Government Relations, Wal-Mart, Inc. on Behalf of National 
                    Association of Chain Drug Stores
    Mr. Chairman and Members of the Subcommittees on Health and 
Oversight and Investigations. My name is Bob Dufour and I am Director 
of Pharmacy Professional Services with Wal-Mart.
    I am here on behalf of the National Association of Chain Drug 
Stores (NACDS). NACDS asked me to testify because of my involvement in 
helping to coordinate the chain pharmacy industry's response following 
Hurricane Katrina.
    The purpose of my statement today is to help the Committee better 
understand the response of the community retail pharmacy infrastructure 
to the Hurricane Katrina disaster. We would also like to provide some 
recommendations that would help facilitate the role of community retail 
pharmacies in responding to future public health emergencies.
     retail pharmacy supply chain role in public health emergencies
    There are about 56,000 community-based retail pharmacies in the 
United States. There is a community retail pharmacy within 5 miles of 
95 percent of the population in the United States. Therefore, retail 
pharmacies are an important point of entry into the health care system 
for most Americans.
    Hurricane Katrina showed us that the existing community pharmacy 
infrastructure plays a vital role in providing medications and other 
health care products and services to individuals in their communities 
during public health emergencies as well as daily activity. Obviously, 
in many communities located within the Gulf Region, much of the health 
care infrastructure was devastated and will have to be rebuilt. We look 
forward to working with the Committee to ensure that this vital 
infrastructure is restored as more and more people return to their 
homes.
    As evacuees from the Gulf Region were relocated to various places 
across the United States, pharmacists and pharmacies helped to respond 
in many different ways to meet the health care needs of these 
individuals. First, many pharmacy chains established mobile pharmacies 
in evacuee centers and other areas along the Gulf Coast so that they 
could provide prescription drug services and other health care items to 
these individuals. We all heard news and press reports about 
individuals who had been evacuated without vital health care supplies 
such as insulin and other prescription drugs, which are needed to 
sustain life and health. Pharmacies worked with physicians at these 
evacuee sites to assess each patient's health care status--given that 
they had little or no medical history with them--and get them started 
back on their prescription therapy.
    Many community retail pharmacies also filled tens of thousands of 
prescriptions for evacuees that were relocated to smaller shelters or 
temporary housing. Many of the evacuees were low-income individuals who 
are Medicaid recipients in their home state, and obviously they did not 
have their Medicaid cards with them when they came to the pharmacy. 
Others had lost their insurance information, or had no insurance at 
all. We have been working with the Centers for Medicare and Medicaid 
Services (CMS) and host state Medicaid agencies to ensure coordination 
with their efforts.
    Thus, as policymakers consider what might be changed in the future 
to make those responses to public health emergencies more effective, it 
is equally important to ensure that we maintain and strengthen 
infrastructures that are already in place that can respond quickly to 
emergencies within the communities in which people live. One of these 
infrastructures is the neighborhood retail pharmacy.
    We all agree that the nation needs certain stockpiles of 
medications and other supplies readily available to ship to emergency 
centers or disaster zones. However, when it comes right down to it, 
there are many more community pharmacies and other types of local 
health care centers that are accessible and convenient to people in 
their communities. The retail pharmacy is at the heart of this 
distribution system, and each part of this system--from the drug 
manufacturers to the wholesalers to the pharmacies--responded in such a 
way to keep the flow of prescription medications moving to shelters and 
the pharmacies and ultimately to the evacuees.
    The success of the prescription drug distribution infrastructure in 
serving the needs of evacuees is best demonstrated by the fact that, in 
a survey of evacuees in Houston shelters, 67 percent reported that 
there was not a time since they were evacuated that they did not have 
their prescription medications. States have been reassuring the 
pharmacy industry that they will do everything they can to see that 
pharmacies will be compensated at some point in the future for 
providing these services to their residents. We appreciate the efforts 
of the Bush Administration in granting a Medicaid 1115 waiver to the 
state of Texas to establish an uncompensated care pool to help pay 
providers like pharmacies for the care that they provided to evacuees 
with and without any form of prescription coverage. NACDS is hopeful 
that other states will adopt similar measures. In addition, it is 
important that the federal government consider developing a clear 
policy to address the reimbursement of health care providers for 
uncompensated care.
           organizing the retail community pharmacy response
    To facilitate the response of community pharmacy to the Hurricane 
Katrina crisis, NACDS and other pharmacy-related associations and 
interests were in daily communication. These daily calls allowed us to 
ensure that we were quickly deploying resources where they were needed, 
without duplicating efforts. For example, pharmacies were adopting 
shelters, meaning that a chain pharmacy would take responsibility for 
providing pharmacy services to that shelter. This method allowed a 
quick coordinated response and prevented duplication of efforts to 
service the prescription needs of those housed at the shelters in 
Louisiana, Texas, and Mississippi.
    A large number of chain pharmacies and members of the supply chain 
contributed as well.

<BULLET> Wal-Mart helped to contact and organize contributions from brand and 
        generic pharmaceutical companies to provide replacement 
        medications for some of the products being dispensed by 
        pharmacies to evacuees.
<BULLET> Wal-Mart adopted 99 shelters to provide emergency medications.
<BULLET> Wal-Mart worked to help supply oxygen to health care entities in the 
        region that were running low on these vital supplies. Finally, 
        some of our stores in the area helped to supply medications to 
        nursing homes that were running out of these supplies.
<BULLET> CVS/pharmacy said last Friday that it has completed its emergency 
        pharmacy operations at the Astrodome in Houston, where it has 
        been filling prescriptions for Hurricane Katrina victims, now 
        that all evacuees have been relocated out of the stadium to 
        other facilities. Utilizing delivery service from area CVS 
        stores and two mobile pharmacy units on-site at the Astrodome, 
        CVS reported that it filled more than 20,000 prescriptions for 
        7,000 people who took shelter in the Astrodome. CVS/pharmacy 
        also deployed mobile pharmacy units to the Convention Center in 
        Austin, Texas, and Kelly Air Force Base in San Antonio, Texas. 
        It will continue to serve the prescription needs of Gulf Coast 
        evacuees at local CVS locations.
<BULLET> Walgreens offered to deploy as many mobile pharmacies as needed and 
        provided hundreds of pharmacists to dispense prescriptions to 
        evacuees.
<BULLET> Rite Aid is continuing to fill emergency prescriptions for evacuees. 
        The chain also set up temporary pharmacies at evacuee shelters.
<BULLET> Many other pharmacy chains, such as HEB and Kroger, sent additional 
        pharmacists to these shelters and the pharmacies that are 
        located in the Texas and Louisiana areas. This was important, 
        given that the demand for prescription services increased 
        significantly in the areas where evacuees were relocated.
<BULLET> Pharmaceutical wholesalers worked to ensure that needed products 
        would remain in-stock for dispensing, and helped to transfer 
        them to the shelters and the pharmacies.
<BULLET> Groups representing health plans helped to provide specialty drugs to 
        AIDS and cancer patients in the shelters.
<BULLET> Individual pharmacists and technicians at a large number of chain 
        pharmacies, as well as many independently-operated pharmacies, 
        should be recognized for their efforts. Many worked day after 
        day putting in long hours providing services to people in these 
        shelters.
               working with state public health agencies
    NACDS and community retail pharmacy also worked with state 
government agencies to help ensure that the response to the crisis was 
as organized as possible. Boards of Pharmacy from affected and host 
states worked with us to approve the use of emergency policies and 
procedures to provide needed prescription drugs to evacuees.
    For example, the combined efforts of the Louisiana Board of 
Pharmacy, Louisiana Medicaid Department, and Louisiana Department of 
Health and Hospitals were particularly instructive in coordinating a 
response to a crisis of this nature. These agencies immediately 
recognized a need to have a system that would provide timely access to 
medical supplies and pharmaceuticals. They recognized that the existing 
statewide network of community pharmacies and wholesalers could respond 
immediately and serve many of those in need.
    A state-based wholesaler provided the majority of bulk shipments 
needed to shelters, hospitals, and other areas identified by this 
group. Wal-Mart also responded with two shipments from its pharmacy 
warehouse. Many independent community pharmacists responded to the 
local needs of their community by providing emergency prescription 
medications.
    The efforts of the state of Mississippi in helping to ensure that 
their evacuees could continue to obtain Medicaid services should also 
be noted. The Department asked out of state pharmacies to provide 
prescription services to Mississippi Medicaid recipients during this 
emergency. The Medicaid program would reimburse these pharmacies at the 
prevailing Medicaid rate. Mississippi Medicaid did allow out of state 
pharmacies to use an existing ``in state'' Medicaid provider number if 
the pharmacies were under common ownership.
electronic database of evacuees' medical history and prescription needs
    One lesson that this unfortunate event has taught us is that 
electronic medical records are valuable in providing continuous patient 
care to displaced individuals, especially in cases where important 
medical and prescription information is lost, possibly forever. Our 
industry coordinated efforts with federal, state, and local government, 
as well as other industry partners through daily conference calls and 
work groups. This constant communication allowed us to collect and 
integrate as much medical information as possible about the evacuees' 
from various sources, including prescription files, and provide it to 
the health care professionals caring for those displaced by Hurricane 
Katrina.
    For example, in response to this need to create a better database 
of information about evacuees' prescription drug therapy, our industry 
has been working with HHS and the HHS' Office of Health Information 
Technology, headed by Dr. David Brailer, to create a single database of 
close to 1,000,000 names from the region affected by Hurricane Katrina. 
By working together over about an eight-day period, several chain 
pharmacies, SureScripts and Florida-based Gold Standard built the 
database and designed the interface that all participating health care 
professionals could use. The database lets a pharmacist, physician, or 
other health care professional treating patients know what medications 
an individual had been taking over the past ninety days. This system 
has been established just for people in the areas affected by the 
hurricane.
    A program that was initially piloted to a few chain pharmacies is 
now becoming available to growing numbers of pharmacies, doctors and 
other health professionals. With these records, the first question a 
physician asks--``What prescription medications are you taking?''--can 
be answered accurately.
    NACDS believes that this event has reinforced the need for a single 
national patient identifier number to help access those records. If the 
national patient identifier had been in use, then it is likely that it 
would have been easier and faster to match evacuees' medical 
information with their prescription information. This would have helped 
deliver care to these evacuees, who in most cases did not have any of 
their medical information with them.
  recommendations to enhance the public health response to emergencies
    We have already made some recommendations about how we might 
improve the ability of community retail pharmacies to respond to public 
health emergencies. We believe that community retail pharmacy worked 
well with various state and federal agencies, although there are always 
ways that the efficiencies of these interactions can be increased. Here 
are some ideas:
    Consider Federal Emergency Rx Claims System: The Federal government 
should consider establishing a system that would allow retail 
pharmacies to process prescription claims for evacuees through a 
special Federal prescription drug plan that would be used only in 
emergency situations. Many evacuees that filled prescriptions in our 
pharmacies were uninsured, or had prescription drug coverage, such as 
Medicaid and third party coverage, but did not have their 
identification cards, so pharmacies were not able to process their 
claims to the correct payers. While pharmacies filled prescriptions for 
these individuals, a Federal emergency system would help keep track of 
prescriptions that are being filled for evacuees, as well track the 
expenditures incurred by individuals for prescription drugs and other 
medical supplies.
    In the event of an emergency, the plan could be activated via its 
Bank Identification Number (BIN) or routing number. This would allow 
emergency prescriptions to be filled at any pharmacy in the nation. The 
adjudication of these claims in real time would provide the government 
valuable information on the medications being dispensed, to whom, and 
in what volumes. Parameters could be preset for reimbursement, 
eligibility, and other important factors. We would be interested in 
working with HHS, FEMA and other relevant agencies on this issue.
    Encourage Development of EMR Technology: Continue to encourage the 
development of electronic medical records, the use of the national 
patient identifier, and integrated databases that can be used both in 
delivery of medical care in ordinary times and extraordinary 
circumstances. We have a long way to go in developing the 
infrastructure necessary to support this system, but the disaster in 
the Gulf Region reinforces how important it is that the health care 
system maintains the ability for providers to deliver care to 
individuals wherever they might be.
    Strengthen Retail Pharmacy Infrastructure: Please do everything you 
can to strengthen and maintain the existing community retail pharmacy 
infrastructure. The disaster in the Gulf Region reinforces the 
importance of community pharmacies, particularly since many of them are 
located in rural areas, are often the ``first responders'' to the 
health care needs of many individuals, both in emergencies and in 
normal times.
    Post Specific Needs on Web: Fourth, the government may also want to 
consider a web-enabled program on which emergency responders could post 
specific needs. FEMA or state emergency response agencies could review 
these request, and respond with government resources, or determine how 
fast the private sector could respond to this request.
    Mr. Chairman, again on behalf of Wal-Mart and the entire chain 
pharmacy industry, we appreciate the opportunity today to provide the 
Committee this testimony. Thank you.

    Mr. Whitfield. Mr. Dufour, thank you.
    The next witness is Ms. Barbara Blakeney, President of the 
American Nurses Association. We welcome you and look forward to 
your testimony.

                  TESTIMONY OF BARBARA BLAKENEY

    Ms. Blakeney. Thank you, Mr. Chairman.
    It's a pleasure to be here today to be able to address the 
committee. Not only am I the president of the American Nurses 
Association, but I have been a nurse practitioner for over 30 
years with experience in public health, including 18 years 
working as a director of Health Services for the Homeless for 
the city of Boston. I have spent 18 years in shelters, Mr. 
Chairman, and I consider myself an expert in what happens in 
those shelters and what the needs are long term.
    ANA has been very, very actively involved in the work. Our 
State nurses associations have been very, very involved. 
Through our communications network, we have been able to 
trigger a response of over 20,000 nurses available and ready to 
respond to this disaster and, unfortunately, the disaster 
that's about to hit in Texas. We have board members currently 
in Gulfport, Mississippi, directly providing care, and I'd like 
to acknowledge today that Ms. Ricky Garrett, the executive 
director of the Mississippi Nurses Association, is here today 
and leaned over to me a half hour ago and said to me, it is an 
unusual experience to sit here and listen to us all talking at 
a systems level about the people that I know who have been 
harmed and killed. And so I'd like to try to put a face on who 
it is that we're talking about, Mr. Chairman.
    In the Gulf Coast, prior to Katrina, one out of every three 
children were dependent on Medicaid for their health coverage. 
Prior to Katrina, 22 percent of the Louisiana residents and 19 
percent of Mississippians lacked any health insurance, which is 
compared to a 15.7 percent ratio percentage nationally. Prior 
to Katrina, a family of three could not earn more than $174 per 
month in order to qualify for Medicaid in Louisiana. This is 
only 17 percent of the national poverty threshold, Mr. 
Chairman. Prior to Katrina, almost 24 percent of all 
Mississippians lived in poverty. It is very, very well known 
that poverty and ill health go hand in hand. These are the 
people who have been displaced, these are the people who 
currently sit in shelters, on broken porches, environments that 
are unhealthy and unsafe.
    And as we think about what they need in the short term, we 
must understand that long after this event goes below the fold 
on the front page of our local newspapers and long after the 
fact that this event goes to the back page of the newspapers 
and long after we have moved on to other events in this 
country, these people will still not be home. They will still 
not be healthy. They will still be in need of major, major 
support from an infrastructure that has been destroyed, an 
infrastructure that will take months to years to recover, 
hospital records lost, patients in the middle of chemotherapy 
without treatment, patients needing dialysis. The city of New 
Orleans has the highest rate of dialysis needed for people in 
the entire country. That infrastructure is gone. That 
infrastructure prior to the storm was not effective to manage 
the basic day-to-day needs, and now we're asking that 
infrastructure to manage the surge capacity that is not only 
short term but will go on for years.
    The American Nurses Association participates in a program 
called the National Nurse Response Team, which was originally 
designed and created in partnership with Health and Human 
Services in 2002. The goal of that program was to create 2,000 
nurses ready to go to be able to be Federalized in case of 
bioterrorism. To the best of my understanding today, we have 
700 nurses in that program. Many thousands of more are 
interested, but because there is a bottleneck in the paperwork, 
have not been able to sign on.
    That team has not been activated. It cannot be activated 
because this storm is outside of the scope of its mission. 
Recommendation No. 1, Mr. Chairman, is that we readdress that 
mission. Our ability to respond to a crisis is highly dependent 
on the strength of the infrastructure to respond to the daily 
needs of the people in this country. It is no secret that the 
health care infrastructure is in disarray. People waiting 8, 
10, 12, 24 hours in emergency rooms to receive care. If that 
system cannot respond to those people, Mr. Chairman, that 
system is no way able to respond to the overwhelming demands of 
the crisis that we have in front of us.
    We cannot afford to stop paying attention to the needs of 
the infrastructure. One of the things about public health is 
that public health is viewed as successful when things do not 
happen, when an outbreak doesn't occur, when an illness doesn't 
spread, when we have enough vaccine for flu. It's hard to 
measure how successful you are when something doesn't happen. 
It's the bane of all of us in public health.
    The bottom line, Mr. Chairman, is that we cannot respond to 
the daily needs of our citizens today, never mind a disaster. I 
could tell you what we have done as nurses and the heroic 
things of our nurses in Louisiana and in Gulfport, Mississippi 
and Biloxi and all the little towns we seem not to be thinking 
too hard about right now. But you already know those stories. 
We need to address the issues of the infrastructure that 
prevent us from being able to respond well. We can talk about 
all the things that the doctor talked about this morning, but 
if we cannot base those responses on an existing system that is 
efficient, effective, and functional on a daily basis, no 
matter how hard she tries, no matter how hard the rest of us 
try, it will not work.
    Our recommendations today are to expand the NNRT mission to 
allow appropriate advanced practice nurses to serve as primary 
case managers--it is amazing to me that that is not permitted 
under Federal requirements--to create a mechanism for seamless 
transfer of licensing authority during times of crisis. In some 
States, we've managed to do it very well, and in other States, 
we have a backlog of nurses, physicians and other licensed 
clinicians who cannot be authorized to practice because of 
cumbersome bottlenecks. We need to strengthen the health care 
infrastructure and increase access to care.
    The people I'm describing to you, sir, are among the 
poorest in the country. Their health care was poor to begin 
with. If we think that basic emergency responses are going to 
get them on their feet, it's not the case, and we delude 
ourselves if we think otherwise.
    I know that this hearing is not supposed to be about 
Medicaid, but I would be remiss, sir, if I did not say to all 
of you that that is the safety net. How big do we want to 
create the holes in our safety net? Big enough to drive a tank 
through or small enough to catch these people? Mr. Chairman, 
the challenge is to catch these people long after they drop 
below the fold on the first page of our newspapers. Thank you, 
sir.
    [The prepared statement of Barbara Blakeney follows:]
    [GRAPHIC] [TIFF OMITTED] T4248.001
    
    [GRAPHIC] [TIFF OMITTED] T4248.002
    
    [GRAPHIC] [TIFF OMITTED] T4248.003
    
    Mr. Whitfield. Thank you.
    And thank you for the testimony that all of you have given. 
We appreciate it very much, on a very serious issue. And at 
this time, we will go to questions. I will begin the question 
period. We'll each have the appropriate time, 5 minutes.
    Dr. Peters, thank you for being with us today. When you 
talked about the evacuation of your hospital, you mentioned 
that you moved the neonatal care up to Baton Rouge. Did you 
evacuate anyone else in the hospital in preparation for 
Katrina?
    Mr. Peters. We evacuated a few other patients due to some 
special needs that they had, but the great majority we did keep 
at our hospital.
    Mr. Whitfield. And the ventilator patients were kept there 
as well?
    Mr. Peters. Correct. We had a discussion of the pros and 
cons of transferring, moving those patients out. That was 
actually a day after the storm, when we were having power 
difficulties and looking at what were the risks associated with 
further power outages. We made the determination that we felt 
that we were best at that point, due to the myriad of 
communication issues on the outside and also some of the 
saturation of the spots where we would normally send patients, 
to keep them there.
    Mr. Whitfield. Were your hospital records destroyed or 
damaged?
    Mr. Peters. No, they were not.
    Mr. Whitfield. So they're in tact.
    Mr. Peters. They're all in tact.
    Mr. Whitfield. How would you describe your dialog with 
emergency officials and emergency responders during this 
period. Did you have to obtain any approval to move patients, 
or do you have the authority to do that on your own?
    Mr. Peters. I think we used various approaches. Because of 
all the circumstances and some of the challenges that we have 
all talked about, I think the communication piece or the 
difficulty with that caused us to look for multiple solutions, 
multiple different carriers to transport those patients. All of 
them were very responsive to us, but it was a matter of getting 
them lined up with us.
    One of the things that, into this, that we decided was that 
we really were going to have to make some decisions and take 
the ball and run with it. In choosing to transfer our patients, 
we lined up the transport and got them out.
    Mr. Whitfield. Now, did I understand you to say that, if 
you do not receive financial assistance within 7 to 10 days, 
that you will have to close the hospital?
    Mr. Peters. I didn't say that. What I did was say that each 
day us and the other two hospitals are losing significant 
dollars. There's a point that we all reach in the near time 
where we have to reassess services and how fully staffed we're 
going to be. To give you an example, we have a 450-bed 
hospital. Usually, we'll have about 400 patients in beds. Since 
the storm--we started the storm at 300--we dropped to about 
150. So we're running, if I do my math correctly, about a third 
capacity.
    We will be forced to quickly, as the other hospitals look 
at overhead, look at all the things that go into make our 
facility what it is and maybe have to make some hard choices. 
The problem with this is that once we start doing that, those 
health care workers that have other alternatives will leave the 
area. When the anticipated and almost certain influx of needs 
occur, then we're all going to find ourselves to be short-
staffed, to not have capacity. And what really, frankly, is at 
risk is we'll then have the second evacuation of patients from 
the greater New Orleans area.
    Mr. Whitfield. Congress has passed two supplemental 
appropriation bills in the amount of about $62 billion to FEMA 
to assist. Have you all been in discussions with FEMA about 
interim funding or assistance in funding?
    Mr. Peters. We've spent this week discussing this issue 
because it's so important to the three hospitals. We have 
talked directly with FEMA, and first off, I would say it is 
very complicated for us to understand, but our understanding is 
that there are certain regulations where FEMA can spend its 
money on the housing issue and for any damages done to our 
facilities, building damages, of which we all have, but those 
are not the issues at hand for us. We're talking about 
operational funds.
    Mr. Whitfield. You need payroll.
    Mr. Peters. We need payroll. There have been some 
suggestions of maybe there are ways to quickly alter some of 
the regulations of what FEMA can be supportive of.
    Mr. Whitfield. Is that what you were referring to in your 
testimony this morning when you said we need some regulations 
changed?
    Mr. Peters. Those regulations that I was talking about have 
to do with the support of the private practice of medicine. 
Today, as a hospital, I can do very little for a practicing 
physician because there is a suspicion that I'm going to induce 
him to send patients to me. What we're asking in these unusual 
times is a relaxation of things such as helping with their 
staffing, helping with rent and with areas of need, especially 
in primary care, direct financial assistance for a period of 
time to allow recovery. Also selected specialties, which are 
very important, because everyone has issues with recruiting.
    New Orleans especially is not an easy place to recruit 
people to. The cost to all of us to try to replace rather than 
to retain what we have is markedly different. That goes for 
hospitals also.
    Mr. Whitfield. Thank you, Dr. Peters.
    My time has expired. At this time, I'll recognize the 
gentleman from Michigan, Mr. Stupak.
    Mr. Stupak. Dr. Peters, you have heard us talk today about 
the Baucus-Grassley bill, which would make Louisiana people 
immediately eligible for Medicaid, and therefore, you'd have a 
flow of dollars coming in. Would that be of help to you, or is 
that too slow, too late? I understand what you mean about if 
you don't get geared, you're going to lose your hospital and 
doctors are going to be gone. You're never going to come back.
    Mr. Peters. I separate it into both short-term and long-
term issues. I think there have been a lot of very positive 
funding issues, whether it be Medicaid, whether looking at 
Medicare for a while with something like a critical access 
designation that gets hospitals, more temporarily, to a cost 
base reimbursement.
    All of those help us, but also, right now, today, even if 
the 150 patients that we have in the hospital were Medicaid, we 
still don't have the revenue coming in that support the 
operation, and that is true of our hospital and the other two. 
We're in this trough, and it's hard to judge when the trough 
ends because of the influx of patients coming back. We 
anticipate by wintertime part of that trough is going to be 
gone. So we're looking at a window of support to get us through 
that time.
    Mr. Stupak. Any suggestions you'd have? You mentioned a 
couple of them, some of the waivers. We'd like to see it. I've 
been on health care for, what, 12 years now. Some of us are 
very interested in that area.
    With Hurricane Katrina, we saw--I want to ask about the 
first responder communication, because I've been on this issue 
for years, ever since September 11. Being a police officer, 
I've seen it for decades. After every major event like this 
occurs, the President and everyone says, we're going to get all 
this communication stuff for first responders. That will last 
for about 1 year, never address it, even though we've had 
legislation for years and can never seem to get a hearing on 
it. Maybe one of these days we will.
    But the frustration in the faces of medical professionals 
who did not have communications, couldn't save lives, they 
certainly deserve our gratitude, but you also deserve our help 
and a better communication system. And I was listening to your 
testimony, and in there, you say that an alternative reliable 
communications service must be in place so that public 
officials, first responders and the health care community can 
firstly communicate their need situations and availability to 
assist.
    Can you please expand on this based upon your most recent 
experience? And do you have some specific recommendations about 
equipment and planning? Just explain the need for 
communications for us and then why it's so critical when you 
lose it.
    Mr. Peters. It's critical because, as we all dealt with 
this storm and any other disaster, any time you become 
isolated, you don't have all the facts to make your decisions. 
All of the planning for disasters involve a team approach. It's 
not just East Jefferson, not Charity Hospital; it's everybody 
being involved. And there is a plan in place. Along with that, 
there are always curve balls that happen, things that you do 
not anticipate. The security issue, which became a huge issue 
in this subject, the lack of communication, lack of awareness 
of what was going on, and just the unknown fear created 
apprehension within our hospital.
    I think the most difficult day we had at East Jefferson was 
the Thursday after the storm when there was a lot of stories 
about what was going on, that our hospital was at risk for 
violence, and our staff and both physicians and nurses were 
very appropriately scared. I think that was the most difficult 
to hold it together. If we would have had more information, 
been able to communicate more effectively, I think it would 
have made that markedly diminished.
    I'm not a communications expert. I don't have the 
solutions, but it also is very amazing how we all have become 
dependent on cell phones, and the cell phones were gone. I've 
heard people talk about ways to put up temporary towers. Again, 
this is way beyond my expertise, but the lack of that creates 
some significant holes; it really does. It allows for, I think, 
the lack of coordination of effort.
    Mr. Stupak. Had there been any effort to put an alternative 
communications system in New Orleans prior to Katrina?
    Mr. Peters.  Not that I'm aware of.
    Mr. Stupak. Mr. Cappiello, hopefully, I said that right. 
I'd like to ask you about your accreditation standards for 
emergency communications. You said in your statement that the 
organization went through a 5-year process to update the 
emergency preparedness standards in 2003. I'd like to know if 
the emergency telecommunications infrastructure is a criteria 
for hospital and other health facility infrastructure 
accreditation today.
    Mr. Cappiello. Thank you for that question. One of the 
things that our standards does address, it says that 
communication is a key component to planning and recovery from 
disasters. The standard, because the standard must apply to 
every hospital and every community in the United States, it is 
not specific. So the standard does not say that the standard 
must have--to meet the standard for communication, you must 
have 800 megahertz radios, for instance. We don't go that far. 
What we do say is, you need to look at your community, plan 
with the community and develop communications networks within 
the community that will stand up and be viable at the time of 
disaster.
    The reality is that some communities are simply not there. 
They just don't have the capacity and the ability to do that.
    Mr. Stupak. When you do your accreditation of hospitals, do 
you score them on that?
    Mr. Cappiello. What we ask is that--the standard looks for 
an emergency management plan that is robust, that is exercised, 
that is planned for, that engages not just that particular 
facility but sister facilities; that there's planning within 
the community and that there is contact between the hospitals 
and their community as they develop their emergency management 
plans.
    One of the requirements of that plan is certainly the 
ability to communicate. So we say that in your emergency 
preparedness planning, there must be thought given to and 
dialog with the community about how to communicate.
    Mr. Whitfield. The gentleman's time has expired.
    When you all were giving your testimony, I was pretty 
lenient, and I allowed everyone to go 2 and even 3 minutes over 
the 5 minutes. I'm going to try to get through a 5-minute 
opening, 5-minute questions from every member because we're 
going to be voting soon. And then those who are interested, I 
hope you would have time that, if we want a second round, we 
have an opportunity to do that.
    At this time, I recognize the gentleman from Georgia, Mr. 
Deal.
    Mr. Deal. Thank you.
    First of all, Mr. Dufour, I want to thank you for your 
efforts, your cooperation efforts, the efforts of the chain 
drug stories, of the private pharmacy community druggists and 
so forth and the pharmaceutical industry for the cooperation 
that you have outlined. I think it is truly one of the 
nongovernmental participatory efforts that have been a true 
success in this emergency. I just simply wanted to say thank 
you for that.
    Let me hit a couple of other topics right quickly. Mr. 
Simmons, you indicated that currently the Federal Tort Claims 
Act, as I understood your testimony, would not provide 
protection under it for your providers if they provided 
services off the site. That is my understanding.
    Mr. Simmons. Off site and across State lines where it's not 
my facility doing it, it is facility specific. The facility is 
deemed and the provider is contracted with the facility. 
Therefore, the coverage goes with the provider and the 
facility. In an emergency, if a facility in Ohio wanted to send 
a provider team, mobile van or just providers down to the Gulf 
Coast of Mississippi, there were questions and roadblocks as to 
whether or not they were covered under Federal Torts Claims.
    Mr. Deal. A community health center employee from one State 
could not go to a community health center in another State and 
still have that Federal Tort Claims protection. That is what 
I'm understanding, or it's questionable.
    Mr. Simmons. It is questionable.
    Mr. Deal. We need to straighten that out.
    Mr. Simmons. The main issue is: Is it going to a shelter 
or----
    Mr. Deal. I got you. Off-site from a community facility 
itself. I got you. Let me explore, because I think we've had 
two other witnesses, Ms. Blakeney, you alluded to it, and I 
think you called it the need for a seamless transfer of 
licensure or words to that effect. Let me ask you and Dr. Hoven 
in that regard, from your two professional points of view, 
we've heard the doctor talk about the Federal certification 
process. That seemed a little bit slow and cumbersome to me, 
quite frankly, and we do need, if that's the route we're going, 
we need to ramp that up in terms of the numbers of individuals 
pre-licensure, pre-certification so that we don't have to do it 
after the emergency and then cope with everything else that's 
going on.
    With regard to transfer and recognition of licensure, 
normally licensure is something that is a State prerogative 
through your State medical boards, et cetera. Are there 
reciprocity agreements among certain States to allow that? And 
if not, is that an area that your associations could explore, 
even if it were not a carte blanche recognition, to allow, 
through a reciprocity agreement, through the States, in a time 
of crisis, that this could be done? Both of you or either of 
you.
    Ms. Blakeney. Thank you, Congressman. It is a State 
authorization for licensure. What happens when a professional 
whose license is Federalized, as long as they have a valid 
license in one State, because they've been Federalized, they 
can move freely to provide services as long as they're working 
within that construct of Federalization. Where we get into 
difficulty is with people who have not gone through that 
process prior to the event occurring, so there's not a data 
base that people have not already submitted their paperwork and 
had all of that done.
    With the National Nurse Response Team, the 700 nurses who 
participated in that have completed that process and are 
available to be activated by the Federal Government. Volunteers 
going through the Red Cross, volunteers going through church 
groups or through individual activities have to go through 
their individual--move from their State, the affected State, 
and be approved in that affected State. Even though we all take 
the same licensing examination, the accreditation process 
within that State varies enough so that the State board has to 
individually look at each one of those candidates.
    Mr. Deal. So that's still a problem then.
    Ms. Blakeney. It is.
    Mr. Deal. Dr. Hoven?
    Mr. Hoven. Thank you. The AMA has particularly been 
concerned about this and has been working with the States that 
have been involved to do credential verification to expedite 
that in order to enable these physicians to participate in 
care. The AMA's master file, for example, has track of all the 
physicians since 1906 and can do primary source credentialing 
on all training, practice, et cetera, so it provides a very 
useful tool to be used in this particular setting.
    Mr. Deal. Thank you. My time is about out. Thank you. I 
would encourage everyone to work in that regard.
    Very quickly, Mr. Cappiello, I would wonder when you made 
the statement in response to the earlier question about 
communications that your standards have to be basically one 
size fits all, everybody has to have the same standards. I 
would simply ask, in your accreditation, it would seem to me 
that we all ought to say that there needs to be specialized 
criteria for those who are in harms' way or known harms' way, 
previous hurricanes, previous flooding; it would seem to me not 
only in the communications arena but also in the construction 
of the facility itself. We've heard about, why is the operating 
room not on the second floor rather than the first floor?
    I know I don't have time for a response, but I would tell 
you that I would be concerned that certification organizations 
ought to be looking at differentiating and not just have a one-
size-fits-all.
    Thank you, Mr. Chairman.
    Mr. Whitfield. At this time, we recognize Mrs. Capps.
    Mrs. Capps. Thank you, Mr. Chairman.
    Ms. Blakeney, there are over 2 million registered nurses in 
this country. You are the president of the American Nurses 
Association, by far the largest organization of the nurses, and 
I'm one of your proud members. So, today, in your testimony, 
you're really speaking on behalf of a profession deeply engaged 
in the delivery of health care services in this country. In 
fact, when we think about federally funded health programs, 
which Medicaid is one, and we think of who provides care for 
all of the people enrolled in Federal programs, it's the nurses 
across the land. And so you have credentials to speak on the 
topics that we're addressing today.
    And I know you also mentioned that you carry in your heart 
the stories of the nurses who are serving as we speak in 
difficult situations responding to this disaster, those that 
are Federalized and those that are frustrated because they're 
not, and the myriad of ways that nurses are engaged in 
addressing this situation that we have and also the underlying 
needs of those who do not have access to health care.
    Now, I want to focus if I could on a bill that Senators 
Baucus and Grassley have introduced, Senate Bill 1716, that 
would provide immediate federally funded medical assistance 
through Medicaid for Katrina survivors. States hosting Katrina 
survivors could cover all low-income individuals, not just 
those who would ordinarily be eligible for Medicaid, like 
pregnant women or children. This bill would ensure that the 
sick could quickly access, no matter where they are, health 
care treatments and wouldn't be delayed due to lack of 
insurance coverage. I know that several of the organizations 
represented on this panel have supported that bill, and you 
have indicated the American Nurses Association also supports it 
and supports full Federal funding for it.
    I wonder if you would expand on the reasons for that and if 
you would also like to further--at the end of your testimony, 
you mentioned your deep concern in your organization about 
proposed cuts to Medicaid. And if you'd like to have that be 
part of your answer as well.
    Ms. Blakeney. Thank you, Congresswoman, for the question.
    It is important that we be able to move quickly to provide 
care regardless of where the victims of the hurricane end up, 
both in the short term and in the long term. That needs to 
occur as seamlessly as we can possibly make it happen, and 
obviously, there has to be financing to support that. So 
anything we can do to relieve States of the additional burden 
that they carry because they have been hosts for these 
individuals, needs to occur. So in the short term, it's an 
important step to take. In the long term, I think we have to 
acknowledge and recognize that the people who have been 
displaced, the providers who have been displaced, the 
infrastructure that has been destroyed is going to take a very, 
very long time to reestablish. Some of it can happen very 
quickly, and it will look as though, fine, we're okay, we can 
move on. But the bottom line is, medical records are gone 
forever. Rebuilding peoples' health care histories, rebuilding 
their pharmacy histories, understanding what their needs are, 
are going to take a very, very long time.
    The bottom line is that it's going to take the region years 
to recover from this both economically and from every other 
component of societal thought and concern. So the long term 
investment needs to be there. We cannot afford to expect an 
infrastructure to respond effectively to a crisis and a surge 
capacity if it can't respond to its day-to-day needs. The 
bottom line is, as a provider of health care, as an individual 
who represents nurses who are so frustrated, they're leaving, 
that they're crying at the end of their shifts because they 
can't provide the kind of care that they need, to say to them, 
okay, now on a faulty infrastructure that's barely standing, we 
want you to surge to a new capacity, and yet they manage to do 
it for the short term. We've heard the stories. We know that.
    So the question is, how long can we ask a system that's 
crippled to be able to surge? We can't. It's not realistic. 
It's not possible. And to then turn around and blame the system 
for not being able to respond when the system has been terribly 
under-supported is just not fair.
    Mrs. Capps. So we need to do, and I heard this in your 
presentation, we need to do several things at the same time. 
That's not easy to do.
    Do you want to, just a few seconds left, go No. 1, No. 2, 
No. 3 in prioritizing, the triaging, if you will?
    Ms. Blakeney. We have to fund the surge capacity that's 
needed right now. We need to make sure the people who have 
dispersed all over the south and other parts of the country 
seamlessly can access care, No. 1. No. 2, we need to look to 
rebuild a structure that has been harmed and the locations that 
it's been harmed in. And No. 3, we need to take a very, very 
hard look at the harm that's been done to the health care 
system over these last couple of decades, and we need to fix 
it. We need to re-prioritize where health care goes. We need to 
focus on primary prevention and secondary prevention. We need 
take a look at preventing the things causing harm.
    In this country today, almost 50 percent of the health care 
burden is carried by chronic diseases, chronic diseases that 
are preventable or delayable. If we could delay the onset of 
diabetes for 5 years, billions of dollars would be saved. Those 
are the kinds of things we need to think about simultaneously. 
And you're right, it will not be easy. But if we don't do it 
now, it will be later. We have children with hypertension--
children with hypertension. We have children developing type 2 
diabetes. The cost of that alone is huge. We've got to turn our 
focus as much on prevention as we do on acute care because it 
will be expensive. It'll be a whole lot more expensive later 
on. We're going to have people dying young, not old.
    Mr. Whitfield. The gentleman from Illinois.
    Mr. Shimkus. Thank you very much, Mr. Chairman.
    This has been a great panel, and I want to appreciate all 
your testimony. There's really so much there that you just 
can't get a handle on. It's a big disaster in so many different 
arenas. I'll try to run through a couple of things.
    First of all, one of the most frustrating things about 
health care is the payment scheme or the lack thereof and the 
cost shifting, and I think that's talking to part of the 
preliminary problem. I wouldn't totally just disregard reform 
because, in the debate, Ms. Blakeney, as you just mentioned, 
that if we reform our entitlement health care programs that are 
designed primarily to do the amputations from diabetes instead 
of initial diabetes screening and care--that's our current 
system right now. So reform would be, let's do preventive care.
    In the Medicare reform bill, the Welcome to Medicare 
screening, which was never done before, is an attempt to start 
caring for people and managing their health instead of just 
doing the catastrophic emergency operations. People still flock 
to the United States because it has the best health care system 
in the world. We have a funding issue, and it's really tied to 
this, though, because if we talk about--with my military 
background, the military has been trying to go digital with dog 
tags. Now this would address records, the medical records for 
our soldiers. Because this is the same issue, what happens on 
the battlefield, what if there's a catastrophe, the guy can't 
talk, you can't get his papers out in the mountains of 
Afghanistan? So you put him on a digital dog tag. And with a 
catastrophe this size, that's kind of what we're talking about, 
or having a stockpile of digital records somewhere or dispersed 
in different areas so when the individuals comes in, if they 
can speak and give you some identification, maybe it's 
biometric. I mean, we will have constitutional debates over who 
keeps digital records, how they're stored, who can access, but 
that's kind of one of the major hurdles that we're facing. When 
people are displaced to the Superdome, and they say, I need a 
drug, I'm taking a drug, I don't know what it is though, it's a 
little green pill, I've been taking it for 3 years, I don't 
really remember the name anymore.
    So I don't know how to solve that. But these are the 
debates that we have to have and start thinking outside the 
box. I live in Illinois, along the Mississippi River, the New 
Madrid fault has been a concern forever until it breaks again, 
and then we're going to have a catastrophe like this.
    I've been talking to my community about this sister city 
relationship that they ought to develop more extensive, not, 
hi, I'm your mayor, you're the mayor, let's shake hands and 
here's the key to the city, but also go across State lines to 
do mutual supporting operations.
    And I'm wondering if the hospital association is now 
looking at sister hospital relationships out of region, like 
Louisiana hospital marrying up with a hospital in Virginia or 
one in Illinois, or maybe for Illinois, we would have to look 
at, if my communities wanted a sister city relationship that 
would do mutual support, maybe firefighters, policing and stuff 
if the New Madrid fault broke, they'd have to go to Indiana, 
they may do one with a city in Missouri, but if the bridges are 
all down, it doesn't help.
    So I think we have to also think in that vein. I also 
wanted to mention, on the communications issue, because the 
telecom subcommittee has been working on this, what the first 
responders need is, we need the 7 megahertz band. That's what 
our digital transition bill is all about. This will just add 
fuel to the fire to make sure that that's moved so that it's 
not--they need more space to be able to communicate across the 
lines.
    We have--I'm going to finish on this. I think that this 
country, because of the health funding issue--I'm not a one-
payer guy, I don't believe in national health care delivered by 
the Federal Government, because we know how well the government 
provides services. I'm not sold on it. But I do think it's time 
for us to debate--like other industrialized nations making sure 
that everyone has access to some type of health insurance 
policy. I think that addresses a lot of the crises of 
portability of records. It may be a critical care model, but 
even the industrialized nations that have national health care, 
many of their models are insurance projects. They'll give their 
citizens three or four choices of different insurance products 
that would be portable based upon the event if there were truly 
a national policy. So we're working on it.
    Thank you. Although I didn't ask any questions, you spurred 
a lot of, obviously, thoughts in my mind, and I appreciate it. 
I yield back, Mr. Chairman.
    Mr. Whitfield. Thank you.
    At this time, the gentleman from Illinois, Mr. Rush, is 
recognized for 5 minutes.
    Mr. Rush. Thank you, Mr. Chairman.
    Mr. Chairman, I really want to congratulate the chairman of 
the committee for--and I want to thank him for bringing Dr. 
Simmons in as a part of this hearing because I know that, in my 
district and other similar districts throughout the nation, 
community health clinics are really indeed on the front line, 
in the trenches along with hospitals, but I think that there is 
a place, a vital role that community health clinics play in the 
delivery of health care. And if there is one thing that we all 
can agree on as a result of what happened in Louisiana with 
Hurricane Katrina, that is that there is a segment of our 
society that is invisible, that just is very much in need but 
because they don't have a particular voice as a group. They are 
not heard by many of policymakers, including Members of 
Congress, and so their needs are mostly unmet.
    First of all, I have a couple of questions, and before I 
return to this theme, I want to ask I think Dr. Kirsch, if I'm 
not mistaken, Dr. Kirsch, I want to ask, at a meeting, a 
breakfast meeting that the Congressional Black Caucus had with 
the president of the American Red Cross, specifically in the 
aftermath of Katrina and days immediately following, the 
question was put to her, why did the Red Cross hesitate to go 
into New Orleans? They were out on the outskirts for a couple 
of days, 2 or 3 days, but they didn't go in. And she said that 
they didn't go in because of the Governor's refusal to allow 
them to go in.
    I just wanted to concur, is that a statement that you would 
make for the record?
    Mr. Kirsch. She knows better than I do, but I can tell you 
that the primary mission of us is to create shelters in safe 
environments. That was my mission, to make sure the 
environments were safe. And if there is any question of 
environmental or any other type of safety, the Red Cross will 
not establish shelters in those areas. We usually defer to the 
State or local officials to make that determination, in fact, 
now working with the State public health department in 
Louisiana to look for sites to go back into just prior to the 
evacuation.
    Mr. Rush. So was the appearance of the unsafeness of the 
area, was that instability caused by the flood or was that the 
threat of so-called--so-called threat of violence? Which one?
    Mr. Kirsch. There are many factors that go into safety from 
my point of view. Being a public health official, my concerns 
were always based on the multiple warnings coming out from 
State officials about contamination and don't get people in 
there and let's get everyone out. So the directive was to move 
as many people out. And I believe, I'm not privy to the 
ultimate decisions made by the Red Cross leadership, but I 
believe that was the primary reason.
    Mr. Rush. Mr. Chairman, I believe, and witnesses, I believe 
that our public health system in this country was stretched 
almost too thin anyway prior to Katrina as it relates to poor 
people. And I just would like to ask, Mr. Simmons, in these few 
seconds that I have left, can you express your opinion about 
the health care delivery system as it relates to poor people 
now and how that played into New Orleans and the catastrophe at 
New Orleans?
    Mr. Simmons. If I may speak personally as a health care 
provider and not necessarily speaking for the national 
association as its chair, I know it is our job to try to assure 
that patients don't fall through the cracks, so they depend on 
community health centers to maneuver the waters and all the 
bureaucratic red tape to assure they get care. One of the 
reasons we indicated our concern that health centers be 
involved as part of first responders is because the population 
is used to going to that location, asking those people to help 
them, assist them with whatever. I am also convinced that a 
large majority of the population that was in the Superdome and 
the Convention Center were patients of the community health 
care system in the city of New Orleans. It is stretched, and it 
is frayed, and there has been tons of money--well, not tons, 
lots of money placed into the community health center 
appropriation line, and we need that, but we have to look at 
what is happening to the existing infrastructure and demands 
placed on health centers.
    Mr. Whitfield. The gentleman's time has expired.
    Recognize the gentleman from Texas, Dr. Burgess, for 5 
minutes.
    Mr. Burgess. Dr. Simmons, let's continue along the line 
that Mr. Rush was just asking about. If the health care 
delivery system for disadvantaged individuals, presumably your 
community health care center is the model for the sort of the 
provider of last resort, how many people across the country are 
cared for in community health centers as their only source of 
care?
    Mr. Simmons. I can't tell you the exact number of how many 
as their only source of care. I can tell you, as of the UDS 
reports as of 2004, about 15 million people were served across 
the country.
    Mr. Burgess. Fifty or fifteen?
    Mr. Simmons. Fifteen million.
    Mr. Burgess. I know when Secretary Levitt was down in 
Dallas visiting one of the shelters, he maintained that one of 
his visions was to--I don't think he used the word, the adverb, 
maybe I wish he had, but to expand the community health centers 
in areas that previously may not have had them in order to 
provide ongoing care because we have a number of individuals, 
the Mayor of Fort Worth calls them guests, but I believe 
they're going to be residents of our city, that previously 
received their care at a community health care center and may 
well need to--we have parts of the city that historically are 
poor but don't have a community health center available to 
them. We do have the Tarrent County Hospital District not too 
far away, but one of the things that's impressed upon me in my 
few years in this job is: Access is one thing; utilization is 
another. And the community health center has an advantage in 
that it is in the neighborhood and visible, and hence, 
utilization tends to go up.
    Do you have any thoughts on that? Do you think that was a 
genuine expression that Secretary Levitt made that we're 
perhaps going to see the expansion of community health care 
centers as a consequence of Project Katrina?
    Mr. Simmons. I'm not going to try to speak for the 
Secretary, but I will tell you, the National Association of 
Community Health Centers supports the President's expansion for 
community health senior centers across the country. One of the 
reasons is because we're sure, to the best extent of our 
ability, that no one falls through the cracks.
    Mr. Burgess. This is one member who will work with you to 
see that the President is true to his word, and the Secretary 
as well.
    Our representative from the Joint Commission of Hospitals, 
Mr. Cappiello, you heard, if you were here during the early 
part of the day, the anxiety and angst in my voice about 
hospital generators being located in the basement. We learned 
that lesson with Tropical Storm Allison in Houston and those 
very dramatic stories of residents carrying patients on a 
ventilator down a staircase to get to an ambulance. I know it's 
not the Joint Commission's job to site those generators when 
the hospital is built, but surely it's your job when you come 
in and inspect the hospital and certify it as functional and 
safe, that its emergency equipment, i.e. A generator, is it 
going to be one of the first casualties of a hard rain? Would I 
be wrong?
    Mr. Cappiello. You would be correct. I think the issue of 
generators is a complex one. And here is a place that perhaps 
the Federal Government can help. Even if you remove generators 
out of the basement of many of our facilities, a lot of the 
switching gear for that power and the power panel still resides 
in the basement or in susceptible floors. Now my background is 
not that of an engineer, but I understand that even if you move 
the generator but the sources of going from the generator into 
the hospital still flow through those bottom floors, you still 
have the same problem. So the generator is dry, but it shorts 
out for other reasons.
    Mr. Burgess. I'm a simple country doctor, but surely 
someone is smart enough to pick that out, particularly in 
hospitals that live in coastal areas where flooding is a way of 
life. It's happened in Houston before. I pray that it doesn't 
happen Saturday morning, that we hear the same stories all over 
again in the hospitals in Houston. Again, I pledge to work with 
you. I'm not trying to be antagonistic about this, but we can't 
keep learning this same lesson over and over again.
    Mr. Cappiello. I could not agree more. I guess I started 
out just giving that as a little explanation that the problem 
is not just generators alone, but it's a bigger problem. So you 
have to look at this problem in its whole, not just in its 
exponent part. The problem is, if you go back and you look at 
many of these facilities that may be as old as old Hill-Burton 
facilities and the generators were built down there in those 
basements, the replacement, the capital expenditure to move 
generators and replace generators is quite enormous. And many 
of the hospitals in the United States are sort of on the 
financial edge. And to layer on a requirement to do a fairly 
significant, for some of these facilities, project at great 
expense, I think that if you're going to ask that--and I think 
it's the right thing to do--I think there needs to be some 
support to do that.
    Mr. Burgess. I wouldn't completely rule that out, but you 
hold a lot of power in your hands. I know from my days that I 
spent in the hospitals that if you give someone, I forget 
whether it's a 1 or 5 or whatever, I mean, they respond. And 
I've seen private for-profit hospitals pay a great deal of 
money to overcome those deficiencies.
    Mr. Whitfield. The gentleman's time has expired.
    The gentleman from Pennsylvania is recognize for 5 minutes.
    Mr. Pitts. Mr. Chairman, I yield my time to Dr. Burgess.
    Mr. Burgess. I thank the gentleman.
    Dr. Peters, I apologize, I wasn't here when you gave your 
testimony. Dr. McLennan, I was chairing a meeting he was 
speaking at along the lines of preventive care. He was telling 
a good story from the perspective of one person at the table.
    Dr. Peters, I know you had a week that you would hope to 
soon not ever replicate. Can you tell us a little bit about 
what happened to you and your group at the East Jefferson 
Hospital during Katrina?
    Mr. Peters. Sure. We geared up for the storm per our plan, 
brought staff in, both medical staff and our hospital staff. 
Issues that we dealt with were the communication issues, a 
sense of isolation of not being able to effectively communicate 
with the outside world. We dealt with power issues. Our 
generators fortunately are 12 feet up, and we were able to keep 
going, although even with that, we had to conserve energy; no 
air conditioning, which put some demands on patients, and we 
had to be very careful with that.
    Security was probably the third component that caused a lot 
of issues. As I mentioned before, I think that that was 
probably the biggest difficulty that we had, the perception 
that we were at risk. Fortunately, we never really had violence 
on our campus or close to us, but our employees heard about 
that, our medical staff heard about that, and fortunately for 
us, the National Guard, the local police responded when we were 
able to get in contact with them and provided good security.
    So those were the three variables that I think placed a lot 
of demands on all the people providing the care. Fortunately 
for us, I'm able to say we did not lose a patient; a patient 
did not die that we would attribute to the storm, and I think 
that that's a lot of good work that people did.
    Mr. Burgess. I would agree very much with that statement. 
Did you ever feel that it was hard for help to get in to you? 
Clearly, you have got a generator that's not going to go out, 
but it's only designed to get you through a period of power 
outage, not meant to be your main source of power from then on. 
So the evacuation, were there impediments to the evacuation 
that were encountered afterwards?
    Mr. Peters. As far as the generator goes, we did have 
concerns. And there were a few days there that just getting the 
diesel fuel to continue the generators got to be a little bit 
dicey. We had to search in multiple different directions. Some 
of our Jefferson Parish officials helped us with that. I think 
that it makes you look at things differently, and constantly it 
caused us to reassess, and like a lot of things in life, you 
weigh the risks of whether something is going to happen or not 
going to happen.
    And just the balance of that with trying to decide whether 
to transfer patients or not 2 or 3 days into it, you know, what 
are the odds of that generator going down and what is going to 
happen to those patients that are there? And I personally think 
there are no right or wrong answers, it's a matter of judgment 
and leadership and making the calls and moving on Mr. Burgess. 
Well, I just have to tell you from my perspective, probably 
some 400 miles west, I got a call in the middle of a night from 
a mayor who said, you're a Congressman but you're also a 
doctor, and I've got have a friend of a friend of a friend who 
is having trouble getting a patient out of the hospital. And I 
said, come on, it's midnight, there's nothing I can do. The 
next morning I thought, well, maybe I should at least call this 
friend of a friend of a friend, and I did.
    And as the story unfolded, what he reported to me was 
actually accurate, that there was a hospital, a specialty 
hospital that maintained patients on a ventilator, and they 
couldn't the get their patients out; the ambulances had been 
stopped at the gate--I don't know where the gate was. And 
indeed when I talked to this person I said, well, where are the 
patients now if they're not in the hospital; and she said 
they're at the corner of I-10 and the causeway. And I said what 
building is that? And she said, well, it's just the corner of 
I-10 and the causeway. And I said, ma'am, you mean to tell me 
you've got patients on the medium? And she said, no, they're on 
the side of the road. Well, it turns out that was actually 
true, and through some phone calls we did get the ambulances in 
later that day.
    And of course I had gotten my call at midnight, so we were 
easily 12 or 14 hours into that ordeal for those poor people. 
And then I saw the news that that they was exactly right, there 
were people on the side of the road on gurneys being hand 
ventilated. I've got to tell you, that just left me with a 
terrible feeling that--how poorly we were prepared, State, 
Federal, local. I guess this was a private hospital, so 
certainly they weren't prepared, though they did have the 
facilities to evacuate the patients, they had new facilities 
for them to go to, obviously it became much harder as you got 2 
or 3 days into the time post hurricane than if they had 
transported them the Friday night before. These are just things 
that we've got to work on for the future.
    Thank you, Mr. Chairman, for your indulgence.
    Mr. Whitfield. Thank you, Dr. Burgess. And there's no one 
else to yield time to you, so----
    All of us have completed one round of questions. You all 
have been very patient and your testimony is vitally important. 
And we're going to have a series of about 7 votes probably 
within about 10 minutes or so, so if you would remain with us, 
we would like to just give everybody an opportunity to ask 
another couple of questions, if that's okay with you all. And I 
will go first.
    First of all, Dr. Hoven, you had mentioned in your 
testimony I think that the physicians and other healthcare 
professionals must be better trained in how to respond to 
disasters. Would you mind elaborating on that a little bit?
    Ms. Hoven. I would be very glad to.
    Physicians are trained in the daily care of their 
profession in delivering healthcare, but disaster preparedness 
and public health preparedness are special issues; some of us 
are trained more than others in that area. In that light, the 
AMA has actually undertaken an education and n training program 
which has been extremely well recognized and accepted, now 
training up to about 14,000 physicians in public health 
preparedness and disaster response. There are special issues. 
And we learned anecdotally after Katrina that, in fact, those 
physicians who had been trained this way, when they went in to 
do the work that needed to be done, actually were much more 
efficient. So this is something that we would encourage and 
continue dialog with our colleagues throughout the country on.
    Mr. Whitfield. Thank you.
    Dr. Peters, you had talked about you're losing $500,000 a 
day, your hospital, and certainly fixed costs are so much, and 
are you losing this money because of the lack of patient load 
right now? Or----
    Mr. Peters. Yes, it's a patient load, both on an in-patient 
standpoint and out-patient. If you think about all the things 
that people access hospitals for.
    We're very optimistic that that's going to return, and 
that's why we feel it is worthwhile in asking for those short-
term assistance so we can maintain the capacity that we 
currently have.
    Mr. Whitfield. Okay. And three hospitals are still in 
operation, or 4?
    Mr. Peters. Four; one of which is on the north shore, which 
received less damage.
    Mr. Whitfield. And how many are closed, do you know?
    Mr. Peters. Eight are closed.
    Mr. Whitfield. Okay. And Dr. Simmons, on the community 
health center, I know that there are some very stringent rules 
about using community health center money for capital projects, 
and I guess there's a prohibition on that. So how do you go 
about rebuilding this community health center?
    Mr. Simmons. We are requesting Congress to reconsider that 
line or that regulation in terms of allowing 330 funds to be 
used for capital such that an increase in funding for that 
purpose, but right now we're doing the best we can. Hopefully 
the health center had insurance and it will pay some portion.
    We also have access to file a claim with FEMA, but that's 
going to be after insurance does what it's going to do, if it 
does anything. So the facility will be down unless there is 
some direct grant fund or authority granted to health centers.
    Mr. Whitfield. Thank you.
    Dr. Kirsch, how would you briefly describe the medical 
condition of the people at the centers that you are responsible 
for?
    Mr. Kirsch. I think from both my indirect observations in 
dozens of shelters, as well as from interactions at the major 
emergency hospitals and the D-MAT teams, the major issues are, 
like everyone has mentioned, the chronic underserved population 
and their health needs, and the lack of prescriptions, the lack 
of access to medications, et cetera, was just an overwhelming 
program earlier. One of the D-MAT team guys complained to me 
that, you know, I came down here to do surgery in the field and 
all I've been doing is writing prescriptions for people for 
their blood pressure medication. But that's truly the need that 
we identify in the field and that's what has to be addressed.
    Mr. Whitfield. Thank you.
    Mr. Stupak.
    Mr. Stupak. Thank you.
    Mr. Simmons, you mentioned, in earlier questions, that you 
and Dr. Peters were talking about how to keep the hospital 
going if you're down to one-third of your clientele, yet 
Secretary Leavitt and the President are saying we should have 
more community health centers being built, and that's going to 
take about 6 months. So if we don't have a population base 
that's strong enough to support the hospital, why put a layer 
of community health services on top of it, presuming you don't 
have enough people to support the community health centers then 
either at this point in time. So aren't we really just 
duplicating and further driving the health delivery system 
further into bankruptcy in the New Orleans area? Sure, Dr. 
Peterson.
    Mr. Peters. I think one of the things that has happened--
which is very unfortunate, obviously, of this storm--but it is 
an opportunity to really ask the questions, what does the 
system and the region need to move forward. And I think a knee 
jerk replace everything that was there before, at least the 
questions should be asked. You know, we're talking about three 
facilities that are currently in operation. We anticipate, with 
the influx of people coming in, that on the in-patient hospital 
side there will probably be capacity issues, not enough beds 6 
months out. So the question has to be, well, should all 
hospitals that were damaged have a lot of dollars put into them 
to rebuild? And how is the general population best served?
    Our Governor, when she was elected, had a healthcare task 
force 2 years ago, had a lot of experts come in and really were 
very, very supportive of everything that has been mentioned 
there, preventative care, community clinics, to move away from 
just sick care. A combination of that with using existing 
facilities, looking at where the holes are graphically I think 
is what needs to be done at this point without just repeating 
the past.
    Mr. Stupak. It reminds me a little bit like those debit 
cards, we gave everyone $2,000 and everybody was just standing 
in line changing. We needed more and more debit cards, not even 
knowing if the people who were supposed to get them were 
getting them. And I don't want to see that continue to happen, 
especially in healthcare, it's an issue near and dear to my 
heart. And community health centers I have in my district, I 
support them, I will do everything I can to help the qualified 
clinics, but I just don't think we start throwing more stuff 
into New Orleans without really understanding what's going on.
    So in the meantime, in the 6-month period then what do we 
do? I asked about the Baucus bill and the Grassley-Baucus bill, 
how do you get those services back, keep you afloat, but 
provide service to the constituency that's there until we get 
that built up, it's going to take at least another 6 months?
    Mr. Peters. When I talked about the other facilities that 
are currently not open, I think there's efforts for them to 
gradually reopen, but probably not to the same scope that they 
were before. So if we have several out-patient facilities and 
an emergency room in Orleans Parish, that's a start, it's a 
start providing those initial care for those patients.
    The three hospitals have made a commitment that we're going 
to step up for the hospitalization of those patients in Orleans 
Parish. I think working with some of the existing physicians, 
some of the academic centers, I think some unique things could 
be put together to serve that ambulatory population.
    Mr. Stupak. Mr. Simmons, do you care to comment at all on 
this?
    Mr. Simmons. Thank you, sir. Most of the population that 
has been evacuated from New Orleans, that burden has become on 
now other community health centers because it is a natural 
thing for a person to look for the system of care that they've 
been usually getting their care. One of the reasons we're 
talking about now providers and the funds being available to 
health centers for the increased burden.
    It is also a need for health centers in the area to be able 
to be--if the population is underserved, I'm not sure where the 
underserved population is going now in the city of New Orleans, 
with the health center service, in our opinion, totally 
destroyed. And most of the care probably is at the Charity and 
Tulane and some of the academic health centers in the area. 
There is a need for mobile or some type of medical service that 
will address the returning evacuees that are going back there 
to take those jobs in the service industry and other places.
    We do want to commend Secretary Leavitt, they have moved up 
funding for the December 1 round of 330 health centers that was 
going to receive funding, and in the affected States they can 
begin to expand and do some things, but it doesn't address the 
issue, Chairman Whitfield, in regards to capital and 
facilitator issues.
    Mr. Stupak. Thank you, Doctor.
    Mr. Whitfield. The gentlelady from Tennessee, Ms. 
Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman. And I want to 
thank all of you for your patience today. And I want to thank 
you for continuing to serve constituencies. We have gone 
through Katrina and look at Rita. And I had had some questions 
for Dr. Gerberding when we did panel No. 1, and I want to 
continue in that vain.
    We talked a little bit about CDC and the strategy that they 
felt was necessary, going through exercises, that they had 
learned a lot from the way the military approached this, and in 
the same vain I--and Dr. Kirsch and Dr. Peters, I think I'm 
going to address this to the two of you if I may. If I you were 
to look at the three things that really hampered you from doing 
your job after the storm hit, I would love to hear those. Now 
I'm not talking about disaster-related, I'm talking about the 
rules and regulations, the poor communication, the lack of 
coordination, all of those things that we heard either through 
many of your opening statements or through the questioning that 
has taken place in this committee today.
    And Dr. Kirsch, if you will go first.
    Mr. Kirsch. I'm betting we're going to agree without 
prearranging.
    I think the No. 1 problem that everyone faced in this 
disaster, from Red Cross to the hospitals to providers is the 
communication was essentially gone. I was there 4 days after 
the event and remained there for a week after that, and the 
cell phones in the more distant areas were not available, and 
the land lines were not available, and there were no radios and 
no SAT phones. And so I think by far and away the No. 1 issue 
is communications.
    The second one that was an early problem, which I think was 
relatively rapidly resolved, was logistics. I have to 
compliment Wal-Mart because I was fascinated to go to these 
small towns and find the Wal-Mart stores open, and Red Cross 
volunteers going to Wal-Marts and getting baskets full of 
supplies for their shelters and stuff. So logistics is another 
tremendous issue that has to be addressed, and I think 
coordinating with private industry is an excellent way to 
address that.
    The third issue is, I do believe, interagency coordination, 
although it was pretty good at the EOC level and the two 
States, I don't think it was perfect. And there was this 
tremendous lack of coordination of actual health delivery. And 
like I said, they had all these voluntary doctors wandering 
around with limited direction, and I think they need to have a 
better handle on that.
    Mrs. Blackburn. Okay, thank you.
    Dr. Peters, do you have anything to add to that?
    Mr. Peters. Two things that I would say. I would put 
security on my list because I think that, both for the 
facilities and the people out in the field, it created issues. 
Our ambulances didn't run at night for a while because of 
concerns and fear. And I would guess and almost certain that 
has had some impact on healthcare in our community. I think 
coordination of efforts.
    And I just did want to say that about 5 or 6 days into 
this, HHS organized a daily working group of which--the three 
hospitals, and then started with gradually pulled in CDC 
multiple other people so now that group is very big and 
continues to meet every morning at nine o'clock. And the first 
4 or 5 days there were a lot of issues with lack of 
coordination of efforts, well-meaning people that were crossing 
paths. And I think that effort, although everything is not 
perfect, has given us all a great benefit that at least the 
people are talking to each other, we are understanding in, I 
think, a more teamwork approach to things.
    Mrs. Blackburn. Okay. Thank you.
    Mr. Whitfield. The gentlelady's time is expired.
    We recognize the gentlelady from California, Ms. Capps.
    Mrs. Capps. Thank you again, Mr. Chairman.
    During my first round, I used the bill in the Senate 
introduced by Senator Grassley and Baucus and focused on one 
witness to expound on support or not support for it, and now I 
want to use this time, at least part of it, to get a quick 
answer from some of the others of you whose organizations have 
made some statements so that we can have that for the record.
    Dr. Mark Peters, the American Hospital Association letter 
that I have here States AHA's support for this legislation, 
stating in the letter that AHA believes it is critical that any 
healthcare coverage provided to survivors in Katrina must 
follow them wherever their journey for temporary or permanent 
housing and work may take them. Do you also support 100 percent 
Federal funding for low-income hurricane evacuees through 
Medicaid in the devastated States as this bill does?
    Mr. Peters. Yes.
    Mrs. Capps. All right. Thank you. I think, Dr. Kirsch, the 
same, the American Red Cross is on board in support of the 
Grassley-Baucus bill. The letter from your organization States 
that, quote, as our Nation faces the challenging task of 
ensuring that the victims of Hurricane Katrina receive care and 
compassion and support needed to reconstruct their lives, 
legislation such as this Senate bill helps to ensure that their 
healthcare needs will be met. And this is something that you 
also support?
    Mr. Kirsch. If my president supports it, I certainly 
support it.
    Mrs. Capps. A true team player.
    Also, Dr. Simmons, the national Association of Community 
Health Centers supports Senate bill 1716, and I won't read the 
quote from your letter, it's a similar kind of quote. Do you--
maybe I'll ask you a more targeted question, can you elaborate 
on what 100 percent Federal funding would mean for getting 
community healthcare centers back on their feet?
    Mr. Simmons. We do support strongly the Grassley-Baucus 
bill. One of the things that 100 percent Federal match would 
do, it would eliminate thing States from shying away from 
serving the Medicaid population because of a State matching 
their own individual dollars.
    And in consideration also waivers; we are concerned, as 
community health centers, that if this bill does not provide 
100 percent financing or reimbursement for Medicaid, that 
waivers or other means that are used--there are two services 
that health centers provide that will probably be eliminated, 
one of them is EPSDT, and the other one is the deferred----
    Mrs. Capps. Mm-hmm.
    Mr. Simmons [continuing]. Payment, which will severely 
strain or cripple the health center system.
    Mrs. Capps. Mr. Chairman, I also want to get on record that 
Dr. Hoven, the AMA endorses this legislation.
    Ms. Hoven. Yes, it does. And if I might make a point here, 
I think we recognize strongly that the safety net is a 
Medicaid-driven safety net right now. And it is what you're 
hearing today are stories about the safety net not working, and 
so for that reason we speak very much in support of this.
    Mrs. Capps. And finally, I know I'm over now, but this will 
make it unanimous. Mr. Dufour--I'm sorry, I don't want to 
interrupt you. You don't represent necessarily a service--well, 
yes, you do, but you are also part of the private sector. And 
you nodded, however, when somebody else said yes. Do you want 
to commit on this issue, on the Senate bill?
    Mr. Dufour. Well, I haven't read the bill. I will agree 
with the fact that a lot of State budgets are stretched, 
they're trying to find ways to save money; and by the Federal 
Government stepping up and doing this it is going to help 
provide needed relief for the States.
    Mrs. Capps. Makes it unanimous. Thank you very much.
    Mr. Whitfield. Thank you.
    Dr. Burgess, you are recognized.
    Mr. Burgess. Okay. Well, since we're talking about the 
Grassley bill, now I am from Texas, and we took in a lot of 
people who were displaced, and now we've got some problems of 
our own coming our way. Last Friday, Secretary Leavitt created 
a special temporary category for Medicaid eligibility for 
hurricane evacuees, and these individuals do receive a full 
Federal match. They are not going to be burdens upon the 
State's match. But even more, it goes a little further, it 
creates an uncompensated care pool for many of those services 
that don't fit into traditional Medicaid or you would have to 
ask for a waiver to get them to fit into Medicaid.
    So this seems to me--this administrative fix seems to me to 
be a much more logical approach rather than depending upon us 
to write legislation, get it through the House and the Senate, 
conference committee, over to the President to get signed--good 
luck if you expect to see it before Christmas, it's probably 
going to hit sometime around Valentine's Day. The reality is 
we're already doing that, the Secretary is already doing that 
for Texas. And if that needs to be expanded to other places, I 
would encourage perhaps the Department of HHS to consider that. 
But the whole purpose was not to recreate a Medicaid system 
that may at its very core be dysfunctional, but to prevent the 
very costly complications of disease, many of which are 
absolutely preventable.
    We saw the situation with the buses when they arrived in 
Dallas, it was simply a question of getting somebody back on 
their blood pressure meds who had been off for 4 days, someone 
who was up against probably a hospitalization or disability 
because of not treating their disease, folks, as they came off 
the bus were, are you on medication, even if they didn't know 
what it was, triaged over to a desk where they could be 
interviewed, their prescriptions written.
    As the gentleman pointed out, people went down there to do 
surgery, but were writing prescriptions. But I've got to tell 
you the doctors in Dallas, Paul Peppy and Ray Fowler, did a 
tremendous job. Here it is Labor Day weekend, they send out a 
blast fax to all the doctors of the Dallas County Medical 
Society, 3,600 members, 800 showed up on a holiday weekend.
    And we've got to figure that a quarter of them are on call 
anyway at other hospitals and couldn't respond. So that is 
tremendous response from the private sector. Stepped up, did 
what was necessary. Out of 17,000 patients brought to Reunion 
Arena, 200 were hospitaled at Parkland Hospital. 200 patients 
out of a pool of people who had been in the Superdome, many of 
them on chronic medications and hadn't taken them for 4 or 5 
days, let alone all of the other horrors that they had to live 
with while they were inside there.
    So actually, there's a situation that worked well because 
people were given the freedom and the flexibility to do the 
right thing.
    And I know I haven't asked a question, Mr. Chairman, but I 
appreciate the extra time, I just wanted to make that point. 
You know, we'll do legislative fixes if we need to. Dr. Peters, 
if we need to roll back the star clause, I'm with you, I'll 
help you, but Grassley-Baucus, it's months away before you get 
that help. Secretary Leavitt has provided that help this week. 
Thank you.
    Mr. Whitfield. Thank you, Dr. Burgess.
    Mr. Rush, do you have any questions?
    Mr. Rush. Thank you, Mr. Chairman.
    Ms. Blakeney, according to the Joint Commission, the 
affected areas in Louisiana will suffer from a shortage of 
doctors and nurses because they have left or are leaving for 
other communities. This is a segue into what I consider one of 
the most serious problems our public health system is 
confronted with across the Nation. And I think that what 
happened with the Katrina really kind of focuses the attention 
on the shortage of doctors and nurses in the underserved 
communities.
    Could you expand upon the thought that maybe this is an 
opportunity for us to have some incentive programs to get 
doctors and nurses trained and serving in inner city areas?
    Mrs. Blackburn. Thank you for your question, Congressman.
    The fact of the matter is that if we do nothing to address 
the nursing shortage, we will have a shortage of about 30 
percent shortage of nurses in this country by the year 2020. 
Funding for nursing education, funding to support nursing 
education, while Congress has been very kind to us and has 
gradually increased that line item in Title VIII for the last 
few years, as much as we are appreciative of that, you need to 
understand that it only touches the tip of the iceberg. The 
bottom line is to get nurses and physicians into those areas, 
we must first have them in the first place.
    Loan forgiveness programs, the ability to support, both 
financially and with access to continuing education in 
universities in those areas, would be a great incentive to 
bring nurses and other clinicians back into that area. The 
bottom line is that it's--many of our nurses who have relocated 
to other areas can easily find jobs in those areas. There are 
shortages of nurses in Texas, Arkansas, Tennessee, all of the 
surrounding States. So those nurses can easily, once they have 
the identification and their licenses, can find those jobs. 
Bringing them back is going to require specific attention.
    Mr. Rush. Thank you very much.
    Mr. Dufour, the remaining seconds of my time. I was reading 
a story in the Wall Street Journal a couple weeks ago, and it 
was fascinating, about Wal-Mart and how Wal-Mart was able to 
communicate, organize and mobilize with the divisions of the 
military really. Can you expound upon that briefly, what you 
all were able to do and why were you able to do it.
    Mr. Dufour. Wal-Mart has an emergency operations center 
where someone is dedicated to that, just like as of now, folks 
who are in the emergency operation center are preparing for 
Hurricane Rita. We use our data to determine what products 
customers need and want in these disasters and start staging 
those products. Once the disaster hits, we have a lot of folks 
manning the phone and just a lot of coordination within the 
company of what the needs are. Regional vice-presidents and 
other folks go out to the field, assess the situation of the 
stores and what the needs are and communicate that back to our 
corporate office.
    Mr. Rush. Well, I want to just congratulate you all.
    Mr. Whitfield. Well, I want to thank all of you for your 
patience; I know many of you have been here since nine o'clock 
this morning. Your testimony was invaluable as we look at ways 
to be more responsive to this disaster. I want to thank you for 
your dedication and commitment. And for those of you who've 
made specific recommendations, I want to assure you that we are 
going to examine that, explore that, and we my have some 
jurisdictional issues that will have to be addressed, but 
without your assistance we would be not as far along as we are 
now. So thank you very much, and this hearing is adjourned.
    [Whereupon, at 3:26 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
